<html>
<title> - THE CONFLICT BETWEEN SCIENCE AND SECURITY IN VISA POLICY: STATUS AND NEXT STEPS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    THE CONFLICT BETWEEN SCIENCE AND
                        SECURITY IN VISA POLICY:
                         STATUS AND NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2004

                               __________

                           Serial No. 108-43

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
91-903                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                           February 25, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    16

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    16

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    17

                               Witnesses:

The Hon. Asa Hutchinson, Under Secretary for Border and 
  Transportation Security, Department of Homeland Security
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    23

Mr. Jess T. Ford, Director, International Affairs and Trade, 
  General Accounting Office
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    32

Ms. Janice L. Jacobs, Deputy Assistant Secretary, Office of 
  Consular Affairs, Department of State
    Oral Statement...............................................    33
    Written Statement............................................    34

Mr. Robert J. Garrity, Jr., Deputy Assistant Director, Record/
  Information Administration, Federal Bureau of Investigation
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    45

Discussion.......................................................    46

             Appendix 1: Answers to Post-Hearing Questions

The Hon. Asa Hutchinson, Under Secretary for Border and 
  Transportation Security, Department of Homeland Security.......    68

Ms. Janice L. Jacobs, Deputy Assistant Secretary, Office of 
  Consular Affairs, Department of State..........................    70

Mr. Robert J. Garrity, Jr., Deputy Assistant Director, Record/
  Information Administration, Federal Bureau of Investigation....    75

             Appendix 2: Additional Material for the Record

Statement by Janice L. Jacobs, Deputy Assistant Secretary for 
  Visa Services, United States Department of State, on the 117th 
  class of Foreign Service Officers..............................    80

Statement by the Association of American Universities............    84

 
 THE CONFLICT BETWEEN SCIENCE AND SECURITY IN VISA POLICY: STATUS AND 
                               NEXT STEPS

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:35 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    The Conflict Between Science and

                        Security in Visa Policy:

                         Status and Next Steps

                      wednesday, february 25, 2004
                          9:30 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 25, 2004, the House Science Committee will 
hold a hearing to review the impact of enhanced security measures on 
the entry into the U.S. of foreign students and scholars. More 
specifically, the Committee will examine whether the new security 
measures have enhanced security, whether they have been unnecessarily 
detrimental to the U.S. scientific enterprise, and how they can be 
implemented more smoothly. As part of the hearing, the General 
Accounting Office (GAO) will release a new study, conducted at the 
Committee's request, on the extent of visa delays and what might be 
done to reduce them without compromising security.
    The hearing will build on a hearing the Committee held on visa 
issues on March 26, 2003 and on other hearings the Committee has held 
over the past two years on the impact of security concerns on 
scientific research.

2. Witnesses

The Honorable Asa Hutchinson is the Under Secretary for Border and 
Transportation Security at the Department of Homeland Security (DHS). 
Prior to being confirmed as Under Secretary, Mr. Hutchinson served as 
Administrator of the Drug Enforcement Administration. Before that, he 
served as a Member of Congress from Arkansas from 1997-2001.

Mr. Jess Ford is the Director of International Affairs and Trade at the 
General Accounting Office (GAO). Since 1973, Mr. Ford has worked 
extensively in the national security and international affairs areas at 
GAO, with issues ranging from trade, foreign assistance, and foreign 
policy.

Ms. Janice Jacobs is the Deputy Assistant Secretary for the Office of 
Consular Affairs at the Department of State. Prior to this appointment, 
she served two years as Deputy Chief of Mission at the U.S. Embassy in 
Santo Domingo. Ms. Jacobs's 23-year foreign service career has included 
a mix of Washington, D.C. and overseas assignments, including the 
Dominican Republic, Ecuador, Egypt, Ethiopia, France, Mexico, Nigeria, 
and Thailand.

Mr. Robert Garrity, Jr. is the Deputy Assistant Director for Record/
Information Administration at the Federal Bureau of Investigation 
(FBI). Mr. Garrity began his career with the FBI in August 1976 and he 
served in the Savannah, New York, and Dallas field offices. More 
recently, Mr. Garrity served as the FBI's Interim Records Officer at 
FBI headquarters, where he was charged with the responsibility of 
assessing the FBI's records management systems.

3. Overarching Questions

        <bullet>  How can the Federal Government implement a visa 
        regime that protects the Nation from terrorist threats without 
        turning away the foreign students and scholars on which the 
        U.S. scientific enterprise has long depended? Have changes in 
        visa processes instituted since September 11th had unnecessary 
        detrimental effects on the U.S. scientific enterprise?

        <bullet>  Does the U.S. collect the data needed to determine 
        the impact of visa processes on the interest and ability of 
        foreign students and scholars to work in the U.S.? Does the 
        U.S. collect the data needed to determine whether visa 
        processes are effectively screening applicants to identify 
        potential terrorists?

        <bullet>  How can the visa processes for foreign students and 
        scholars be made to work more smoothly? Specifically: How does 
        the Administration plan to respond to the new GAO report, just 
        completed for the Science Committee, Improvements Needed to 
        Reduce Time Taken to Adjudicate Visas for Science Students and 
        Scholars? What is the current status of the Student Exchange 
        and Visitor Information System (SEVIS), the relatively new, 
        automated and sometimes-troubled system run by DHS to track 
        foreign students in the U.S.? What is the status of the 
        Interagency Panel on Advanced Science Security (IPASS), an 
        interagency committee that was supposed to screen foreign 
        students interested in studying topics that raised security 
        concerns?

4. Background and Current Issues

How dependent is the U.S. scientific enterprise on foreign students and 
        scholars?
    The U.S. has long been a magnet for foreign-born scientists and 
engineers, and many of the greatest U.S. scientific achievements have 
depended on them. Two classic examples are the scientists who fled the 
Nazis before World War II and became the leaders of the program that 
built the atomic bomb, and the scientists who left Germany after the 
war and helped form the core of the U.S. space program.
    Even with a far more extensive U.S. scientific enterprise today, 
the U.S. depends on foreign students and scholars. In 1999, the latest 
year for which figures were available, foreign students received more 
than one-third of the doctorates awarded in the U.S., and accounted for 
an even higher percentage in critical scientific fields. Foreign 
students were awarded almost half the U.S. doctorates in engineering, 
47 percent of the doctorates in mathematics and computer sciences, and 
40 percent of the doctorates in the physical sciences. Of the foreign 
students who received doctoral degrees in the U.S., 36 percent came 
from China and India. Many of them remained in the U.S. after 
completing their studies. In 1999, 72 percent of foreign doctoral 
recipients planned to stay in the U.S., and half had already received 
firm job offers. (Statistics are from National Science Foundation, 
Science and Engineering Indicators.)
    Statistics are not available for faculty, but many faculty in the 
physical sciences and engineering are also in the U.S. on visas. Also, 
foreign scholars require visas to attend scientific conferences in the 
U.S. where their contributions can help U.S. scientists keep abreast of 
the most important global developments in their fields.
What changes have taken place since the September 11th attacks that 
        affect foreign students and scholars?
    While the U.S. has benefited incalculably from being a haven for 
foreign students and scholars, U.S. openness also makes the Nation more 
vulnerable to security threats. Several of the September 11th hijackers 
were in the U.S. on student visas (though not to study science or 
engineering), and scientific know-how gained in the U.S. could later be 
turned against our country. With that in mind, both Congress and the 
Administration have made significant changes to the visa system in the 
past few years. Changes in visa policy and the specific ways those 
changes have been implemented have tended to make the visa process 
slower and more cumbersome. The most significant changes are described 
below:

            New Bureaucracy
    First, in the Act creating the Department of Homeland Security 
(DHS), Congress significantly altered the bureaucracy in charge of 
visas. DHS (rather than the State Department) is now in charge of 
establishing visa policy and reviewing its implementation. The State 
Department continues to implement the policy by managing consular 
officers, making decisions on individual visa applications and issuing 
the visas. The Act also abolished the Immigration and Naturalization 
Service (INS), which was part of the Justice Department, and replaced 
it with the Bureau of Immigration and Customs Enforcement (ICE), which 
is part of DHS. That Bureau is responsible for the student tracking 
system (SEVIS) and related policies. DHS began full operations last 
March and has since signed a Memorandum of Understanding with the State 
Department concerning visa processes.

            Additional Security Checks
    Second, visa applicants are much more likely than they were before 
September 11th to be subject to security checks. However, the 
government does not seem to have clear and consistent criteria about 
which visa applicants warrant a security check or how to determine 
whether an applicant presents a security threat. The State Department 
has been encouraging consular officers to err on the side of caution. 
By contrast, prior to September 11th, State Department visa operations 
focused primarily on screening applicants to determine whether they 
intended to work or reside illegally in the U.S. following expiration 
of their visas rather than on security concerns. Consular officers were 
encouraged to facilitate legitimate travel, and many even faced 
pressure to issue more visas.
    The security check process for those engaged in sensitive 
technologies is known as Visas Mantis (Appendix I). Consular officers 
can request a Visas Mantis review whenever they have doubts about an 
individual applicant. A request for a Visas Mantis review is sent from 
the consulate to Washington, and then an investigation is carried out 
by the FBI or other relevant security agency. State Department 
officials in Washington review the results of the investigation and 
advise the consular officer on whether to grant the visa. But the 
ultimate decision is left up to the consular officer who originally 
requested the Visas Mantis review.
    In deciding whether to request a Visas Mantis review, a consular 
officer may consider whether a visa applicant will be dealing with 
technologies that are on the State Department's Technology Alert List 
(TAL). The TAL includes technologies with potential ``dual-use'' 
applications in 15 categories, which range from munitions and rockets 
to urban planning and sensors. Some observers believe that the TAL is 
not sufficiently selective to be of real use and increases the 
likelihood that consular offices will seek Visas Mantis reviews that 
are not needed. The TAL is so broad that it includes nearly every 
possible associated technology or skill involving chemistry, 
biochemistry, immunology, chemical engineering and pharmacology to name 
a few.

            Personal Interviews
    Third, in August 2003, the State Department issued a new policy, 
requiring virtually all visa applicants to be interviewed in person by 
a consular officer. The requirement can only be waived for a person who 
is either very young or very old. Limited exceptions also exist for 
diplomatic or official visas and those in the national interest. No 
additional funds were provided to consulates to meet this additional 
workload. Delays in scheduling interviews have, in some cases, made it 
impossible for a student to enroll.

            SEVIS
    Finally, to improve the tracking of foreign students and scholars, 
Congress created the Student and Exchange Visitor Information System 
(SEVIS), a computerized database of foreign students in the U.S., which 
was fully implemented in August 2003. Institutions of higher education 
must input information on their foreign students into the system and 
must keep such information as a student's address and educational 
status up-to-date. SEVIS replaced a paper-based system, which was 
widely criticized as antiquated and inadequate. Initially, the system 
was plagued with technical flaws. The system sometimes lost, changed or 
misplaced data. Universities report that the system is improving, but 
continues to have technical glitches that may complicate a foreign 
student's ability to enter the U.S.
What impact have the new rules had on the U.S. scientific enterprise?
    There are some early indications that the new visa rules are 
discouraging foreign students from coming to the U.S., and there are 
numerous anecdotes of students and researchers needlessly running afoul 
of the new rules, with damage to their research as a result.
    According to a recent report by the Institute of International 
Education, the number of foreign students enrolled in American colleges 
and universities rose by 0.6 percent in 2002, the smallest growth since 
1996. In each of the previous two academic years, foreign student 
enrollment increased by 6.4 percent. In a 2003 survey of 320 U.S. 
university officials by the Association of International Education (a 
different group from the Institute), 94 percent of respondents said 
they believed that foreign student enrollment was declining because the 
students felt that U.S. visas were too difficult to get. The drop is 
coming as other nations are competing more aggressively for students 
from outside their borders. In the 2003 survey, 45 percent of the 
university officials said that increased marketing efforts by other 
countries or relaxation of other countries' visa regulations had 
contributed to the drop off in foreign students.
    Typical of the anecdotes was a case in which a graduate student 
briefly returned to China after working at the Johns Hopkins Medical 
School for two years. When he attempted to return to the U.S. he was 
delayed and his diabetes research was compromised.

How much information do we have on how the new system is working?
    Data on how the visa system is working is extremely difficult to 
obtain. The State Department keeps very few statistics related to visas 
for scientists and engineers. Also, some information is inherently 
difficult to obtain, such as information on how many individuals 
decided not to apply for a visa because of the new regulations.
    Broad data can be pieced together. Based on an analysis of State 
Department data, GAO determined that in fiscal year 2003, the State 
Department issued 235,579 student visas (for students in all fields and 
at all levels of study) and 283,660 exchange visitor visas. In that 
same period, the State Department rejected 128,660 applicants for 
student visas (for any reason) and 54,614 applicants for exchange 
visitor visas. No further breakdowns of those data are available.
    For example, the State Department has no data on the number of 
science student and scholar visa applicants who undergo a Visas Mantis 
check or on how long it took to conduct Visas Mantis checks.

What did the GAO examination of the system find?
    Because of the lack of data, the Science Committee turned to GAO to 
get some sense of how the visa system has been working. The study 
focused on implementation rather than policy. Last March, Science 
Committee Chairman Boehlert and then-Ranking Member Hall sent a letter 
to GAO (Appendix II), asking GAO to determine how long it took a 
science student or scholar from another country to obtain a visa. The 
request also asked GAO to identify the factors that contributed to visa 
delays and to review the measures underway to improve the visa process.

            Findings
    GAO reviewed the State Department's visa-related data systems and 
determined they could not track science applicants within student (F) 
and exchange visitor (J) visa categories. As a result, they were unable 
determine the length of time to adjudicate visas for science students 
or scholars. However, GAO did find that visa adjudication time is 
largely dependent on whether applicants were subject to Visas Mantis 
reviews. GAO then sampled Visas Mantis cases involving science students 
and scholars and determined the following:

        <bullet>  It took an average of 67 days to adjudicate Visas 
        Mantis requests (from the time American consular office 
        received the visa application to the time the Department of 
        State notifies the office of the results of the review).

        <bullet>  Personal interviews with consular officers also 
        contributed to visa delays (generally taking two to three weeks 
        at American consulates in China, India and Russia).

        <bullet>  Many consular staff were concerned that they were 
        contributing to the wait because they lacked clear guidance on 
        when to seek Visas Mantis checks and on whether the checks 
        provided enough background information.

    In response to the GAO findings, the Department of State and the 
FBI reported that they have several measures underway to improve the 
visa process. To improve transparency, both agencies have set up public 
inquiry desks to answer questions about the status of pending visa 
applications. To reduce the time it takes to process Visas Mantis 
cases, the agencies indicated that they are working together on a case-
by-case basis to identify and resolve Visas Mantis cases that have been 
outstanding for several months to a year (estimated at nearly 1,000 
cases). In addition, the State Department has invested $1 million to 
upgrade its technology for transmitting Visas Mantis requests, though 
the implementation timetable and other details associated with this 
technology remain unclear.

            Recommendations
    The GAO report recommended that the Secretary of State, in 
coordination with the FBI Director, and the Secretary of Homeland 
Security, develop and implement a plan to improve the Visas Mantis 
process. In developing this plan, GAO urged the Secretary to consider 
actions to: 1) establish milestones to reduce the current number of 
pending Visas Mantis cases; 2) develop performance goals and 
measurements for processing Visas Mantis checks; 3) provide additional 
information, through training or other means at consular posts, to 
clarify guidance on the overall operation of the Visas Mantis program, 
including when Mantis clearances are required, what information 
consular posts should submit to enable the clearance process to proceed 
as efficiently as possible, and how long the process takes; and 4) work 
to achieve inter-operable systems and expedite transmittal of data 
between agencies.

What are the other main problems and issues facing the visa system 
        right now?
    There are a number of issues beyond those discussed above:
            IPASS
    In May 2002, the White House announced that an interagency 
committee would be set up to review the visa applications of 
individuals intending to come to the U.S. as graduate students, post-
doctoral fellows, or researchers in ``sensitive'' fields to do work 
``uniquely available'' on U.S. campuses. The committee was dubbed the 
Interagency Panel on Advanced Science Security (IPASS) and was to 
include representatives of the White House Office of Science and 
Technology Policy (OSTP), DHS, the State Department and other relevant 
agencies. Initially, OSTP was heading up the efforts to create IPASS, 
but that task moved to DHS once that Department was created.
    DHS is still putting together IPASS. It remains unclear exactly who 
will be on IPASS, how it will function, and what visa applications it 
will review. The initial impetus for IPASS was to ensure that federal 
officials with scientific expertise would have a role in reviewing 
visas, in part, to prevent foreign scientists from being turned away 
needlessly. But now, some in the scientific community are concerned 
that IPASS could add another level of screening and delay to an already 
burdensome process.

            Visa Waiver
    The Enhanced Border Security Act of 2001 called for 27 countries 
whose citizens do not require a visa to enter the U.S. (such as Canada, 
Germany, Britain and New Zealand) to issue passports with biometric 
data for all citizens who travel to the U.S. Under the law, if one of 
those countries does not issue such passports by October 26, 2004, then 
the U.S. will begin requiring visas for that country. So far, only two 
nations seem likely to meet the deadline. That could mean that the 
State Department may need to begin processing as many as five million 
more visa applications annually. That could easily overwhelm the 
resources of the visa system.

            US VISIT
    The Border Security Act of 2002 requires all U.S. ports of entry to 
have equipment and software installed that will allow biometric 
comparison and the authentication of all visas and other travel and 
entry documents by October 26, 2004. Named the U.S. Visitor and 
Immigrant Status Indicator Technology (U.S. VISIT) Program by DHS, the 
system is designed to secure the border and track visa overstays. U.S. 
VISIT is going to be implemented in phases over the next several years. 
The first phase has been deployed at 115 airports and 14 seaports. 
Foreign visitors who require a visa to travel to the U.S., including 
those in this country on student or exchange visitor visas, will have 
their travel documents scanned, fingerprints and photos taken, and 
identification checked against terrorist watch lists. They system 
replaces the current National Security Entry-Exit Registration System 
and will be integrated with SEVIS. Some are concerned that the system 
will not be prepared to handle its first mass influx of students this 
fall, which could result in delays in entry into the U.S.

            SEVIS
    Although SEVIS continues to improve, a fully functioning system 
appears to still be a few years away. In addition, in October 2003, the 
State Department issued a proposed rule to implement the Congressional 
requirement that the SEVIS system be funded by visa applicants. 
Universities have a number of concerns about the proposal.
    Under the proposed rule, individuals interested in obtaining a visa 
would have to pay a $100 fee before they are eligible to get a visa 
application. The fee must be remitted either by credit card or with a 
check or money order in dollars drawn on a U.S. bank. Universities are 
concerned that the fee may be too high, that it must be paid even by 
applicants who do not end up enrolling in a U.S. institution (and only 
such students get recorded in SEVIS), and that it will create a system 
of paper receipts that could further slow down the electronic SEVIS 
system.

5. Questions for Witnesses

Under Secretary Hutchinson (DHS)

        <bullet>  When establishing visa policy, how do you balance the 
        potential threat of terrorism posed by visiting students and 
        scholars and the benefits to the U.S. of welcoming visiting 
        scholars to participate in our scientific enterprise?

        <bullet>  Is it possible to design a system that will weed out 
        potential terrorists without discouraging the world's best 
        scientists and brightest students from visiting the U.S. and 
        contributing to our knowledge base?

        <bullet>  How does the Department of Homeland Security work 
        with State Department consular officers to help them determine 
        which would-be visiting scholars pose a potential security 
        threat?

        <bullet>  An effective tracking system is an essential tool in 
        reducing the threat of terrorism, yet at a March 2003 Science 
        Committee hearing, one witness testified that the Student and 
        Exchange Visitor Information System (SEVIS) was deployed before 
        it was fully operational, leading to numerous glitches and 
        breaches of confidentiality. What is the current status of 
        SEVIS? What steps has the Department of Homeland Security taken 
        to address problems that were identified last year?

        <bullet>  Is the SEVIS fee a processing fee or a tracking fee? 
        What is the status of the SEVIS fee? How will it be collected 
        and why is that agency best suited for the job? What impact 
        will this method of collection have on foreign students and 
        scholars seeking entry to the U.S.?

        <bullet>  In remarks to the American Association of 
        Universities, Secretary Ridge characterized the Interagency 
        Panel on Advance Science and Security (IPASS) as ``one of the 
        greatest solutions'' in dealing with the problems of foreign 
        students and scientists. What is the status of IPASS? How will 
        it work? When will it be operational?

Mr. Garrity (FBI)

        <bullet>  How are Visas Mantis requests currently transmitted 
        from the State Department to the FBI and from the FBI to the 
        State Department?

        <bullet>  What is your internal process for tracking a Visas 
        Mantis case? How often is that information available 
        electronically? And how often must that file be located 
        physically? What are your plans to fully automate this process? 
        Have there been cases where a file has not been located and the 
        applicant is still pending a response?

        <bullet>  What priority do Visas Mantis investigations have 
        among other FBI work? How do you think these waits impact your 
        ability, and the ability of other law enforcement agencies, to 
        identify and capture a terrorist as opposed to simply 
        preventing him or her from entering the country at that 
        particular post?

        <bullet>  What steps are you taking to make FBI's systems 
        inter-operable with the State Department, which recently 
        invested about $1 million to upgrade its technology for 
        transmitting Visas Mantis requests? Until systems are inter-
        operable, how will information be transmitted and what impact 
        will it have on processing time?

        <bullet>  How satisfied are you about the appropriateness of 
        the cases referred for additional review under Mantis? Are 
        consular officers providing agents with enough information and 
        the right type of information in their requests?

        <bullet>  What steps have you taken to improve the visa 
        application vetting process? In light of the fact that there 
        have been lengthy waits and there are still Mantis cases that 
        have been pending more than 60 days, what measures do you have 
        underway that will identify and resolve these cases?

Ms. Jacobs (State)

        <bullet>  In managing the visa application process, the 
        consular corps, and their functions, how does the State 
        Department balance the potential threat of terrorism posed by 
        visiting students and scholars and the benefits to the U.S. of 
        welcoming visiting scholars to participate in our scientific 
        enterprise?

        <bullet>  In your view, is it possible to design a system that 
        will weed out potential terrorists without discouraging the 
        world's best scientists and brightest students from visiting 
        the U.S. and contributing to our knowledge base?

        <bullet>  What guidance do you provide to consular staff on the 
        Visas Mantis process? Do you provide guidance on when to apply 
        Visas Mantis? How do consular officers know if they are 
        applying the checks appropriately?

        <bullet>  What steps has the State Department taken to improve 
        the visa process during the last year? In light of the fact 
        that there are still Mantis cases that have been pending more 
        than 60 days, what measures do you have underway that will 
        identify and resolve these cases? How do you propose to better 
        track these cases in the future?

        <bullet>  How--and how often--are the results of name checks 
        for Visas Mantis cases provided to the State Department? Why do 
        you think it took the State Department two weeks or longer to 
        inform a post that it could issue a visa?

        <bullet>  What impact have new requirements, such as the 
        personal appearance requirement, had on the length of time it 
        takes to adjudicate a visa? What impact has your request to 
        give priority consideration to students and exchange visitors 
        been accommodated at various posts and how has this impacted 
        staffing? What impact will the implementation of new biometrics 
        requirements in October 2004 have on the length of time to 
        adjudicate a visa?

Appendix I--Visa Adjudication Process

         1.  The process begins when an applicant schedules a visa 
        interview at an American consulate abroad.

         2.  After receiving an interview time, the applicant goes to 
        the post, where the visa application is reviewed by the 
        consular officer and the applicant's name is checked against 
        the Department of State's automated system of law enforcement 
        watch lists (also known as CLASS).

         3.  The consular officer reviews the data and conducts a 
        personal interview.

         4.  If the consular officer determines that the applicant is 
        eligible for non-immigrant status under the INA\1\, the 
        applicant moves to the next step in the process. If the 
        applicant is not eligible for non-immigrant status, the visa 
        application is denied.
---------------------------------------------------------------------------
    \1\ The term non-immigrant generally refers to a foreign national 
seeking to enter the U.S. temporarily for one of the specified purposes 
allowed under the Immigration and Nationality Act (INA). The most 
common reason for denial of a visa is that the applicant intends to 
come to the U.S. and remain. Section 214(b) of the INA presumes that 
every alien is an immigrant until he or she establishes that he or she 
is eligible to non-immigrant status under the INA. Often, this means 
establishing, in addition to other criteria, that the alien has 
sufficient social or economic ties to compel him or her to return home 
after visiting the U.S.

         5.  After establishing the applicant's non-immigrant status, 
        the consular officer determines if there is any reason the 
        applicant might be ineligible to receive a visa. After looking 
        to see if the applicant's field or area of study falls under 
        the Technology Alert List (TAL), a consular officer may use his 
        or her discretion to request a security advisory opinion (in 
        the case of TAL, or sensitive technology concerns, this request 
---------------------------------------------------------------------------
        is known as Visas Mantis).

         6.  If the consular officer does not request a security 
        advisory opinion, he or she makes a decision to issue or deny a 
        visa to an applicant. If the consular officer requests the 
        security advisory opinion, he or she sends a Visas Mantis cable 
        to State Department headquarters in Washington, DC.

         7.  The State Department's Consular Affairs sends the cable to 
        the Nonproliferation Bureau, the Federal Bureau of 
        Investigation and other federal agencies.

         8.  These agencies conduct an investigation and return with 
        their findings to Consular Affairs.

         9.  Consular Affairs summarizes the findings and returns the 
        prepared security advisory opinion, which indicates whether or 
        not they have an objection to the visa, to posts.

        10.  Using the security advisory opinion, the consular officer 
        issues or denies the visa to the applicant.

Appendix II--GAO Request

The Honorable David M. Walker
Comptroller General of the United States

Dear Comptroller General Walker:

    Each year, thousands of international scholars and students 
participate in education and exchange programs at U.S. universities and 
institutions. Their research is important to achieving technological 
advancements that serve U.S. and global interests. Furthermore, it 
brings together the U.S. and international communities, promoting 
dialogue and teamwork that is useful for our overall science and 
foreign policy goals. While the Committee wants to facilitate this type 
of exchange, we are well aware of the need to balance that effort with 
those to screen out visa applicants who pose a threat to our country.
    We have received information that the research and study plans of 
some scientific scholars and students from abroad have been derailed 
because their visa applications were denied or the adjudication process 
took too long. The Committee believes that it is in our national 
interest for these visa decisions to be made as quickly as possible, 
consistent with immigration law and homeland security concerns. For 
that reason, we would like to obtain a fuller understanding of the visa 
backlog issue and its magnitude.
    We read with interest your report entitled BORDER SECURITY: Visa 
Process Should Be Strengthened as an Anti-terrorism Tool. In 
particular, we were interested in the report's discussion of the Visas 
Condor program and the delays and problems identified in the special 
visa checks initiated after September 11, 2001.
    We believe that a similar assessment of the visa process as it 
pertains to foreign scientific scholars and students (particularly for 
F-1 and J-1 visas) would be very useful to the Committee and our 
oversight agenda. In carrying out this investigation, we suggest that 
you consider (1) results of visa adjudication, including denial rates, 
visa backlogs, and duration of visa reviews, (2) operation of the Visas 
Mantis program, (3) visa policies and procedures concerning applicants 
who will engage in research or studies involving potentially sensitive 
technologies, (4) existing exchange programs and bilateral protocols 
guiding scientific exchanges, and (5) the impact of actions taken since 
September 11 to strengthen and improve visa policies and procedures.
    In addition, because many seeking entry to the United States for 
scientific research and studies are citizens of China (mainland and 
Taiwan), India and Russia, we ask that you determine what other factors 
may be affecting the processing of visas in these countries, including 
adequacy of trained staff at post, level of scrutiny over applications, 
and special security or other concerns.
    Based on your analysis, we would appreciate your thoughts on 
potential improvements that can be made. As you develop your work 
scope, please contact Kara Haas at 225-8115 to discuss study 
alternatives and timing.
    Thank you for the kind consideration of this request. We look 
forward to your findings.

                                Sincerely,





        Sherwood Boehlert                       Ralph Hall
        Chairman                                Ranking Member


Appendix III--Request for Written Testimony from Dr. Marburger

John H. Marburger, III, Ph.D.
Director
Office of Science and Technology Policy
Executive Office of the President
Washington, DC 20502

Dear Dr. Marburger:

    I understand that you will be unable to attend the Science 
Committee's February 25 hearing on the impact of new visa regulations 
on the ability of foreign students and scholars to enroll in education 
and engage in research in the U.S. Your perspective on this issue is 
important, however, and I would appreciate it if you could provide 
written answers to the following questions by February 20, 2004.

        1.  The Office of Science and Technology Policy (OSTP), 
        together with the Office of Homeland Security, established an 
        interagency working group to implement the requirements of 
        Homeland Security Presidential Directive 2, which called on the 
        Federal Government to prohibit certain international students 
        from receiving education and training in sensitive areas. In 
        May 2002, based on the recommendations of the working group, 
        the White House unveiled its plan to create an Interagency 
        Panel on Advanced Science Security (IPASS) to provide increased 
        scrutiny for student or exchange visitor applicants who hoped 
        to study or conduct research in certain sensitive science and 
        technology fields. What is the status of IPASS? When will IPASS 
        be operational?

        2.  What role does OSTP currently have in IPASS?

        3.  When you appeared before the Science Committee in October 
        2002, you indicated that those responsible for the enhanced 
        review of sensitive science and technology under IPASS would be 
        drawn from the Department of State, the Immigration and 
        Naturalization Service (U.S. Citizenship and Immigration 
        Bureau, Department of Homeland Security), intelligence and law 
        enforcement agencies, and federal science and technology 
        agencies. What role have you--or the federal science and 
        technology agencies under your purview--had in the review of 
        the visa applications of science students and scholars? Does 
        this structure meaningfully enhance homeland security or stem 
        the proliferation of sensitive science and technology without 
        the case-by-case review by scientific experts envisioned by 
        IPASS? Absent IPASS, how can we embed technical expertise in 
        the visa process?

        4.  In what way is your Office monitoring the extent to which 
        security procedures are hampering the entry of scientists and 
        engineers to the United States? Have you pressed for additional 
        data collection so that policy-makers can get a clearer picture 
        of the impact of the security regime?

    Thank you for addressing these issues. It is my hope that this 
hearing will encourage greater cooperation among the various agencies 
involved in the visa process--and provide greater appreciation for the 
impact of visa delays on students, scientists, universities and 
research facilities.

                                Sincerely,

                                SHERWOOD BOEHLERT

                                Chairman

    Chairman Boehlert. I want to welcome everyone to this 
morning's hearing which focuses on two issues of vital concern 
to this committee, and to the Nation as a whole; namely, how to 
enhance homeland security and how to ensure that we continue to 
have a thriving scientific enterprise. When it comes to visa 
policy, we sometimes talk about finding the proper balance 
between those two concerns. But talk of balance is in many ways 
misleading. Our nation will not be secure in the long run if it 
does not have a healthy scientific enterprise, and science 
cannot thrive in an atmosphere of insecurity.
    But security and science are also complementary in more 
practical ways that must be kept in mind when reviewing visa 
policy. A visa regime that casts too wide a net that holds up 
just about everybody for excessive security checks, that regime 
is not good for security or for science. It is not good for 
security because it distracts and overwhelms the system, taking 
resources away from investigations of individuals more likely 
to present a real threat to our nation. And it is obviously not 
good for science, given that the United States' success in 
science has always depended on attracting the best minds from 
around the world.
    Now all of this is easier to talk about in the abstract 
than to implement on a daily basis. Potential terrorists 
obviously aren't easily identifiable. As a Member of the 
Intelligence Committee, I am painfully aware of the real and 
insidious threats facing our nation. I spent three hours 
yesterday afternoon with the Director of the CIA in a world 
threat assessment briefing. Not very comforting. In the 
immediate wake of September 11, it was right to err on the side 
of caution. But we have had time to learn since then and we 
can't have a visa system that needlessly discourages and 
alienates scientists from around the world who could be a boon 
to this country.
    The General Accounting Office study that Congressman Hall 
and I requested, and that will be released at this hearing, 
indicates that we have some real problems with our current visa 
processes. That shouldn't surprise anyone. The study also 
indicates that we can solve these problems without compromising 
security, and in that respect, let me compliment one of our 
witnesses, Secretary Hutchinson, for the leadership he is 
providing in this area.
    I know about the problems, not only from the fine work of 
GAO, but from personal experience. I had to personally 
intervene repeatedly to get a visa for Dr. Ramon Bruguda, a 
world-class heart specialist who was featured recently in the 
New York Times for his life-saving research. He was having 
trouble getting permission to come to this country to do his 
world-class research at the Masonic Research Facility in my 
hometown of Utica, New York. Our visa system shouldn't be 
spending its time worrying about the Ramon Brugudas of the 
world.
    I am very pleased and grateful that we have before us today 
my friend and former colleague, Secretary Hutchinson, who is 
the person on the hot seat on this issue. His job ain't easy. 
Secretary Hutchinson has the extraordinarily daunting task of 
creating a visa policy that will let in scientists, while 
keeping out terrorists. I look forward to hearing from him. I 
hope that at the end of this hearing, we will have reached at 
least a preliminary agreement on steps that can be taken to 
make sure that our consular officers ask for security checks on 
anyone who might present a threat, but only on those who might 
present a threat, and how to collect better data to see if our 
visa security processes are properly focused.
    Everyone has to be willing to put up with more delays and 
bureaucracy in the post-September 11 world. But we still have 
an obligation to ensure that we are not needlessly alienating 
scholars from around the world who could help this Nation, and 
that we are not unnecessarily hamstringing or burdening our 
universities and research centers. As I said earlier in my 
testimony, and my high school English teacher would be offended 
if she heard me say it, it ain't easy. This is very, very 
difficult, and we all have to be mindful of the challenge 
facing Secretary Hutchinson and Governor Ridge. It is a 
difficult task.
    Our purpose here is to work cooperatively to face that 
challenge and overcome it in a responsible way so that we can 
shape public policy to the benefit of all Americans. Mr. 
Gordon.
    [The prepared statement of Chairman Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone to this morning's hearing, which focuses 
on two issues of vital concern to this committee and to the Nation as a 
whole--namely, how to enhance homeland security and how to ensure that 
we continue to have a thriving scientific enterprise.
    When it comes to visa policy, we sometimes talk about finding ``the 
proper balance'' between those two concerns. But talk of balance is in 
many ways misleading. Our nation will not be secure, in the long run, 
if it does not have a healthy scientific enterprise, and science cannot 
thrive in an atmosphere of insecurity.
    But security and science are also complementary in more practical 
ways that must be kept in mind when reviewing visa policy. A visa 
regime that casts too wide a net--that holds up just about everybody 
for excessive security checks--that regime is not good for security or 
for science.
    It's not good for security because it distracts and overwhelms the 
system, taking resources away from investigations of individuals more 
likely to present a real threat to our nation. And it's obviously not 
good for science, given that U.S. success in science has always 
depended on attracting the best minds from around the world.
    Now all this is easier to talk about in the abstract than to 
implement on a daily basis. Potential terrorists obviously aren't 
easily identifiable. As a Member of the Intelligence Committee, I'm 
painfully aware of the real and insidious threats facing our nation. 
And in the immediate wake of September 11th, it was right to err on the 
side of caution.
    But we've had time to learn since then, and we can't have a visa 
system that needlessly discourages and alienates scientists from around 
the world who could be a boon to this country. The General Accounting 
Office (GAO) study that Congressman Hall and I requested, and that will 
be released at this hearing, indicates that we have some real problems 
with our current visa processes. The study also indicates that we can 
solve those problems without compromising security.
    I know about the problems not only from the fine work of GAO, but 
from personal experience. I had to intervene repeatedly to get a visa 
for Dr. Ramon Bruguda, a world-class heart specialist, featured 
recently in The New York Times for his life-saving research, who was 
having trouble getting permission to come to this country to do work at 
the Masonic Home in Utica. Our visa system shouldn't be spending its 
time worrying about the Ramon Brugudas of the world.
    I'm very pleased and grateful that we have before us today, my 
friend and former colleague, Secretary Hutchinson, who is the person in 
the hot seat on this issue. Asa has the extraordinarily daunting task 
of creating a visa policy that will let in scientists while keeping out 
terrorists. I look forward to hearing from him.
    I hope that at the end of this hearing, we will have reached at 
least a preliminary agreement on steps that can be taken to make sure 
that our consular officers ask for security checks on anyone who might 
present a threat, but only on those who might present a threat, and on 
how to collect better data to see if our visa security processes are 
properly focused.
    Everyone has to be willing to put up with more delays and 
bureaucracy in the post-September 11th world. But we still have an 
obligation to ensure that we are not needlessly alienating scholars 
from around the world who could help this nation, and that we are not 
unnecessarily ham-stringing or burdening our universities and research 
centers.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman.
    I want to join you in welcoming our witnesses today, and I 
want to thank you for providing the opportunity for the 
Committee to explore this important issue. As I was listening 
to your opening statement, as usual, I concur, and quite 
frankly could not add to it or make it any better. So I will 
just again concur with your remarks, and we will move forward.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    I am pleased to join the Chairman in welcoming our witnesses to 
today's hearing.
    I want to thank the Chairman for providing this opportunity for the 
Committee to explore an important issue that is at the intersection of 
strengthening homeland security and ensuring the well being of the 
Nation's science and technology enterprise.
    Throughout much of our history, the United States has benefited 
from the infusion of scientific and engineering talent from abroad.
    Today, U.S. universities rely on foreign students to fill half or 
more of their graduate student positions in many fields of science, 
mathematics and engineering.
    Without these students, research programs could not go forward; and 
since about half of the graduates from these programs remain here, the 
science and technology capabilities of the Nation would also suffer if 
this pipeline were to dry up.
    As we learned in our hearing last Spring, there is growing evidence 
that excessive delays and uncertainty in obtaining visas by foreign 
students and scholars has made the U.S. less attractive as a 
destination for scientific training and for research collaborations.
    While the Nation clearly benefits from the presence of 
international students and scholars, we all understand the importance 
of being vigilant in guarding our boarders against those who would do 
us harm.
    Putting in place effective screening procedures for visa 
applications is reasonable and necessary.
    The issue before us today is not whether we need thorough and 
effective procedures for reviewing visa applications. Rather it is to 
find an appropriate balance between two important national goals.
    On the one hand we benefit from attracting talented international 
students to our universities, and we benefit by nurturing scientific 
collaborations and information exchange with foreign researchers.
    On the other hand, we must defend ourselves against terrorists.
    We must find ways to ensure that boarder security is applied 
effectively while also ensuring that this country remains an inviting 
place for bright foreign students to study and for scientific exchanges 
to occur with leading researchers from all parts of the world.
    The Committee charged the GAO to explore the current state of the 
visa application and approval process to help us understand how well it 
is working and to make recommendations on how it could be improved.
    The GAO's recommendations focus on the need for the three agencies 
represented here today to work together to develop and implement an 
improvement plan for the Visas Mantis process--the main source of delay 
in the processing of visas for science applicants.
    I look forward to hearing the agencies' reactions to the GAO 
findings and recommendations regarding the sticking points in the 
system, and how it can be made to work better.
    Also, I hope to learn what has become of the Interagency Panel on 
Advanced Science and Security, which Secretary Ridge has characterized 
as one of the greatest solutions for dealing with visa requests by 
students and scientists.
    I want to thank the Chairman for calling a hearing on this 
important subject.
    I appreciate the attendance of our witnesses today, and I look 
forward to our discussion.
    Thank you and yield back.

    Chairman Boehlert. Thank you very much. Mr. Smith, do you 
have any opening remarks? Thank you very much.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the impact of security measures to control 
entry of foreign students and scholars into the United States. I 
believe we must work hard to balance national security with the needs 
of universities. If visa delays and denials are indeed substantially 
increasing, the U.S. science and technology enterprise could be 
damaged.
    In response to events such as the 1993 World Trade Center bombing 
and the attacks of September 11, 2001, concerns have been raised about 
foreign students in the U.S. as well as the courses they studied and 
research they conducted. Certain government officials and members of 
the intelligence community were concerned that our existing student 
visa policy and free learning environment would provide terrorists easy 
access to our country and put us at risk of training future terrorists 
in sensitive areas. New regulations were imposed on processing visa 
applications, which have caused severe backlogs, delays, denials, and 
has hindered attendance at international conferences. Universities 
depend heavily on foreign students to fill postgraduate programs, 
particularly in science, and these students represent an important 
source of research assistance in the sciences and mathematics. In 
engineering, foreign students make up half of all candidates for 
advanced degrees. While national security is a great concern, we must 
recognize that very few international students are indeed a risk to the 
U.S. and the vast majority provides necessary assistance to our 
nation's academic environment.
    In my congressional district, Southern Illinois University-
Carbondale has been experiencing delays and decreases in international 
enrollments. Grassroots efforts have been underway to bring attention 
to the issue. For example, the Carbondale City Council recently passed 
a resolution objecting to certain cumbersome restrictions placed on 
foreign students. The decline in the international student population 
has had strong consequences for not only the university but also the 
town itself. The schools, businesses, and community are all enriched by 
the international community and are feeling the effects of the delays 
and decreases.
    I am interested to learn more about the trends in delays and 
denials over the past few years. I am also interested in learning more 
about implementation of the student visa system policy and ensuring 
that the overall process is both efficient and effective.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank Mr. Chairman, and thank you for calling this hearing today. I 
would also like to thank our invited guests for appearing.
    Today, we meet to examine the new security measures that have been 
put in place to enhance national security. We all agree that foreign 
scientists and scholars are important to maintaining the vitality and 
quality of the U.S. research enterprise. In fact, almost 35 percent of 
advanced degrees are conferred upon foreign scholars resident in the 
U.S. for all areas of science and technology.
    However, because of the events of September 11, Congress and the 
Administration took action to track foreign students and more carefully 
review the applications of those wishing to study sensitive areas of 
science and technology in the U.S.
    But scientists and educators complain that consular officers are 
using vague, arbitrary standards to decide which visa applications to 
refer for security reviews, trapping legitimate foreign researchers in 
a frustrating backlog.
    These delays bother educators and scientists, who say the free 
exchange of ideas is essential to scientific discovery. They point out 
that foreign-born scientists have been responsible for many major 
advances in medicine and technology, including the kidney dialysis 
machine, the Pap smear, plastic and the atomic bomb.
    The National Academies (the National Academy of Science, the 
National Academy of Engineering and the Institute of Medicine) 
complained over a year ago that recent efforts by the government to 
constrain the flow of international visitors in the name of national 
security are having serious unintended consequences for American 
science, engineering and medicine.
    It is a sad day when even the research to combat chemical 
biological terrorism has been stalled by the visa delays.
    In fact, in my home state of Texas, the 44,192 foreign students at 
colleges and universities fuel Texas' economy with money is spent on 
tuition and living expenses in excess of $700 million dollar during the 
2001-2002 school year alone. Therefore, foreign students are an 
essential part of our economic structure.
    Let me make this clear, educators and scientist support tighter 
screening of visitors after 9/11. However, something must be done to 
streamline the visa. I hope our witnesses can shine some light today on 
possible solutions.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    I would like to echo the comments of the Chairman and Ranking 
Member as to the great importance of this issue of student visas.
    There must be a careful balance between an efficient and effective, 
homeland security system and a student visa system that doesn't hold up 
bright, productive researchers from training and contributing to the 
great scientific research being done in this country.
    As we know, some of the 9/11 terrorists took advantage of the 
student visa system. Everyone in this room has concerns about the way 
people are admitted into this country. Several Members have introduced 
bills focusing on security issues. Representative Pete Sessions and I 
have also introduced a homeland security bill addressing visa issues.
    I thank the witnesses who are here today to clear up some of these 
concerns.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling this important and timely hearing. I would 
also like to welcome this distinguished panel for coming to join us 
today. Mr. Hutchison, thank you for taking the time from your important 
work to let us benefit from your insights.
    The transition from the pre-9/11 world to the post-9/11 world has 
presented challenges that Congress will probably be dealing with for 
years. Making this nation safer will be an ongoing project. Of course 
the transition will impact our Defense and Intelligence and State 
Departments. But it will also touch almost every sector of American 
life--our agriculture, our communications systems, our hospitals--and 
as we see today our research centers.
    American labs lead the world in the biological and physical 
sciences. We have a rich tradition of openness and collaboration with 
partners from around the world. The best and the brightest come from 
all over to attend our fine colleges and universities as students or 
fellows, or just to attend conferences and symposia. That kind of 
interaction has many benefits. Our students get exposed to more diverse 
ideas and opinions, and become more competitive because of it. Our labs 
get excellent workers for little money. That feeds our industries and 
our economy. Our scientists are enabled to forge collaborations with 
scientists around the world that make them more effective.
    And, of course, the foreign visitor gets great benefits as well. 
They get an outstanding education or research experience. Sometimes 
they end up getting a job here. Often they go home. Regardless, they 
have a better understanding and appreciation for American people and 
culture. These days when even our allies find us troubling, and our 
enemies feel we deserve destruction--that kind of person-to-person 
diplomacy can be an excellent investment.
    But opening up our doors brings risks as well. There are people out 
there who wish to do us harm, so it is prudent that we do what we can 
to keep them out. However, the vast majority of people who apply for 
visas are peaceful. The challenge, therefore, is finding the perfect 
balance: efficiently welcoming the many lawful visitors into the 
Nation, while putting in obstacles that are most likely to block would-
be terrorists.
    Right now, it seems that we have a cumbersome system that penalizes 
all foreign students, exchange scientists, and our own universities, 
and probably would not do much good in preventing attacks. As we 
learned over the past weeks in Pakistan, it is probably much easier to 
buy weapons technology on the black market than it is to find an 
intelligent young terrorist ``wannabe'' and send him to the United 
States for a five-year Ph.D. or post-doctoral fellowship. It is hard to 
imagine a few-minute interview with a first-year foreign service 
person, would stop many terrorists. And the long waiting lists we have 
now for exchange visas probably serve no one, since I would assume that 
a good portion of the 2-3 month wait is time that the application sits 
in an inbox.
    I don't mean to be too harsh. I know that all of the agencies are 
struggling to cope with new challenges in the wake of 9/11. But we must 
be critical and probing so that we can quickly refine our methods to 
achieve the best possible balance of openness and security. We need to 
develop an effective high-throughput system. If we don't we could 
cripple our scientific progress, and simultaneously leave ourselves 
vulnerable to terrorists.
    That is why I am proud of the initiative taken by this committee in 
calling for a GAO report on this critical subject. I look forward to 
hearing from this panel, about how our visa policy is working. I want 
to know what are the weak links, or the rate-limiting steps in the 
application process. We all have the same goals here today. I hope that 
we can work together to make this nation safer, and provide for 
scientific and cultural growth or years to come.
    Thank you.

    Chairman Boehlert. Our witnesses today are a very 
distinguished panel, and we want to thank all of you for 
serving as resources for this committee. We are here to learn, 
and so we will listen in order to learn, and then we will 
question and then we will have a meaningful dialogue, 
hopefully.
    The Honorable Asa Hutchinson is the Under Secretary for 
Border and Transportation Security at the Department of 
Homeland Security. Prior to being confirmed as Under Secretary, 
Mr. Hutchinson served as Administrator of the Drug Enforcement 
Administration (he is a glutton for punishment). Before that, 
he served as a Member of Congress from Arkansas from 1997 to 
2001, and it was our privilege to call him a colleague.
    Mr. Jess Ford is Director of International Affairs and 
Trade at the General Accounting Office. Since 1973, Mr. Ford 
has worked extensively in the national security and 
international affairs area at GAO, with issues ranging from 
trade and foreign assistance, to foreign policy.
    Ms. Janice Jacobs is the Deputy Assistant Secretary for the 
Office of Consular Affairs at the Department of State. Prior to 
this appointment, she served two years as Deputy Chief of 
Mission at the U.S. Embassy in Santa Domingo. Ms. Jacobs' 23-
year distinguished foreign service career has included a mix of 
Washington, D.C. and overseas assignments, including the 
Dominican Republic, Ecuador, Egypt, Ethiopia, France, Mexico, 
Nigeria and Thailand.
    And Mr. Robert Garrity, Jr., is a Deputy Assistant Director 
for Record/Information Administration at the Federal Bureau of 
Investigation. Mr. Garrity began his career with the FBI in 
August 1976, and he served in the Savannah, New York and Dallas 
field offices. More recently, Mr. Garrity served as the FBI's 
Interim Records Officer at FBI headquarters, where he was 
charged with the responsibility of assessing the FBI's records 
management systems. Quite a challenge.
    Lady and gentlemen, it is our privilege to welcome you 
here. We would ask that you try to summarize your opening 
statement. This committee is not arbitrary because this is so 
important, but we try to give you a guideline of five minutes 
or so. Don't get nervous if the red light comes on if you have 
got a thought or a paragraph you want to finish.
    Mr. Hutchinson, you are up first.

STATEMENT OF THE HONORABLE ASA HUTCHINSON, UNDER SECRETARY FOR 
  BORDER AND TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hutchinson. Thank you, Mr. Chairman, Ranking Member 
Gordon. It is a pleasure to be with you, all the Members of the 
Committee, and I would emphasize at the outset that the 
Department of Homeland Security agrees with the sentiments 
expressed by the Chairman on the importance of academic access 
to the outstanding educational institutions of our nation.
    Our goal is to facilitate such access in a way that is 
consistent with security, and not to impede or deny those 
opportunities. Higher education is the fifth largest service 
sector export, and international students contribute $12 
billion to the U.S. economy through tuition and general 
spending. Welcoming foreign scholars, scientists and 
researchers into our country expands knowledge, fosters a 
sharing of information, and aids the development of 
technologies critical to our defense and the defense of our 
allies.
    But as we are all aware, the benefits of this exchange must 
be protected against exploitation by those who would use that 
information to threaten our security. Two September 11 
terrorists abused the foreign student program to enter and stay 
in the United States. Since then, actions have been taken. 
President Bush mandated action to end the abuse of student 
visas and to prohibit certain international students from 
receiving education and training in sensitive areas. Likewise, 
the U.S.A. Patriot Act mandates an electronic system to monitor 
student and school compliance with immigration laws.
    These security directives have been accomplished through 
SEVIS, the Student and Exchange Visitor Information System. 
This system electronically tracks the entry and exit of the 
more than 800,000 international students who visit the United 
States each year. Despite these security measures, it is not in 
the interest of the United States to place unnecessary burdens 
or delays on legitimate foreign students and scientists. One of 
the subjects of this hearing is the recent GAO report, which I 
understand will be released today, which identifies some 
security measures that may cause delays.
    Let me just simply address the perspective of homeland 
security. The Homeland Security Act transferred to the 
Department of Homeland Security the responsibility for 
establishing visa policy and to review how these policies are 
implemented. This authority is exercised in close consultation 
in cooperation with the Department of State, pursuant to a 
memorandum of agreement that was signed with the Department of 
State on September 26 of last year. As a result of this 
transfer of visa policy, we are working with the Bureau of 
Consular Affairs in a number of areas. First of all, to improve 
the visa revocation notification processes. Secondly, we have 
taken the lead role in the statutorily mandated country reviews 
of participating Visa Waiver Program nations, and third, we are 
in the process of establishing the Visa Security Program, as 
mandated by Congress, which builds on the experience that we 
are gaining in Saudi Arabia, which is our Visa Security Office. 
This year, we anticipate opening four additional Visa Security 
Offices that will add a security perspective on visa issuance, 
and also hopefully to help facilitate the processing of those 
visas that are legitimate.
    Our staffs are also working to review the special visa 
application process known as Security Advisory Opinions. 
Through this, the U.S. Government is able to more closely 
scrutinize the security implications of issuing visas and 
permitting the travel of certain individuals. One trigger of 
the Security Advisory Opinions is the Visas Mantis process. 
This Visas Mantis is a coordinated procedure between 
intelligence and border security agencies to determine whether 
the travel of certain foreign students and business people may 
jeopardize the safeguarding of critically sensitive technology 
and information.
    Finally, I know a special interest has been expressed by 
this committee in the SEVIS program and certain technical 
difficulties that were being experienced by system users at the 
time of the March 2003 hearing on this subject. The Department 
has spent a substantial amount of time, resources and personnel 
to correct these problems, and we have added a number of system 
corrections to make SEVIS easier to use and to increase 
compliance. But I think of great significance to this committee 
is the fact that we created a SEVIS Response Team, anticipating 
the return of a couple 100,000 foreign students and scholars to 
the United States, anticipating that there might be some 
glitches, and wanting to eliminate those glitches so that they 
are not turned back whenever they are a legitimate student.
    We created the Response Team, a personnel investment, 
whereby an inspector at a port of entry, when they encounter a 
student that might not be properly entered into the online 
system, we can then have the inspector call the Response Team. 
We can then check with the university. Is this person a valid 
student or not? They fax us the I-20 form. We, while that 
student is waiting, can get them cleared through. Whenever 
there is a question but our instinct is that this is a 
legitimate student, we will waive them in and then have that 
verified in terms of having the I-20 provided to us.
    These teams have responded to more than 8,000 calls, which 
means we have facilitated over 8,000 scholars and foreign 
students coming into our educational institutions. During that 
process, though, we identified over 200 individuals, right at a 
little over 200, posing as legitimate students. But whenever 
they did not have their I-20, when they were not registered in 
the SEVIS online system, we would call and verify with the 
academic institution, and they would say we have never heard of 
that student. Those individuals were denied entry into our 
country and turned away, and I believe that that illustrates 
the success of the response team, both in terms of facilitating 
legitimate scholars that come to our schools, welcoming them, 
but at the same time, adding the security measure that is 
important to our country.
    At this point, SEVIS is a highly capable, reliable system 
that has accomplished the purpose it was designed for. In the 
words of the president of the American Counsel of Education, 
David Ward, ``SEVIS is the most important step that the Federal 
Government can take to improve its ability to monitor 
international students, scholars and exchange visitors, and we 
strongly support its full and effective implementation.''
    I'll end with a comment that we are relying a great deal 
upon technology. It is important for us to facilitate travel, 
commerce, education, but at the same time, to zero in on those 
people that might pose a risk. But despite our investment in 
technology, the greatest protection are those human resources 
and a trained workforce that does a good job out there in 
interviewing and using their judgment and discretion, as they 
accomplish the security objectives and the educational needs of 
our society. I look forward to our discussions and questions 
later.
    [The prepared statement of Mr. Hutchinson follows:]

                  Prepared Statement of Asa Hutchinson

Mr. Chairman, Members of the Committee:

    I appreciate the opportunity to testify before you on the subject 
of how we can remain a welcoming nation to foreign scholars and 
scientists and not compromise security requirements. I would emphasize 
at the outset that the Department of Homeland Security (DHS) 
appreciates the importance of academic access to the outstanding 
educational institutions of our nation. Our goal is to facilitate such 
access in a way that is consistent with security and not to impede or 
deny those opportunities. Specifically, today, I will speak about those 
individuals who seek to come to our country to study, research or 
acquire advanced technologies. The development, knowledge and sharing 
of information about these advanced technologies are crucial to our 
defense and the defense of our allies, so there is good reason to 
permit the entry of foreign scholars, scientists and researchers. 
However, as we are all aware, when access to these resources and 
technologies is provided to those who mean us harm, then the security 
of our nation and that of our allies is compromised. Consequently, we 
have the responsibility to review and, as needed, establish policies 
and procedures that permit a more secure way to protect the flow of 
scientific information and individuals to and from our country. The 
Homeland Security Act transferred to the Secretary the responsibility 
to mange policy affecting visa issuance.
    As a result of this mandate, on September 26, 2003, Secretary of 
State Powell and Secretary Ridge signed a Memorandum of Understanding 
(MOU) that addresses the division of responsibilities between the two 
departments with regard to visa issuance. As stated in the MOU, the 
Departments will work together to ``create and maintain an effective, 
efficient visa process that secures America's borders from external 
threats and ensures that our borders remain open to legitimate travel.. 
. .'' This declaration supports DHS' national strategy and Secretary 
Powell's vision of ``Secure Borders, Open Doors,'' and affirms the 
Administration's understanding of the importance of such policy to our 
international, economic, and national interests, as well as to the 
security of our homeland.
    I would like to mention briefly some of the actions that DHS has 
already begun taking to enhance border security by evaluating visa 
issuance policy to identify vulnerabilities and, when possible, to 
improve the efficiency and effectiveness of the process. We are working 
with the Department of State's (DOS) Bureau of Consular Affairs on 
improving the visa revocation and notification processes. Our staffs 
have also worked closely to restructure the review and processing of 
requests for waivers of inadmissibility and the special visa 
application evaluative process, known as ``Security Advisory Opinions'' 
(SAOs). I will speak more about SAOs in a moment. The DHS has also 
taken the lead role in the statutory mandated country reviews of 
participating Visa Waiver Program nations.
    As I mentioned a moment ago, we are beginning to be actively 
involved in the SAO process by which the U.S. government more closely 
scrutinizes the effect of issuing visas to and permitting the travel of 
certain individuals on the security of the country. Of particular 
importance to the subject of the testimony today is the ``Visas 
Mantis'' process. Visas Mantis is a coordinated procedure between 
intelligence and border security agencies to determine whether the 
travel of certain foreign students and businessman may jeopardize the 
safeguarding of critically sensitive technology and information. 
Understanding the need to balance threats to national security with the 
need to welcome visiting scholars, DHS is working with DOS to develop 
policies which will ensure that the impact of the SAO/Visas Mantis 
processes is reviewed regularly. These policies will articulate and 
address the need for:

        <bullet>  effective efficient, and consistent procedures;

        <bullet>  regular feedback to post officials, including visa 
        security officers on their application of SAO policy and 
        procedures and their management of SAO cases;

        <bullet>  tracking and integrating visa applications that raise 
        national security concerns into a larger intelligence/security 
        framework; and

        <bullet>  implementing best practices for facilitating the visa 
        issuance and public access to information.

    Prior to the establishment of DHS, there was some preliminary 
development of IPASS, a proposed interagency panel that would 
scrutinize students and exchange visitor applicants who intended to 
study certain sensitive science and technology fields. DHS intends to 
review the Mantis process with the intent of incorporating the best 
elements of the IPASS concept without creating an additional layer of 
review.
    Furthermore, building on our experience in Saudi Arabia, the 
Department is also establishing the Visa Security Program (VSP) which 
will expand DHS' presence at consular posts. Since the implementation 
of the VSP in Saudi Arabia, DHS has reviewed 100 percent of visa 
applications at the consular posts there, in compliance with the 
statutory mandate and is moving forward to refine VSP operations and 
procedures. The VSP is using the experience in Saudi Arabia as a model 
for developing its program plans, systems needs and organizational 
structure. DHS is initially planning to establish the VSP at four 
additional locations.
    I know Committee Members have expressed special interest in SEVIS, 
and I will now report on its status and current functionality. Witness 
testimony given at the March 2003 House Science Committee hearing 
reflected the technical difficulties that were being experienced by 
system users at that time. However, DHS has addressed and corrected 
each of the critical system problems that were noted in the March 2003 
testimony. In addition to addressing the system problems, DHS has added 
a large number of system enhancements to SEVIS to increase the ease of 
system use. These system changes were largely identified by and 
implemented at the request of system users. While SEVIS is still 
evolving as a system, it was fully implemented by January 1, 2003, in 
accordance with the USA PATRIOT Act. System releases following 
implementation addressed the large majority of system problems, 
including changes that incorporate the resolution of every anomaly that 
was discussed in the March 2003 hearing. During Fiscal Years 2003 and 
2004, SEVIS will have undergone a total of twelve major releases, which 
represent several hundred individual improvements. Changes in these 
releases include the SEVIS-U.S. VISIT interface, enhanced reporting 
capabilities, especially regarding enforcement-related data, and e-gov 
software upgrades.
    The subsequent successful implementation and expansion of SEVIS has 
been the direct result of our aggressive effort to analyze anomalies, 
prioritize remediation, and implement fixes. This series of system 
changes not only ensures that SEVIS ``works as advertised,'' but also 
enhances the system to respond to end user needs.
    SEVIS implementation and execution requires the partnership of DHS, 
colleges, universities, exchange visitor programs, and all other 
organizations and individuals participating in the education of foreign 
students and exchange visitors in the United States. Through our 
Internet website, publications, participation in the conferences of 
professional associations, help desks, and one-on-one communication, 
the ``Student and Exchange Visitor Program'' (SEVP) has taken a 
comprehensive inventory of customer needs and desires.
    With regard to suggested reported ``breaches of confidentiality,'' 
we are aware of only a handful of instances where this may have 
occurred. Extensive system analysis has revealed that the likelihood of 
these occurring was one in 40,000 system transactions. However, DHS 
recognized that even this level was unacceptable and a solution to this 
inconsistency was implemented in May 2003. No new data crossover issues 
have been identified since then.
    At this point, SEVIS is highly capable, reliable, and more than 
able to support the purposes for which it was designed. DHS will also 
continue to address outstanding issues and enhance the system according 
to system user needs.
    SEVIS and SEVP are required to be fully user-fee funded, in 
accordance with Section 641 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996 (IIRIRA). Funds were appropriated 
to the Immigration and Naturalization Service by Congress after 
September 11th in order to complete the technical development of SEVIS 
by the mandatory deadline. However, having expended those funds in the 
accelerated development and deployment of SEVIS, the SEVP must begin 
collection of the student fee in this fiscal year to continue the 
program. The projected revenue from the SEVIS fee will provide the 
funding for the SEVP within the Bureau of Immigration and Customs 
Enforcement. This includes upgrades and maintenance of the SEVIS 
database, school liaison officers as well as the monitoring and 
enforcement functions associated with the program.
    The proposed SEVIS fee rule was published in the Federal Register 
on October 27, 2003, with a 60-day comment period ending on December 
26, 2003. We are currently working to finalize the rule.
    Section 641 of IIRIRA also mandates that the fee be paid prior to 
visa issuance. DHS has made efforts to reach a workable arrangement for 
fee collection with the Department of State at the time of visa 
issuance. However, such an arrangement is not possible at this time. 
Therefore, the SEVIS rule requires that DHS collect the fee. The fee 
may be paid by the intending student, a third party of the student's 
choice, and in some cases in bulk payments made by the sponsoring 
program. Current options for paying the fee are by check drawn on U.S. 
funds, by mail, or on-line with a credit card. In addition, school, 
sponsoring program, or ``third party'' payments are allowed and program 
sponsors can pay for participants via ``batch'' payment. The SEVP will 
continue to assess additional payment options, which may be made 
available at some later date.
    Technology systems and solutions alone cannot ``weed out'' 
potential terrorists and allow us to identify those scientists, 
students and businessmen whose contributions would be clearly 
beneficial to the U.S. Doing so requires the expertise and evaluative 
abilities of the consular officers, technical and security advisers, 
and the officers at the Ports of Entry. We must, however, develop 
policies and procedures and use technologies as tools to allow all 
involved individuals to make proper and more informed judgments. And 
while I predict that technology will play a critical role in defending 
us against further harm, I must also acknowledge that our best defense 
is a well-trained and resourced workforce.
    And lastly while the ultimate responsibility for our national 
security rests with the public sector we should and must recognize that 
industry and academia play critical roles in ensuring that our most 
valuable technological and intellectual assets are protected and 
secured by developing and implementing practices which assist the 
overall security of our nation and our allies. While I have the primary 
responsibility in DHS for visa policy, I have worked, and will continue 
to work closely, with Under Secretary Charles McQuery of DHS' Science 
and Technology Directorate to ensure that the concerns of scientists 
and engineers are adequately addressed.
    I would be please to take any questions at this time.

                      Biography for Asa Hutchinson

    Asa Hutchinson was appointed by President Bush and confirmed by a 
unanimous vote of the U.S. Senate in January 2003.
    As Under Secretary for Border and Transportation Security, 
Hutchinson leads a directorate of over 110,000 employees and is 
responsible for coordinating the enforcement activities of our borders, 
transportation and immigration systems.
    Prior to coming to DHS, Hutchinson served as a Member of Congress 
from Arkansas from 1997-2001. While in Congress, Hutchinson served on 
the Select Committee on Intelligence and the House Judiciary Committee.
    After being re-elected to his third term, he was appointed as 
Administrator of the Drug Enforcement Administration (DEA), where he 
combined tough law enforcement initiatives with advocating increased 
investment in treatment and education programs.
    Prior to his election to Congress, Hutchinson practiced law in 
rural Arkansas for 21 years and tried over 100 jury trials. During this 
time, he was appointed by President Ronald Reagan as U.S. Attorney for 
the Western District of Arkansas. At the age of 31, he was the youngest 
U.S. Attorney in the Nation.

    Chairman Boehlert. Thank you very much, Mr. Secretary. Mr. 
Ford.

STATEMENT OF MR. JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS 
              AND TRADE, GENERAL ACCOUNTING OFFICE

    Mr. Ford. Thank you, Mr. Chairman, Members of the 
Committee.
    I am pleased to be here today to discuss the report which 
we are issuing to the Committee today on the need for 
improvements in the visa process to reduce the time it takes to 
adjudicate visas for science students and scholars. The State 
Department's Office of Consular Affairs, who adjudicate visa 
applications, must facilitate legitimate travel. At the same 
time, the United States has important national security 
interests in screening these individuals when they apply for a 
visa. Since September 11, visa operations have played an 
increasingly important role in assuring our country's national 
security. The State Department's goal is to adjudicate visas as 
quickly as possible, consistent with immigration laws and 
homeland security objectives.
    Mr. Chairman, you asked us several months ago to conduct an 
analysis on how long it takes for a science student and scholar 
from another country to obtain a visa, and what factors 
contribute to the length of time in obtaining that visa, and 
also what measures are underway to improve the process. I will 
describe recommendations that are in our report that are 
designed to help reduce the time to adjudicate some types of 
visas.
    It is difficult to estimate how long it takes to adjudicate 
visas for science students and scholars. According to the State 
Department, the Department has no set specific criteria or 
timeframes for how long a visa process should take, and data 
are not available on a number of visas that were issued or 
denied to science students or scholars, or how long the process 
took. However, a key factor that can contribute to the length 
of time for adjudicating visas is whether an application must 
undergo a headquarters interagency security check. This check 
is referred to as Visas Mantis. The check is required by the 
State Department, the Federal Bureau of Investigation and other 
interested Washington agencies when there are potential 
concerns that the visa applicant may engage in illegal transfer 
of sensitive technology, which could undermine U.S. national 
security. While state systems do not allow us to keep an 
aggregate--to keep aggregate data on security check processing 
times, State does have information on individual cases, which 
we use to conduct our own analysis.
    We conducted a random sample of Visas Mantis cases 
involving science students and scholars that were sent from 
posts between April and June of 2003, and found that it took an 
average of 67 days for the security check to be processed. In 
September and October of this year--of last year, we visited 
seven posts, in China, Russia and India, and found the backlog 
of 410 cases outstanding for more than 60 days. We found that 
several factors make it difficult to resolve some of the 
security checks expeditiously. The process has several steps.
    First, the post notifies the State Department and 
interested agencies that a security check is required. The 
agencies must conduct the check. The agencies have to notify 
the State Department of the results, and the State Department 
has to notify the post on what action to take. Because 
different agencies, bureaus, posts and field offices have 
different databases and systems, cases can get delayed or lost 
at different points in the process. For example, in fiscal year 
2003, some cases did not always reach their intended recipient, 
and as a result, some of the security checks were delayed.
    In some instances, posts' requests for security checks did 
not get to the FBI because the requests were improperly 
formatted. Also, inter-operability problems between the systems 
at the State Department and the FBI contributed to delays in 
processing time. The State Department and the FBI acknowledge 
that they have had problems in lengthy waits, and they--but 
they report that they have a number of measures underway, which 
they believe will improve the process and resolve outstanding 
cases. For example, officials from the State Department's 
Bureau of Consular Affairs and the FBI told us that they are 
working together to identify and resolve outstanding cases. 
Consular Affairs officials have told us that the State 
Department has invested about a million dollars to upgrade its 
technology for transmitting requests for security checks, and 
the system is expected to be functional later this year.
    According to State, the new system will help reduce the 
time it takes to process security checks. State also indicated 
that our analysis of cases from earlier in 2003 did not reflect 
the current processing situation. The State Department has 
provided us with two samples that it has taken recently, which 
it believes shows that processing times are improving. These 
data do indicate that there is improvement in processing times, 
but they also show there are some continuing problems, and we 
were unable to scientifically validate either of the samples, 
so we can't--we don't know if they represent the entire 
situation.
    Mr. Chairman, we are recommending that the Secretary of 
State, in coordination with the Secretary of Homeland Security 
and the Director of the FBI, develop and implement a plan to 
improve the Visas Mantis process to avoid unnecessary delays in 
issuing visas. In developing this plan, the agency should 
consider establishing milestones to reduce the current number 
of pending cases. They should develop some performance goals 
and measures for processing security checks, providing 
additional information to Consular Affairs that clarifies 
guidance on Visas Mantis program, and they should work to 
achieve inter-operable systems so that they can expedite the 
transmission of data between agencies. The State Department has 
indicated in their response to our report that they plan to 
study our recommendations and look for ways to improve the 
process.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions.
    [The prepared statement of Mr. Ford follows:]

                   Prepared Statement of Jess T. Ford

Why GAO Did This Study

    Each year thousands of international science students and scholars 
apply for visas to enter the United States to participate in education 
and exchange programs. They offer our country diversity and 
intellectual knowledge and are an economic resource. At the same time, 
the United States has important national security interests in 
screening these individuals when they apply for a visa. At a House 
Committee on Science hearing in March 2003, witnesses raised concern 
about the length of time it takes for science students and scholars to 
obtain a visa and about losing top international students to other 
countries due to visa delays. GAO reviewed 1) how long it takes a 
science student or scholar from another country to obtain a visa and 
the factors contributing to the length of time, and 2) what measures 
are under way to improve the process and decrease the number of pending 
cases.

What GAO Recommends

    GAO is making a recommendation to the Secretary of State, in 
coordination with the Director of the FBI and the Secretary of Homeland 
Security, to develop and implement a plan to improve the security check 
process known as Visas Mantis to avoid unnecessary delays in visa 
issuance. State commented it had taken some action to improve the Visas 
Mantis process and it would study our recommendation to make further 
improvements.

BORDER SECURITY

   Improvements Needed to Reduce Time Taken to Adjudicate Visas for 
                     Science Students and Scholars

What GAO Found

    State Department (State) cannot readily identify the time it takes 
for a science student or scholar to obtain a visa. State has not set 
specific criteria or time frames for how long the visa process should 
take, but its goal is to adjudicate visas as quickly as possible, 
consistent with immigration laws and homeland security objectives. GAO 
found that the time it takes to adjudicate a visa depends largely on 
whether an applicant must undergo an interagency security check known 
as Visas Mantis, which is designed to protect against sensitive 
technology transfers. Based on a random sample of Visas Mantis cases 
for science students and scholars sent from posts between April and 
June 2003, GAO found it took an average of 67 days for the security 
check to be processed and for State to notify the post. In addition, 
GAO's visits to posts in China, India, and Russia in September 2003 
showed that many Visas Mantis cases had been pending 60 days or more. 
GAO also found that the way in which Visas Mantis information was 
disseminated at headquarters level made it difficult to resolve some of 
these cases expeditiously. Furthermore, consular staff at posts GAO 
visited said they were unsure whether they were contributing to lengthy 
waits because they lacked clear guidance on when to apply Visas Mantis 
checks and did not receive feedback on whether they were providing 
enough information in their Visas Mantis requests. Another factor that 
may affect the time taken to adjudicate visas for science students and 
scholars is the wait for an interview.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While State and Federal Bureau of Investigation (FBI) officials 
acknowledged there have been lengthy waits for visas, they report 
having measures under way that they believe will improve the process 
and that they are collaborating to identify and resolve outstanding 
Visas Mantis cases. In addition, State officials told GAO they have 
invested about $1 million to upgrade the technology for sending Visas 
Mantis requests. According to State officials, the new system will help 
to reduce the time it takes to process Visas Mantis cases.

Mr. Chairman and Members of the Committee:

    I am pleased to be here to discuss the report we are issuing today 
on the need for improvements to the visa process to reduce the time it 
takes to adjudicate visas for science students and scholars.\1\ 
Citizens of other countries seeking to enter the United States 
temporarily for study, exchanges, business, tourism, and other reasons 
generally must apply for and obtain a U.S. travel document, called a 
non-immigrant visa, at U.S. embassies or consulates abroad before 
arriving at U.S. ports of entry. Since September 11, 2001, visa 
operations have played an increasingly important role in ensuring our 
country's national security. In deciding who should and should not 
receive a visa, consular officers must balance the need to facilitate 
legitimate travel with the need to protect the United States against 
persons whose entry could be harmful to U.S. national interests. For 
example, consular officers need to delicately balance U.S. national 
security interests with other interests such as promoting U.S. 
education and cultural exchanges, business, tourism, and the overall 
health of our economy. As part of the visa application process, many 
applicants with a science background, including students and scholars, 
must undergo an interagency security check, known as Visas Mantis, 
before being issued or denied a visa. A Visas Mantis check is required 
by the State Department (State), the Federal Bureau of Investigation 
(FBI), and other interested Washington agencies when there are 
potential concerns that the visa applicant may engage in the illegal 
transfer of sensitive technology, which could undermine U.S. national 
security.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Border Security: Improvements 
Needed to Reduce Time Taken to Adjudicate Visas for Science Students 
and Scholars, GAO-04-371 (Washington, D.C.: Feb. 25, 2004).
---------------------------------------------------------------------------
    At a hearing held by the House Committee on Science on March 26, 
2003, witnesses raised concern about the length of time it takes for 
science students and scholars to obtain a visa and about losing top 
international students to other countries due to visa delays. You asked 
us to review 1) how long it takes a science student or scholar from 
another country to obtain a visa and the factors contributing to the 
length of time, and 2) what measures are under way to improve the 
process and decrease the number of pending cases.

Summary

    State cannot readily identify the time it takes for a science 
student or scholar to obtain a visa.\2\ According to State officials, 
the department has not set specific criteria or time frames for how 
long the visa process should take, but its goal is to adjudicate visas 
as quickly as possible, consistent with immigration laws and homeland 
security objectives. We found that a key factor that can contribute to 
the length of time for adjudicating visas is whether an applicant must 
undergo a Visas Mantis security check. While State's systems do not 
allow it to keep aggregate data on the number of Visas Mantis cases, 
State does have information on individual cases,\3\ which we used to 
conduct our own analysis. We conducted a random sample of Visas Mantis 
cases for science students and scholars between April and June 2003 and 
found that it took an average of 67 days for the security check to be 
processed and for State to notify the post. Also, we visited posts in 
China, India, and Russia in September 2003 and found that many Visas 
Mantis cases had been pending 60 days or more. We also found several 
factors that made it difficult to expeditiously resolve some Visas 
Mantis cases. For example, in some instances, Visas Mantis cases sent 
by posts did not get to the FBI for its security check because of 
improperly formatted requests. Also, inter-operability problems among 
the systems that State and FBI use contribute to the time taken to 
process a Visas Mantis case. In addition, the consular staff at the 
posts we visited told us that they lacked clear guidance on when to 
apply Visas Mantis checks and did not receive feedback on whether they 
were providing enough information in their Visas Mantis requests. 
Finally, we found that the wait for an interview also may affect the 
time it takes to adjudicate visas for science students and scholars.
---------------------------------------------------------------------------
    \2\ State data are not available on the number of visas that were 
issued or denied to science students and scholars or the length of time 
it takes to issue visas to these people. Consular Affair officials told 
us that State's systems can track aggregate student or scholar data by 
F (students) and J (exchange visitors) visa categories, but they cannot 
narrow their query search to specifically identify science students or 
scholars.
    \3\ During our review, State data were not available on the overall 
number of Visas Mantis cases or on the Visas Mantis cases by visa 
category. State's systems can track the visa process for individual 
Visas Mantis cases but do not allow for aggregate queries of Visas 
Mantis cases.
---------------------------------------------------------------------------
    State and FBI officials acknowledge that there have been lengthy 
waits but report having measures under way that they believe will 
improve the process and resolve outstanding cases. For example, 
officials from State's Bureau of Consular Affairs and the FBI told us 
they are working together to identify and resolve outstanding Visas 
Mantis cases. These officials also told us that State has invested 
about $1 million to upgrade its technology for transmitting Visas 
Mantis requests, and the system is expected to be functional later this 
year. According to State officials, the new system will help to reduce 
the time it takes to process Visas Mantis checks.
    State claims that the time taken to adjudicate visas for science 
students and scholars has decreased from last year. While this may be 
true, the data presented by State in support of its claim continues to 
show that some applicants still face lengthy waits. We acknowledge that 
there may be valid reasons for taking long periods of time on some visa 
applications, given the national security concerns that may be 
involved. However, we believe it is important that State and the FBI 
continue to make improvements to avoid unnecessary delays. Therefore, 
our report recommends that the Secretary of State, in coordination with 
the Director of the FBI and the Secretary of Homeland Security, develop 
and implement a plan to improve the Visas Mantis process in order to 
avoid unnecessary delays in visa issuance. In developing this plan, 
State should consider actions to establish milestones to reduce the 
current number of pending Visas Mantis cases; develop performance goals 
and measurements for processing Visas Mantis checks; provide additional 
information to consular posts that clarifies guidance on the Visas 
Mantis program; and work to achieve inter-operable systems and expedite 
the transmittal of data between agencies.
    Mr. Chairman, my statement today will elaborate further on the 
waits that may occur when Visas Mantis security checks are conducted 
and on the measures State and the FBI are implementing to improve the 
process.

Background

    Visa applicants, including science students and scholars, generally 
begin the visa process by scheduling an interview at a consular post. 
On the day of the appointment, a consular officer reviews the 
application, interviews the applicant, and checks the applicant's name 
in the Consular Lookout and Support System (CLASS).\4\ The consular 
officer then decides if the applicant will need a Security Advisory 
Opinion, which provides an opinion or clearance from Washington on 
whether to issue a visa to the applicant and may include a Visas Mantis 
check. In deciding if a Visas Mantis check is needed, the consular 
officer determines whether the applicant's background or proposed 
activity in the United States could involve exposure to technologies on 
the Technology Alert List, which lists science and technology-related 
fields where, if knowledge gained from work in these fields were used 
against the United States, it could be potentially harmful.\5\
---------------------------------------------------------------------------
    \4\ CLASS is a State Department name check database that posts use 
to access critical information for visa adjudication. The system 
contains records provided by numerous agencies and includes information 
on persons with visa refusals, immigration violations, and security 
concerns.
    \5\ Under Section 212(a)(3)(A)(i)(II) of the Immigration and 
Nationality Act, an applicant is rendered inadmissible if there is 
reason to believe that the applicant is seeking to enter the United 
States to violate U.S. laws prohibiting the export of goods, 
technology, or sensitive information from the United States. 8 U.S.C.  
1182(a)(3)(A)(i)(II).
---------------------------------------------------------------------------
    After a consular officer decides that a Visas Mantis security check 
is necessary for an applicant, several steps are taken to resolve the 
process. The consular officer prepares a Visas Mantis cable, which 
contains information on the applicant, and then transmits the 
information to Washington for an interagency security check. The State 
Department's Bureau of Nonproliferation, the FBI, and other agencies 
review the information contained in the cable and then provide a 
response on the applicant to the Consular Affairs section of State 
headquarters.\6\ The Bureau of Nonproliferation and other agencies are 
given 15 working days to respond to State with any objections. However, 
State has agreed to wait for a response from the FBI before proceeding 
with each Visas Mantis case.
---------------------------------------------------------------------------
    \6\ The Visas Mantis program allows all participating agencies to 
provide information and raise any particular concerns that they may 
have regarding an applicant and/or the applicant's proposed activity in 
the United States. According to State, the key role of the Visas Mantis 
process is to protect U.S. national security, particularly in combating 
the proliferation of weapons of mass destruction, their delivery 
systems, and conventional weapons.
---------------------------------------------------------------------------
    Once State headquarters receives all the information pertaining to 
an applicant, Consular Affairs summarizes the information and transmits 
a response to the consular post. A consular official at post reviews 
the response and decides, based on the information from Washington, 
whether to issue the visa to the applicant.

Security Check Is Major Contributing Factor to Length of Time It Takes 
                    to Adjudicate Visas

    State cannot readily identify the total length of time it takes for 
a science student or scholar to obtain a visa. However, in discussions 
with State officials, we learned that a key factor that contributes to 
the length of time is whether an applicant must undergo a Visas Mantis.
    To obtain visa data on science students and scholars, and to 
determine how long the visa process takes, we reviewed all Visas Mantis 
cables received from posts between April and June 2003, which totaled 
approximately 5,000. Of these cases, 2,888 pertained to science 
students and scholars, of which approximately 58 percent were sent from 
China, about 20 percent from Russia, and less than two percent from 
India.
    We drew a random sample of 71 cases from the 2,888 science student 
and scholar visa applications to measure the length of time taken at 
various points in the visa process. The sample of 71 cases is a 
probability sample, and results from the data in this sample project to 
the universe of the 2,888 science visa applications. We found that 
visas for science students and scholars took on average 67 days\7\ from 
the date the Visas Mantis cable was submitted from post to the date 
State sent a response to the post.\8\ This is slightly longer than two 
months per application, on average. In the sample, 67 of the visa 
applications completed processing and approval by December 3, 2003. In 
addition, three of the 67 completed applications had processing times 
in excess of 180 days. Four of the cases in our sample of 71 remained 
pending as of December 3, 2003. Of the four cases pending, three had 
been pending for more than 150 days and one for more than 240 days.\9\
---------------------------------------------------------------------------
    \7\ The 95 percent confidence interval for the average number of 
days to process a science visa application is between 50 and 84 days.
    \8\ According to State, factors that contribute to the length of 
time it takes to process a Visas Mantis check include investigations by 
clearing agencies or requests for additional applicant information. 
Once State sends a response regarding a Visas Mantis check, the post 
has to contact the applicant to issue or deny the visa. However, we did 
not attempt to determine how long this process takes.
    \9\ We assessed the reliability of the sample data provided by 
State by tracing a statistically random sample of data to source 
documents. We determined that the data were sufficiently reliable for 
the purposes of this report.
---------------------------------------------------------------------------
    In addition to our sample of 71 cases, State provided us with data 
on two samples it had taken of Visas Mantis case processing times. Data 
on the first sample included 40 visa cases taken from August to October 
2003; data on the second sample included 50 Visas Mantis cases taken 
from November and December 2003. State indicated that both samples show 
improvements in processing times compared with earlier periods in 2003. 
However, based on the documentation of how these cases were selected, 
we were unable to determine whether these were scientifically valid 
samples and therefore we could not validate that processing times have 
improved. For the first sample, the data show that 58 percent of the 
cases were completed within 30 days; for the second sample, the data 
show that 52 percent were completed within this time frame. In 
addition, the data for both samples show that lengthy waits remain in 
some cases. For example, nine of the 40 cases had been outstanding for 
more than 60 days as of December 3, 2003, including three cases that 
had been pending for more than 120 days. Also, nine of the 50 cases 
were still pending as of February 13, 2004, including six that had been 
outstanding for more than 60 days. State officials commented that most 
of the outstanding cases from both samples were still being reviewed by 
the agencies.
    During our fieldwork at posts in China, India, and Russia in 
September 2003, we also obtained data indicating that 410 Visas Mantis 
cases submitted in fiscal year 2003 were still outstanding more than 60 
days at the end of the fiscal year.\10\ In addition, we found numerous 
cases--involving 27 students and scholars from Shanghai--that were 
pending more than 120 days as of October 16, 2003.
---------------------------------------------------------------------------
    \10\ Outstanding cases include those where the posts had not heard 
back from State headquarters and those where State had responded to the 
posts by indicating that additional information or review time was 
needed. The number of outstanding Visas Mantis cases is based only on F 
and J Visas Mantis cases for the posts in China but includes other visa 
categories for the remaining posts we visited.
---------------------------------------------------------------------------

Several Factors Contribute to the Length of Time It Takes to Resolve 
                    Visas Mantis Cases

    We found that several factors, including inter-operability problems 
among the systems that State and FBI use, contribute to the time it 
takes to process a Visas Mantis case. Because many different agencies, 
bureaus, posts, and field offices are involved in processing Visas 
Mantis security checks, and each has different databases and systems, 
we found that Visas Mantis cases can get delayed or lost at different 
points in the process.\11\ We found that in fiscal year 2003, some 
Visas Mantis cases did not always reach their intended recipient and as 
a result, some of the security checks were delayed. For example, we 
followed up with the FBI on 14 outstanding cases from some of the posts 
we visited in China in September 2003 to see if it had received and 
processed the cases. FBI officials provided information indicating that 
they had no record of receiving three of the cases, they had responded 
to State on eight cases, and they were still reviewing three cases. FBI 
officials stated that the most likely reason why they did not have a 
record of the three cases from State were due to cable formatting 
errors. State did not comment on the status of the 14 cases we provided 
to the FBI for review. However, a Consular Affairs official told us 
that in fall 2003, there were about 700 Visas Mantis cases sent from 
Beijing that did not reach the FBI for the security check. The official 
did not know how the cases got lost but told us that it took Consular 
Affairs about a month to identify this problem and provide the FBI with 
the cases. As a result, several hundred visa applications were delayed 
for another month.
---------------------------------------------------------------------------
    \11\ Posts have no way to ensure that State receives the Visas 
Mantis request, State has no systematic check to know if the FBI 
receives the cases, and the FBI has no way to ensure that its results 
are forwarded to the posts. Information regarding a case may 
potentially be sent back and forth between different agencies and 
offices several times before a decision can be made on whether to issue 
a visa.
---------------------------------------------------------------------------
    Figure 1 illustrates some of the time-consuming factors in the 
Visas Mantis process for our sample of 71 cases. While the FBI received 
most of the cases from State within a day, seven cases took a month or 
more, most likely because they had been improperly formatted and thus 
were rejected by the FBI's system. In more than half of the cases, the 
FBI was able to complete the clearance process the same day, but some 
cases took more than 100 days. These cases may have taken longer 
because (1) the FBI had to investigate the case or request additional 
information from State; (2) the FBI had to locate files in field 
offices, because not all of its files are an electronic format; or (3) 
the case was a duplicate, which the FBI's name check system also 
rejects. In most of the cases, the FBI was able to send a response--
which it generally does in batches of name checks, not by individual 
case--to State within a week. The FBI provides the results of name 
checks for Visas Mantis cases to State on computer compact disks (CDs), 
a step that could cause delays. In December 2003, a FBI official told 
us that these CDs were provided to State twice a week. However, in the 
past, the CDs were provided to State on a less frequent basis. In 
addition, it takes time for data to be entered in State's systems once 
State receives the information. In the majority of our sample cases, it 
took State two weeks or longer to inform a post that it could issue a 
visa. State officials were unable to explain why it took State this 
long to respond to post. Officials told us that the time frame could be 
due to a lack of resources at headquarters or because State was waiting 
for a response from agencies other than the FBI. However, the data show 
that only five of the 71 cases were pending information from agencies 
other than the FBI.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Post Officials Seek Clearer Guidance and More Feedback

    During our visits to posts in September 2003, officials told us 
they were unsure whether they were adding to the wait time because they 
did not have clear guidance on when to apply the Visas Mantis process 
and were not receiving feedback on the amount of information they 
provided in their Visas Mantis requests. According to the officials, 
additional information and feedback from Washington agencies regarding 
these issues could help expedite Visas Mantis cases. Consular officers 
told us that they would like the guidance to be simplified--for 
example, by expressing some scientific terms in more easily understood 
language. Several consular officers also told us they had only a 
limited understanding of the Visas Mantis process, including how long 
the process takes. They told us they would like to have better 
information on how long a Visas Mantis check is taking so that they can 
more accurately inform the applicant of the expected wait.
    Consular officers at most of the posts we visited told us they 
would like more feedback from State on whether the Visas Mantis cases 
they are sending to Washington are appropriate, particularly whether 
they are sending too many or too few Visas Mantis requests. They said 
they would like to know if including more information in the security 
check request would reduce the time to process an application in 
Washington. Moreover, consular officers indicated they would like 
additional information on some of the outstanding Visas Mantis cases, 
such as where the case is in the process. State confirmed that it has 
not always responded to posts' requests for feedback or information on 
outstanding cases.

Wait for an Interview Can Also Add Significant Time

    Aside from the time it takes to process Visas Mantis checks, an 
applicant also has to wait for an interview. State does not have data 
or criteria for the length of time applicants at its overseas posts 
wait for an interview, but at the posts we visited in September 2003, 
we found that it generally took two to three weeks. Furthermore, post 
officials in Chennai, India, told us that the interview wait time was 
as long as 12 weeks during the summer of 2003 when the demand for visas 
was greater than the resources available at post to adjudicate a visa. 
Officials at some of the posts we visited indicated they did not have 
enough space and staffing resources to handle interview demands and the 
new visa requirement that went into effect on August 1, 2003. That 
requirement states that, with a few exceptions, all foreign individuals 
seeking to visit the United States need to be interviewed prior to 
receiving a visa. Factors such as the time of year an applicant applies 
for a visa, the appointment requirements, and the staffing situation at 
posts generally affect how long an applicant will have to wait for an 
interview.

Agency Officials Cite Improvements

    State and FBI officials acknowledged that visa waits have been a 
problem but said they are implementing improvements to the process and 
working Improvements to decrease the number of pending Visas Mantis 
cases. For example,

        <bullet>  State and FBI officials told us that the validity of 
        Visas Mantis checks for students and scholars has been extended 
        to 12 months for applicants who are returning to a program or 
        activity and will perform the same functions at the same 
        facility or organization that was the basis for the original 
        Visas Mantis check.

        <bullet>  FBI officials said that to address delays stemming 
        from problems with lost case files or systems that are not 
        inter-operable, the FBI is working on automating its files and 
        setting up a common database between the field offices and 
        headquarters. They also told us they have set up a tracking 
        system within the FBI for all Security Advisory Opinions, 
        including Visas Mantis cases.

        <bullet>  Consular Affairs officials told us that State has 
        invested about $1 million on a new information management 
        system that it said would reduce the time it takes to process 
        Visas Mantis cases. They described the new system as a 
        mechanism that would help strengthen the accountability of 
        Visas Mantis clearance requests and responses, establish 
        consistency in data collection, and improve data exchange 
        between State and other agencies involved in the clearance 
        process. In addition, officials said the system would allow 
        them to improve overall visa statistical reporting capabilities 
        and data integrity for Mantis cases. The new system will be 
        paperless, which means that the current system of requesting 
        Visas Mantis clearances by cable will be eliminated. State 
        officials told us that the system is on schedule for release 
        early this year and that the portion relating to Security 
        Advisory Opinions will be operational sometime later this year. 
        However, challenges remain. FBI officials told us that the name 
        check component of the FBI's system would not immediately be 
        inter-operable with State's new system but that they are 
        actively working with State to seek solutions to this problem. 
        Nonetheless, FBI and State have not determined how the 
        information will be transmitted in the meantime. We were not 
        able to assess the new system since it was not yet functioning 
        at the time of our review.

        <bullet>  Officials from Consular Affairs and the FBI told us 
        they are coordinating efforts to identify and resolve 
        outstanding Visas Mantis cases. For example, they have been 
        working together on a case-by-case basis to make sure that 
        cases outstanding for several months to a year are completed. 
        However, State officials said they do not have a target date 
        for completion of all the outstanding cases, which they 
        estimated at 1,000 in November 2003.

        <bullet>  In addition to improvements to the Visas Mantis 
        process, State officials told us that they are monitoring post 
        resource needs and adding staff as needed. These officials also 
        told us that State added 66 new officers in 2003 and plans to 
        add an additional 80 in 2004.

    In conclusion, Mr. Chairman, agency officials recognize that the 
process for issuing a visa to a science student or scholar can be an 
important tool to control the transfer of sensitive technology that 
could put the United States at risk. They also acknowledge that if the 
process is lengthy, students and scholars with science backgrounds 
might decide not to come to the United States, and technological 
advancements that serve U.S. and global interests could be jeopardized. 
Our analysis of a sample of Visas Mantis cases from April to June 2003 
show that some applicants faced lengthy waits. While the State 
Department and the FBI report improvements in Visas Mantis processing 
times, our analysis of data from the posts we visited in September 2003 
and our contact with post officials in January 2004 show that there are 
still some instances of lengthy waits. State's and FBI's implementation 
of the Visas Mantis process still has gaps that are causing wait times 
for visas. State's new information management system could improve the 
Visas Mantis process. Nevertheless, it is unclear whether the new 
system will address all the current issues with the process.
    To help improve the process and reduce the length of time it takes 
for a science student or scholar to obtain a visa, we are recommending 
that the Secretary of State, in coordination with the Director of the 
FBI and the Secretary of Homeland Security, develop and implement a 
plan to improve the Visas Mantis process. In developing this plan, the 
Secretary should consider actions to:

        <bullet>  establish milestones to reduce the current number of 
        pending Visas Mantis cases;

        <bullet>  develop performance goals and measurements for 
        processing Visas Mantis checks;

        <bullet>  provide additional information through training or 
        other means to consular posts that clarifies guidance on the 
        overall operation of the Visas Mantis program, when Mantis 
        clearances are required, what information consular posts should 
        submit to enable the clearance process to proceed as 
        efficiently as possible, and how long the process takes; and

        <bullet>  work to achieve inter-operable systems and expedite 
        transmittal of data between agencies.

    In commenting on our draft report, State said it had taken some 
actions to improve the Visas Mantis process and it would study our 
recommendation to make further improvements.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or other Members of the Committee may 
have.

                       Biography for Jess T. Ford

    Mr. Ford joined GAO in 1973 and has worked extensively in the 
natural security and international affairs area concerning trade, 
foreign assistance, and foreign policy issues. He has managed GAO 
audits of the Agency of International Development, the State 
Department, and the Department of Defense.
    In January 1994, Mr. Ford was selected into GAO's Senior Executive 
Service and, subsequently, was appointed Associate Director for 
National Security Analysis Issues. He subsequently, he served as an 
Associate Director for International Relations and Trade in GAO's 
National Security and International Affairs Division. In October 2000, 
he was appointed Director, International Affairs and Trade. He has 
directed the completion of numerous studies on U.S. natural security 
issues, foreign assistance, counter narcotics, and foreign affairs 
management activities and has testified before Congress on several 
occasions on these topics.
    Mr. Ford received a Bachelor's degree in political science from 
Hiram College and a Master's degree in international relations from the 
Fletcher School of Law and Diplomacy. He is also a graduate of the 
National War College. Mr. Ford has received numerous awards throughout 
his GAO career, including the Meritorious Service Award and the 
Distinguished Service Award.

    Chairman Boehlert. Thank you very much, Mr. Ford. Ms. 
Jacobs.

STATEMENT OF MS. JANICE L. JACOBS, DEPUTY ASSISTANT SECRETARY, 
        OFFICE OF CONSULAR AFFAIRS, DEPARTMENT OF STATE

    Ms. Jacobs. Mr. Chairman, Members of the Committee, thank 
you for inviting me to testify on the visa process and its 
effect on the security of the United States, our economic, 
scientific and technological health, and our openness to other 
societies. Secretary Powell has succinctly articulated our 
policy as ``Secure Borders, Open Doors,'' and we at the 
Department are acutely aware of the need to satisfy both of 
these objectives. Our universities reap the economic benefits 
of preeminence among destination countries for international 
students, and our scientific establishment flourishes in a 
climate of open exchange across borders.
    While we are committed to facilitating the travel of 
legitimate visitors to the United States, we consider national 
security the highest priority in visa matters. The Department 
of State has long used specialized clearance procedures for the 
review of visa applications of individuals whose proposed 
activities in the United States may have security-related or 
other concerns. The purpose of the additional review is to 
focus on serious issues, such as hostile intelligence activity, 
potential terrorist threats, and access to sensitive 
technology.
    One of the highest foreign policy and national security 
priorities of the United States is preventing the spread of 
nuclear, biological, chemical and other weapons of mass 
destruction, and their means of delivery. The Visas Mantis 
program, designed to address nonproliferation and technology 
transfer concerns, is an effective tool for U.S. intelligence 
and law enforcement agencies to support consular officers in 
screening individuals and entities that seek to gain controlled 
goods, technology and sensitive information in violation of 
U.S. export laws.
    Under the current system, if a consular officer believes a 
particular applicant poses a potential threat under the Mantis 
rules, the post transmits a request for a security advisory 
opinion, or SAO, by cable simultaneously to the Department, the 
FBI and other interested agencies. The other clearing agencies 
generally take 15 working days to respond to SAOs unless they 
require additional time or information to clear a specific 
case. Consequently, the visa office may have a clearance from 
one agency, but may be waiting for another clearing agency to 
complete its review. The Bureau of Nonproliferation may also 
ask post to obtain more information from an applicant, which 
can take time and delay a response to post. Waiting for highly 
classified reports through appropriate channels can also delay 
a response to post.
    The business, academic and scientific communities have all 
expressed concern that delays in Mantis procedures result in 
disruptions to ongoing research and commercial activities. We 
have taken steps to address these concerns by investing in 
people and technology, and pioneering new processes with our 
law enforcement colleagues that have solved many of the 
problems that we have encountered during the start-up period.
    To increase efficiency, we have made a number of changes to 
staffing and procedures. We have created a stand-alone Mantis 
team that now has five full-time employees who are dedicated to 
processing only Mantis cases. We have procedures for expediting 
individual cases with the FBI. We were able to extend the 
validity of the Visas Mantis clearances, allowing for more 
freedom of travel to and from the United States, and we have 
put students and research scholars at the top of our 
appointment queue. We also periodically send the FBI 
spreadsheets of unresolved cases that are on hold, which they 
work through to provide us with a response.
    The Visa Office, with input from the Bureau of 
Nonproliferation, will soon begin sending to the field a 
quarterly report that will provide feedback to posts on the 
quality of their Mantis SAO cables. The report will also 
include information from the NP Bureau on threat analysis and 
what technologies, groups or individuals might be of interest. 
The Bureau of Consular Affairs recently funded the travel of an 
officer from the Nonproliferation Bureau to attend a consular 
conference in China, the largest source country for Mantis 
cables. The officer met with consular officers from all China 
posts and discussed in detail the purpose of the Mantis 
program, what consular officers should be looking for, how to 
decide whether a case should be a Mantis or not, and what 
information to provide in the cable.
    We are also using technology to enhance efficiency and 
provide for better statistical report. We have invested $1 
million in the development of a cable-less system called the 
SAO Improvement Project or SAO IP, whereby SAOs will be made 
electronically through the Consular Consolidated Database. The 
new program will eliminate formatting problems. Beta tests of 
this program began last November, and we hope to bring all of 
our posts online during this year. The SAO IP will operate 
through the Open Source Information System or OSIS, which will 
provide inter-operable data transmission. Our partners are 
committed to electronic transmission of data over the OSIS 
network, and are taking complimentary steps to participate 
fully in the SAO Improvement Project.
    The Department of State is working hand-in-hand with our 
colleagues at Homeland Security and the Justice Department to 
ensure that we have a system that properly identifies potential 
threats to the United States and stops them from reaching our 
shores. We also work every day with business and industry to 
see that access to our country is not impeded for those whose 
business we encourage and whose presence we value. We are 
determined to preserve the crucial benefits provided by these 
international visitors to the United States, as we work to 
strengthen the security of the visa process.
    I am happy to answer any questions that you might have.
    [The prepared statement of Ms. Jacobs follows:]
                 Prepared Statement of Janice L. Jacobs

Mr. Chairman, Members of the Committee:

    Thank you for inviting me to testify before you today on the visa 
process and its affect on the security of the United States, our 
economic, scientific and technological health, and our openness to 
other societies. Secretary Powell has succinctly articulated our policy 
as ``Secure Borders, Open Doors,'' and we at the Department of State 
are acutely aware of the need to satisfy both of these objectives. The 
U.S. economy counts on the billions of dollars spent each year by 
international tourists, our universities reap the economic benefits of 
preeminence among destination countries for international students, our 
scientific establishment flourishes in a climate of open exchange 
across borders, and our entire society is accustomed to living in a 
free and open manner that counts upon an ease of movement across 
international borders. We are determined to preserve these crucial 
benefits to the United States even as we work to strengthen the 
security and integrity of the visa process.
    While we are committed to facilitating the travel of legitimate 
visitors to the United States, we consider the protection of national 
security the highest priority in visa matters. The Department of State 
has long used specialized clearance procedures for the review of visa 
applications of individuals whose proposed activities in the U.S. may 
have security-related or other concerns. These procedures are carried 
out by the State Department at the request of and in coordination with 
other federal agencies. This is known as the security advisory opinion 
process. The purpose of the additional review is to focus on serious 
issues such as hostile intelligence activity, potential terrorist 
threats, and diversion of sensitive U.S. technology. A relatively small 
number of non-immigrant visa applications, less than three percent of 
our workload, are submitted by consular officers overseas to the 
Department of State for Washington-level screening by federal 
intelligence and law enforcement agencies.
    One of the highest foreign policy and national security priorities 
of the United States is preventing the spread of nuclear, biological, 
and chemical weapons, their delivery systems and advanced conventional 
weapons. The Visas Mantis program, designed to address technology 
transfer and nonproliferation concerns, is an effective tool for U.S. 
government agencies to prevent entry into the U.S. of foreign nationals 
to gain controlled goods, technology and sensitive information in 
violation of U.S. export laws. Federal agencies review applications and 
provide the information needed by State to determine an applicant's 
visa eligibility under section 212(a)(3)(A)(i)(II) of the Immigration 
and Nationality Act. That section provides in relevant part that:

         Any alien who a consular officer or the [Secretary of Homeland 
        Security] knows, or has reasonable ground to believe, seeks to 
        enter the United States to engage solely, principally, or 
        incidentally in--(i) any activity. . . (II) to violate or evade 
        any law prohibiting the export from the United States of goods, 
        technology, or sensitive information. . .is ineligible to 
        receive a visa.

    As part of their consular training at the National Foreign Affairs 
Training Center, all Foreign Service Officers assigned to consular 
positions receive 12-15 hours of training devoted to the processing of 
SAOs, including Mantis. During this training, the Non-Proliferation 
(NP) Bureau, which reviews Mantis cases in the Department, briefs on 
the proliferation threat and the importance of the Mantis screening 
process in helping to protect our national security.
    The basic document that provides instructions to consular officers 
in the field on how to process Visas Mantis cases is the Technology 
Alert List (TAL). This is an annual cable that is disseminated to all 
posts at the beginning of every Fiscal Year. The cable contains two 
parts: the list of sensitive technologies and guidance to consular 
officers on how to process Mantis cases. The list contains some 200 
technologies arranged in alphabetical order that nonproliferation and 
export control agencies have designated as sensitive for national 
security purposes. The TAL guidance cable describes the specific 
purpose of the Mantis program, instructs consular officers what to look 
for when reviewing an application that may result in a Mantis cable and 
provides details on what information to include in a cable. The 
guidance encourages consular officers to check with resources at post 
who might be able to help them decide whether or not a case should be 
submitted as a Mantis SAO. The cable further provides consular officers 
with a number of websites where they can access more in-depth 
information about the TAL technologies. Finally, the cable urges 
consular officers to use their judgment but to err on the side of 
caution when deciding whether or not Mantis considerations apply.
    Under the current system, posts transmit Mantis SAOs by cable 
simultaneously to the Department, the FBI and interested agencies. We 
receive twice-weekly CDs from the FBI with updated clearance 
information on SAO cases. After the FBI name check unit runs the names 
of the subjects of SAOs through their name check system, they upload 
their responses onto a CD which the Visa Office picks up twice a week. 
The CD is an historical record of more than 500,000 responses the FBI 
has provided to us. The Visa Office uploads the information from the CD 
onto its own FBI Response database that it maintains as well as into 
the automated system known as VISTA, which is the Visa Office's 
tracking system for SAOs. Unfortunately, for various technological 
reasons, VISTA does not always capture all of the clearance 
information. If analysts do not find an updated response to a case in 
VISTA that they know is coming due, they must look at the FBI Response 
database to see if, in fact, FBI has cleared the case. In some cases it 
can take up to a week or longer between the time FBI responds to a 
clearance request and when the Visa Office analyst is able to send out 
the clearance response to post.
    The other clearing agencies generally take 15 working days to 
respond to SAOs but, occasionally, they notify the Visa Office when 
they need additional time to clear a specific case. Consequently, the 
Visa Office may have a clearance from the FBI but may be waiting for 
another clearing agency to complete a review of a specific case. The NP 
Bureau may ask post to obtain more information from an applicant which 
can take time and delay a final response to post. At other times, the 
Visa Office must wait to receive a report from another clearing agency 
that may contain derogatory information pertaining to the applicant. 
Waiting for highly classified reports through appropriate channels can 
be another reason for delay in responding to post.
    The business, academic, and scientific communities have expressed 
concern that delays in Mantis process result in disruptions to on-going 
research and commercial activities. A backlog did occur in the summer 
of 2002 when the Department mandated a positive response to all SAO 
requests. That requirement, combined with the sudden spike in 
additional clearance requests following the attacks of September 11, 
overburdened the system. Since then we have worked through many of 
these problems, invested in people and technology, and pioneered new 
processes with our law enforcement colleagues that have solved many of 
the problems of this start-up period.
    To increase efficiency, we have made a number of changes to 
staffing and procedures. We created a stand-alone Mantis team that now 
has five full-time employees who are dedicated to processing only 
Mantis cases. We have procedures for expediting individual cases when 
appropriate. When an expedited clearance is needed, we fax such 
requests to the FBI, which routinely responds in a timely manner. We 
also periodically send the FBI spreadsheets of unresolved cases on 
``hold'' which they work through to provide us with a response. The 
Visa Office, with NP input, will soon begin sending to the field a 
quarterly Mantis report to provide additional feedback. The Bureau of 
Consular Affairs recently funded the travel of an officer from the NP 
Bureau to attend a consular conference in China, the largest source 
country for Mantis cables. The officer met with consular officers from 
all China posts and discussed in detail the purpose of the Mantis 
program, what consular officers should look for, how to decide whether 
a case should be a Mantis or not, and what information to provide in 
the cable.
    We are also using technology to enhance efficiency and provide for 
better statistical reporting. The Department of State has invested one 
million dollars in the development of a cable-less SAO process, called 
the SAO Improvement Project (SAO IP) whereby requests and responses 
will be made electronically through the Consular Consolidated Database 
(CCD). The new program will eliminate formatting problems. Beta tests 
of the NIV portion of the SAO IP started in Riyadh and Kuwait in 
November. (We started the beta test of the IV portion in Naples in 
December.) We began shipping the software for the new SAO NIV system to 
the field at the end of January and we hope to bring posts on line 
gradually as the year progresses. The State Department uses industry 
standards in designing our automated systems to facilitate data share 
with appropriate federal partners.
    SAO IP will operate through the Open Source Information System 
(OSIS) which will provide inter-operable data transmission. The FBI is 
currently working on connectivity to OSIS in order to make full use of 
SAO IP. In the meantime, we are still sending case specific information 
to the FBI via cable. Once the FBI establishes connectivity to OSIS, 
they will receive all SAO requests electronically directly from post. 
The system will be much more efficient and will eliminate the human and 
technological errors that have occurred under the present system that 
relies on cable requests and responses. Our partners are committed to 
electronic transmission of data over the OASIS network and are taking 
complementary steps to participate fully in the SAO Improvement 
Project.
    The Department of State is addressing other factors which affect 
visa processing times, including the biometric visa program and 
staffing levels. To comply with Section 303 of the Enhanced Border 
Security Act, the Department began deployment of the Biometric Visa 
Program on September 22, 2003, at the U.S. Embassy in Brussels, 
Belgium, and quickly followed suit at the U.S. Consulate General in 
Frankfurt and Embassies in San Salvador and Guatemala City. The program 
is now operational at more than 60 visa-adjudicating posts and with our 
aggressive roll-out schedule the program will be in effect at all visa-
adjudicating posts by October 26 of this year.
    This congressionally mandated program requires the physical 
presence of most applicants in order to enroll the biometric 
identifiers. To this end and to enhance security in the visa process, 
we established a new worldwide standard for visa interview policy. On 
August 1, 2003, new regulations were implemented which limit the waiver 
of personal appearance for non-immigrant visa applicants to only a few 
categories of exceptions, such as diplomats, children, and the elderly. 
This allowed all posts worldwide to ramp up their staffing in 
anticipation of the meeting the deadline. To meet additional staffing 
needs, the Department is establishing 168 new consular positions in FY 
2004 and is requesting 123 additional positions for FY 2005.
    We are working with the academic and scientific research 
communities to be as responsive as possible while maintaining the 
integrity of the process and meeting the goals of the nonproliferation 
program. Every spring as students begin applying for visas, we instruct 
all visa-adjudicating posts to make special arrangements to facilitate 
visa interviews for students and researchers. Some posts do not require 
appointments, some reserve appointment slots for students, and some 
assign specific days to student processing. Last October we obtained 
interagency agreement to extend the validity of the mantis clearance to 
one year provided that the applicant was attending the same program. 
Our Public Inquiries office treats all science-related visa inquiries 
as top priorities and has conducted extensive outreach efforts with the 
scientific and medical communities. We have also designated a Senior 
Visa Specialist as a point of contact for federal laboratories and 
other scientific establishments. Finally, we are establishing 
performance goals, whenever possible, of 15 working days from the date 
of receipt of the SAO by Washington agencies, after which the Visa 
Office sends a response to post as quickly as possible, provided 
clearances have been received from all clearing agencies.
    The Department of State is working hand in hand with our colleagues 
at Homeland Security and the Justice Department to ensure that we have 
a visa system that properly identifies potential threats to the United 
States and stops them from reaching our shores. We also work every day 
with business and industry to see that access to our country is not 
impeded for those whose business we encourage and whose presence we 
value. We are determined to preserve the crucial benefits provided by 
these international visitors to the United States as we work to 
strengthen the security of the visa process. We want the world to know 
that we value our visitors and that we want them to come to the United 
States to enjoy the richness our country has to offer in so many areas. 
We want them and our own people to be safe while they are here and 
towards that end we are taking extra precautions, but America remains 
an open and welcoming country.
    I am happy to answer any questions you may have.

    Chairman Boehlert. Thank you very much, Ms. Jacobs. Mr. 
Garrity.

   STATEMENT OF MR. ROBERT J. GARRITY, JR., DEPUTY ASSISTANT 
DIRECTOR, RECORD/INFORMATION ADMINISTRATION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Garrity. Thank you, Mr. Chairman, and thank you for 
inviting the FBI here to testify on this very sensitive 
question.
    We appreciate the Committee's interest in this conflict 
between science and security in our visa policy. I have 
submitted a comprehensive statement for the record, but I will 
make a short statement, if you don't mind.
    I would first like to say I hope that the GAO found the FBI 
both cooperative and forthcoming in developing their report. As 
this committee is very well aware, there is a delicate balance 
between allowing scientists and students into our country for 
education and exchange programs, and the necessity to protect 
the security of our homeland and our most sensitive 
technologies. As you have stated most eloquently, Mr. Chairman, 
it ain't easy balancing those competing interests.
    The Visas Mantis program is designed to assist in the 
deliberative process by which we strive to recognize this 
balance. The Visas Mantis is a designation relevant to certain 
individuals who have access during their visit to American 
special technologies. The FBI provides specific name 
information to the Terrorist Screening Center regarding 
individuals about whom the FBI has a concern related to 
terrorism or other activities that could harm our national 
security. The Visas Mantis process is essential in looking at 
visa applications regarding those about whom we may have 
records, but about whom we have not gathered sufficient 
information to cause their addition to a watch list. We must 
protect the homeland by preventing the issuance of a visa to an 
individual who may seek to gain access to information or 
technology in the United States that may cause our nation harm.
    The FBI receives information on the applicants from the 
Department of State by a variety of means. Either by a computer 
disc, from a cable, from any Embassy or Consul around the 
world, or in special circumstances, we'll receive a facsimile 
and give that expedited processing. The requests are all 
entered into the FBI's National Name Check Program. This 
information is then searched against our Universal Indices. The 
names are searched in a multitude of combinations, switching 
the first, middle, last name, as well as combinations of first 
and last, first and middle, etc. It also searches different 
phonetic spellings and variations of the name, which is 
especially important considering that many names in our indices 
have been transliterated from a language other than English.
    A common question that we are asked is how long does it 
take to complete a Visas Mantis name check. As shown on the 
graph with my prepared statement, 88 percent of our requests 
are completed in 30 days, and 98 percent of the requests are 
resolved in 120 days. Most name check requests that are over 60 
days old are the result of the time required to retrieve and 
review the field office record for information. One of the 
things that we have that is a concern to us is we have a 
decentralized record-keeping system. The FBI stores records in 
265 locations worldwide. That is one of the issues that we are 
addressing, but we have to track down many times the file and 
find the information, wherever it may be.
    I do want to emphasize to you that the FBI is sensitive to 
the impact the delays, and visa processing of students and 
scholars, may have on business, education, foreign relations 
and the worldwide perceptions of the United States. With these 
considerations in mind, the FBI is working diligently with the 
State Department toward the common goal of improving the 
expediency and efficiency of the visa clearance process. But at 
the same time, the consequences of our mission on homeland 
security requires that our name check process be primarily 
focused on accurate and thorough results. This does mean that 
there are instances when the FBI's review of a visa request 
must require as much time as needed to obtain an unequivocally 
correct result.
    We are working together with the State Department to ensure 
that all old visa requests are accounted for and processed. 
This has been accomplished through a systematic comparison 
between the FBI name checks and the State Department's visa 
databases. We closely monitored student visa submissions for 
this school year, and believe that we were able to meet the 
seasonal demand. We are using the National Academy of Sciences' 
data to assist us in monitoring our response time for both 
students and visiting scholars. We have a public inquiry system 
where we check the status of individual cases, and this system 
has been helpful in identifying and resolving individual 
problems. We have not detected any systematic problems 
associated with our review process.
    The FBI recognizes that the increase in numbers of requests 
necessitates the development of even more efficient processes 
in order to sustain the current pace of processing name check 
requests. We are in the process of implementing a number of 
interim improvements to minimize manual submissions by all 
agencies and to increase efficiency within our process. In 
addition, we have developed a high-level functional requirement 
for an entirely new name check application that would be 
compatible with these improvements. The new name check 
application is now undergoing review as part of our ITIM 
Process.
    Additionally, the FBI is participating in the development 
of the Department of State's new visa database. As the existing 
FBI Name Check System is a legacy system that serves numerous 
other agencies, the data from the new Department of State 
database must be translated before it can enter into the FBI's 
Name Check System. This is not an insurmountable obstacle, 
however. Current planning is focused on the optimum method to 
move requests from the State Department to the FBI. In the 
interim, the State Department submits requests to the FBI from 
its new database by computer disk, and this process has proven 
to be highly reliable.
    In conclusion, the FBI recognizes the importance of 
accurate and timely name check processing. I want to emphasize 
to you that this has the full attention of Director Mueller. We 
appreciate the Committee's interest, and I am prepared to 
answer any questions.
    [The prepared statement of Mr. Garrity follows:]
              Prepared Statement of Robert J. Garrity, Jr.
    Mr. Chairman and Members of the Committee, thank you for inviting 
Assistant Director Hooton here today to testify in this hearing, in 
which the Committee is reviewing the conflict between science and 
security in visa policy. Unfortunately, Mr. Hooton could not be here 
today, so I have been designated to provide testimony in his stead. My 
name is Robert Garrity, and I have served as an FBI Special Agent since 
1976. I currently serve as the Deputy Assistant Director of one of the 
FBI's newest divisions, the Records Management Division (RMD). My goal 
today is to discuss the FBI's role in vetting foreign visa applicants 
under the Visas Mantis program. First, I would like to say that the FBI 
appreciates the Committee's interest in this subject and hopes that the 
General Accounting Office (GAO) found us both cooperative and 
forthcoming in developing their report on Improvements Needed to Reduce 
Time Taken to Adjudicate Visas for Science Students and Scholars.

FBI Name Check Process

    The FBI receives information on the applicants from the Department 
of State via computer disc, cable, or manual (facsimile) submissions. 
The requests are entered into the FBI's National Name Check Program 
(NNCP). The information is searched against the FBI Universal Indices 
(UNI). The searches seek all instances of the individual's name and 
approximate date of birth, whether a main file name or reference. By 
way of explanation, a main file name is that of an individual who is 
the subject of an FBI investigation, whereas a reference is someone 
whose name appears in an FBI investigation. References may be 
associates, witnesses, co-conspirators, or victims whose names have 
been indexed for later retrieval. The names are searched in a multitude 
of combinations, switching the order of first, last, middle names, as 
well as combinations with just the first and last, first and middle, 
etc. It also searches different phonetic spelling variations of the 
names, especially important considering that many names in our indices 
have been transliterated from a language other than English.
    If there is a match with a name in a FBI record, it is designated 
as a ``Hit,'' meaning that the system has stopped on a possible match 
with the name being checked, but now a human being must review the file 
or index entry to further refine the names ``Hit'' upon. If the search 
develops a name and birth date match, it is designated an ``Ident.'' An 
``Ident'' is usually easier to resolve.
    Approximately 85 percent of name checks are electronically returned 
to the Department of State as having ``No Record'' within 72 hours. A 
``No Record'' indicates that the FBI's Central Records System contains 
no identifiable information regarding this individual. By agreement 
with the Department of State, partially due to our concern about the 
time factors in approving visa requests, a ``No Record'' equates to a 
``No Objection'' to the issuance of a visa. The investigative divisions 
in the FBI, (i.e., the Counterterrorism Division, the 
Counterintelligence Division, the Criminal Investigative Division, and 
the Cyber Division) do not review visa requests where there is no 
record of the individual. Duplicate submissions (i.e., identically 
spelled names with identical dates of birth submitted within the last 
120 days) are not checked and the duplicate findings are returned to 
State.
    With the remaining 15 percent that were not immediately eliminated 
as a ``No Record,'' because a name and birth date are not sufficient to 
positively correlate the file with an individual, additional review is 
required. A secondary manual name search usually identifies an 
additional 10 percent of the requests as also not being identical to an 
individual in our files, for a 95 percent overall ``No Record'' 
response rate. This is usually accomplished within a week of the 
request. The remaining five percent are identified as possibly being 
the subject of an FBI record. The FBI record must now be retrieved and 
reviewed. If the records were electronically uploaded into the FBI 
Automated Case Support (ACS) electronic record-keeping system, it can 
be viewed quickly. If not, the relevant information must be retrieved 
from the existing paper record. Review of this information will 
determine whether the information is identified with the subject of the 
request. If not, the request is closed as a ``No Record.''
    The information in the file is reviewed for possible derogatory 
information. Less than one percent of the requests are identified with 
an individual with information that is derogatory or poses concern to 
the FBI about having access to sensitive or special U.S. technologies. 
These requests are forwarded to the appropriate FBI investigative 
division for further analysis. If the investigative division determines 
there is no objection to the visa request, the request is returned to 
the name check dissemination desk for forwarding to the Department of 
State. Results of the name check process are returned to the Department 
of State twice weekly by computer disc or telephonically in expedited 
requests.
    If there is an objection to the visa request, the investigative 
division will prepare a written Security Advisory Opinion and forward 
it separately to the Department of State. In instances where the 
investigative division determines it appropriate, that individual will 
be placed on a watch list. In reviewing these visa requests, the FBI 
has, in the past, identified individuals attempting to enter the United 
States who are of serious concern to the FBI.
    I want to emphasize to you that the FBI is sensitive to the impact 
that delays in visa processing of students and scholars may have on 
business, education, foreign relations, and worldwide perceptions of 
the United States. With these considerations in mind, the FBI is 
working diligently with the Department of State toward the common goal 
of improving the expediency and efficiency of the visa clearance 
process. At the same time, the consequences of the FBI's mission on 
homeland security requires that our name check process be primarily 
focused on accurate and thorough results. This means that there are 
instances when the FBI's review of a visa request must require as much 
time as needed to obtain an unequivocally correct result.

Processing Times

    The FBI's goal is to have all visa requests completed within 120 
days. Attachment A illustrates the current status of how long it takes 
to complete Visas Mantis name checks. This status is current as of 
February 23, 2004. For Visas Mantis, the FBI received 1,522 requests in 
the month of January 2004 and by February 23 had resolved 1,334, or 88 
percent of them. In the month of December 2003, the FBI received 1,446 
Visas Mantis requests and by February 23 had resolved all but 130 of 
these requests for a 91 percent resolution rate. The percentages 
continue to rise over time, with 95 percent of Visas Mantis requests 
resolved within 90 days. Visas Mantis are particularly difficult to 
resolve due to the predominance of requests from China and the 
commonality of Asian names.
    A common question we receive is, ``How long does it take to 
complete a visa request name check?'' As shown on the graph, 88 percent 
are completed in 30 days and 98 percent of the requests are resolved in 
120 days. Most name check requests that are over 60 days old are the 
result of the time required to retrieve and review field office record 
information. Some delay occurs at substantive analysts' desks, but this 
is to be expected. These analysts are assigned to an investigative 
division and are primarily assigned to the analysis of intelligence 
reports from around the world in order to support on-going 
investigations, or to support the flow of intelligence to policy-
makers. Despite these significant and voluminous responsibilities, 
these are the best professionals to review information in our records 
and to then make an informed decision on whether a requester of a visa 
represents a threat to our homeland, or is interested in illegally 
acquiring targeted U.S. special technology. You will understand, 
however, that with the press of other business, the reviews of visa 
requests do not always achieve the analysts' highest priority in their 
assigned work. I would add, in response to one of the questions posed 
in the invitation to testify before this committee, that the 
investigative divisions believe the information found in the Visas 
Mantis requests they review is of use in their other responsibilities.

FBI Visa Tracking System

    The FBI's name check application accurately tracks each visa 
request within the our name check process. At any moment, we are able 
to electronically retrieve the status of an individual request, 
including where it is within the name check process, determine which 
requests have been pending for a certain period of time, identify the 
FBI files associated with an individual, ascertain the result of a name 
search, identify the type of visa request, and generate the data found 
in Attachment A. This tracking capability serves not only the 200,000 
visa requests submitted each year, but also the other 6.1 million 
requests submitted by over 70 other federal, State, and local agencies.

Process Improvement

    We are working together with the Department of State to ensure that 
all old visa requests are accounted for and processed. This is being 
accomplished through a systematic comparison between the FBI name 
checks and the Department of State's visa databases. We closely 
monitored student visa submissions for this school year and believe 
that we were able to meet this seasonal demand. We are using the 
National Academy of Sciences' data to assist us in monitoring our 
response time for both students and visiting scholars. We have a public 
inquiry system where we check the status of individual cases. This 
system has been helpful in identifying and resolving individual 
problems. We have not detected any systematic problems associated with 
our review process.
    However, the FBI recognizes that the increase in numbers of 
requests necessitates the development of even more efficient processes 
in order to sustain the current pace of processing name check requests. 
We are in the process of implementing a number of interim improvements 
to minimize manual submissions by all agencies and increase efficiency 
within the name check process. In addition, the FBI has developed high-
level functional requirements for a new name check application that 
would be compatible with these improvements. The new name check 
application is now undergoing review within the FBI's Information 
Technology Investment Management Process.
    Additionally, the FBI is participating in the development of the 
Department of State's new visa database. As the existing FBI name check 
system is a legacy system that serves numerous other agencies, the data 
from the new Department of State database must be translated before it 
can enter into the FBI's name check system. This is not an 
insurmountable obstacle. Current planning is focused on the optimum 
manner to move requests from the Department of State to the FBI. In the 
interim, the Department of State submits requests to the FBI from its 
new database by computer disc. This process is highly reliable and has 
improved processing times.

Decentralized Recordkeeping System

    As I stated earlier, a significant factor in any delay in the FBI 
responding to a visa name check is retrieval of information from paper 
files. While many FBI files are available electronically, the majority 
of Visas Mantis checks pending over 60 days require review of physical, 
paper records currently stored at one of approximately 265 locations 
worldwide. FBI files are currently stored at FBI Headquarters, all 56 
field offices, many of the larger of our 400 resident agencies, several 
warehouses around the country, in records centers operated either by 
the National Archives and Records Administration (NARA) or a commercial 
concern, four large Information Technology Center facilities on the 
east and west coast, and at Legal Attache offices worldwide. Delays 
result from NNCP personnel identifying a file's location and then 
requesting the relevant information from a field office. Time delays 
mount as field office staff search file rooms and then fax or ship 
copies of the needed file or a prepared summary to FBI Headquarters. 
This process, repeated for many tasks, not only dilutes the FBI's 
responsiveness, but also limits information sharing, a critical success 
factor in protecting the security of our homeland and working 
counterintelligence and counterterrorism cases.
    One possible solution to these problems the FBI is exploring is the 
establishment of a central records complex where all of our closed 
paper files would be located, and our active files stored 
electronically. Our frequently requested closed files could be scanned 
and uploaded into our electronic record-keeping system, so that Agents 
and analysts worldwide would have instant electronic access to the 
information they require for their jobs.

Conclusion

    The FBI recognizes the importance of accurate and timely name check 
processing. I want to emphasize to you, this issue has the full 
attention of Director Mueller and Assistant Director Hooton. The FBI 
appreciates the interest of the Committee in this matter. To ensure the 
Committee's specific pre-testimonial questions have been answered, I 
have attached an addendum that discusses them directly. The FBI 
welcomes any further study by the GAO on this issue. I am prepared to 
answer any questions the Committee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted by the House Science Committee

Q1.  How are Visas Mantis requests currently transmitted from the State 
Department to the FBI and from the FBI to the State Department?

A1. The FBI receives Visas Mantis requests from the Department of State 
via computer disc, cable, or manual (facsimile) submissions. Results of 
the name check process are returned to the Department of State twice 
weekly by computer disc or telephonically in expedited requests.

Q2.  What is your internal process for tracking a Visas Mantis case? 
How often is that information available electronically? And how often 
must that file be located physically? What are your plans to fully 
automate this process? Have there been cases where a file has not been 
located and the applicant is still pending a response?

A2. The FBI's name check application accurately tracks each visa 
request within the our name check process. At any moment, we are able 
to electronically determine the status of an individual request, 
including where it is within the name check process, determine which 
requests have been pending for a certain period of time, identify the 
FBI files associated with an individual, ascertain the result of a name 
search, identify the type of visa request, and generate a status 
report. We do not keep track of how often a paper file must be located, 
as opposed to having the information in our electronic recordkeeping 
system. As stated in my testimony, each name check entails every 
combination of the first, middle, and last name, which means that 
records may be found responsive for each combination. In addition, 
often there is a combination of paper and electronic files for each 
name. So, with one name check there may be numerous files, both paper 
and electronic, on a combination of name variations. As our system 
cannot quantify these numbers for us, it is too large a task to 
manually count and I cannot state how many name checks have required 
paper files. However, on February 23 there were 203 names that were 
pending over 60 days. It would be safe to assume most of these name 
checks required review of paper files. While we intend to fully exploit 
information technology, the system will never be fully automated. Files 
and information must be reviewed by human beings, which cannot be 
automated.
    Now, if the question is more appropriately, when will it be fully 
electronic or the paper records digitized, the answer depends on our 
success in building a new central records complex and relocating all 
closed files to that location where the files of interest can be 
scanned-on-demand by an agent or analyst. There have been instances 
where files have not been located, but by agreement with the State 
Department, the FBI may close a case administratively if there are no 
counterintelligence or counterterrorism files associated with the name.

Q3.  What priority do Visas Mantis investigations have among other FBI 
work? How do you think these waits impact your ability, and the ability 
of other law enforcement agencies, to identify and capture a terrorist 
as opposed to simply preventing him or her from entering the country at 
that particular post?

A3. Within the NNCP, they are a very high priority together with other 
homeland security name checks. As stated, the NNCP can resolve 99 
percent of the name checks, with only one percent of the names and 
related files having to be reviewed by an investigative division. 
Within the investigative divisions, review of these files is usually 
assigned to intelligence analysts. These analysts are primarily 
assigned to the analysis of intelligence reports from around the world 
in order to support on-going investigations, or to support the flow of 
intelligence to policy-makers. Despite these significant and voluminous 
responsibilities, these are the best professionals to review 
information in our records and to then make an informed decision on 
whether a requester of a visa represents a threat to our homeland, or 
is interested in illegally acquiring targeted U.S. special technology. 
Despite the press of other business, the reviews of Visas Mantis 
requests by the investigative divisions generally are handled 
expeditiously.
    As for the impact of these waits on the ability to identify and 
capture a terrorist as opposed to simply preventing him or her from 
entering the country, I am not sure that can be quantified. However, I 
can say that the investigative divisions believe the information found 
in the Visas Mantis requests they review is of use in their other 
responsibilities.

Q4.  What steps are you taking to make [the] FBI's systems inter-
operable with the State Department, which recently invested about $1 
million to upgrade its technology for transmitting Visas Mantis 
requests? Until systems are inter-operable, how will information be 
transmitted and what impact will it have on processing time?

A4. The FBI is participating in the development of the Department of 
State's new visa database. Current planning is focused on the optimum 
manner to move requests from the Department of State to the FBI. In the 
interim, the Department of State submits requests to the FBI from its 
new database by computer disc. This process is highly reliable and has 
improved processing times.

Q5.  How satisfied are you about the appropriateness of the cases 
referred for additional review under Mantis? Are consular officers 
providing agents with enough information and the right type of 
information in their requests?

A5. The name check process culls out 99 percent of the Visas Mantis 
submissions prior to review by the investigative divisions. The 
information they review is useful and is focused appropriately on 
sensitive technology.

Q6.  What steps have you taken to improve the visa application vetting 
process? In light of the fact that there have been lengthy waits and 
there are still Mantis cases that have been pending more than 60 days, 
what measures do you have underway that will identify and resolve these 
cases?

A6. We are in the process of implementing a number of interim 
improvements to minimize manual submissions by all agencies and 
increase efficiency within the name check process. The FBI has 
developed high-level functional requirements for a new name check 
application that will be compatible with the new FBI information 
systems in development. These new information systems, over time, will 
eliminate dependence on the retrieval of paper files. The development 
of this new name check application is now undergoing review within the 
FBI's Information Technology Investment Management Process.

                  Biography for Robert J. Garrity, Jr.

    Mr. Garrity was born and raised in the Baltimore, Maryland 
metropolitan area, where he received his early education. He graduated 
from the University of Maryland Baltimore County with a Bachelor's 
degree in psychology; the University of Baltimore School of Law; and 
earned a Master's of Public Administration degree from the University 
of Southern California. He entered on duty with the FBI in 1976 and, 
following a period of training, was assigned to the Savannah Field 
Office. In 1977, he was transferred to the Statesboro, Georgia Resident 
Agency. In 1978, he was transferred to the New York Office, where he 
was assigned to a foreign counterintelligence squad investigating the 
activities of the Soviet Military Intelligence (GRU). He was promoted, 
in 1980, to Supervisory Special Agent and transferred to the former 
Intelligence Division and assigned as an attorney to the Special Staff, 
the precursor to the National Security Law Unit. In 1983, he was 
reassigned to the Soviet Section, as a supervisor providing guidance, 
oversight and support to offices conducting counterintelligence 
activities against the former Soviet Committee for State Security 
(KGB).
    In 1984, he was transferred back to the New York Office as the 
supervisor of a squad engaged in counterintelligence activities 
directed against the KGB. In 1989, he was promoted and transferred back 
to FBI Headquarters as the Chief of the GRU and Arms Control Treaties 
Unit in the Intelligence Division. In 1992, Mr. Garrity returned to 
criminal investigative assignments and was designated the Special 
Assistant to the Assistant Director, Criminal Investigative Division. 
In 1995, he was promoted to the position of Assistant Special Agent in 
Charge of the Dallas Field Office, where he was responsible for the 
day-to-day operations of the division.
    In 2000, he was selected into the FBI's Senior Executive Service at 
the rank of Inspector, and assigned to the Office of Inspections. In 
this capacity, he was responsible for leading inspection teams to 
ensure field office and headquarters division compliance with existing 
policies and regulations, and to facilitate the improvement of 
performance by providing independent, evaluative audits of all 
investigative and administrative operations. He served as the 
Inspector-in-Charge of the Information Security (InfoSec) Working 
Group, analyzing the FBI's InfoSec policies, practices and procedures 
in light of the damage committed by a former Special Agent who was 
convicted of committing espionage.
    In July 2001, Inspector Garrity was appointed the FBI's Interim 
Records Officer, reporting directly to the Acting Director, and charged 
with the responsibility of assessing the FBI's records management 
systems in light of the belated production of documents in the Oklahoma 
City bombing investigation. After assessing the records management 
system, Inspector Garrity recommended re-commissioning the Records 
Management Division (RMD), to bring all records management functions 
under a central manager during the records life cycle. The FBI hired a 
professional records officer and then Inspector Garrity was detailed to 
serve as his deputy during the formulation stages of this new 
organizational entity. In January 2002, Inspector Garrity was detailed 
to the RMD as the Acting Deputy Assistant Director. On May 22, 2002, 
Director Mueller selected Inspector Garrity as the Deputy Assistant 
Director of the Records Management Division. From January, 2003 through 
January, 2004, DAD Garrity served as the Acting Assistant Director 
while the Assistant Director was on a special assignment.

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. Garrity, and 
you had some insight on a complexity of the issue, and I 
appreciate that.
    Mr. Ford, I assume that you found all of the agencies, DHS, 
State and FBI cooperative?
    Mr. Ford. Yes, we did.
    Chairman Boehlert. Okay. Fine. So no problems in 
responding? And I would assume that all of the agencies are--
did they have an advanced copy of your report?
    Mr. Ford. They had an advanced copy of a draft of the 
report, which they commented on.
    Chairman Boehlert. But I assume they are not just going to 
throw it on a shelf, but they are going to read it carefully 
and begin to study these things? Okay. Fine. Let the record 
show that all witnesses nodded yes in the affirmative. And I 
think we would all agree--let me see if you agree with this 
statement. That the current visa system operates in a way that 
oftentimes creates needless problems for foreign students and 
scholars, problems that don't enhance our security. Do you 
challenge that statement in any way? Mr. Hutchinson.
    Mr. Hutchinson. Well, I just get a little nervous about 
conceding that point completely. I think there are certainly 
instances in which there has been needless delays or system 
problems in it. I think that the security regime that are--is 
in place is important and critical, but clearly, we have system 
problems to work on and there is work to be done to improve the 
process.
    Chairman Boehlert. And let me applaud you and the 
Department for doing just that. I mean, you are moving in the 
right direction. I don't want anyone to think that this hearing 
is designed to criticize what you are doing. We just want to 
encourage you. We want to get some facts on the record, if you 
will, and go forward from here, because it is a changed world. 
I mean, just because someone in some distant point on the globe 
would like to come to the United States to study or to teach or 
to tour doesn't mean they can come here. I mean, we have an 
obligation to open our doors as much as possible, but our first 
obligation is for the security of the American people, and as I 
said in my opening statement, it just ain't easy.
    Let me ask you this, Mr. Secretary. We all acknowledge 
there were some real glitches in getting SEVIS up and running, 
and I would assume you are in constant communication with the 
university community. And do your consultations with them, the 
dialogue, indicate that they feel that there is some 
substantial progress being made?
    Mr. Hutchinson. Absolutely. We are first of all in regular 
contact with them. Jill Deary, our SEVIS program director, has 
weekly or regular conference calls with the associations 
representing the academic community, addressing problems on the 
SEVIS system or questions they might have. We are regular 
participants in their conferences. I personally have met with 
them rather frequently, listened to their concerns. But I think 
there were clearly some early glitches, and those have been 
addressed. From a technical standpoint, I believe they are 
satisfied with those, and I think it is illustrated by the fact 
that in the first SEVIS rule--interim rule that was put out, we 
had literally thousands of comments. The last time we put out a 
rule, there were 225 comments that came in.
    Chairman Boehlert. So moving in the right direction?
    Mr. Hutchinson. Absolutely.
    Chairman Boehlert. Ms. Jacobs, one of the problems, it 
seems to me, is that a lot of consular officers around the 
world might be afraid to let someone in these days. They are 
going to err not only on the side of caution, but be doubly 
cautious. Is there specific guidance we can give to visa 
officers that would enable them to focus more on those most 
likely to present a threat? You indicated the China gathering, 
but the others I am concerned about. And secondly, to add to 
that, my experience and--appears over these years is that 
oftentimes, the consular officer in one of our posts around the 
world handling visas is a junior person, not a senior, more 
experienced person, because they go onto something else as they 
get seniority and experience. Let us talk about the consular 
officers, Ms. Jacobs.
    Ms. Jacobs. Okay. Thank you for the question, because we 
consider the training of our officers to be a key component to 
this entire process. When new officers come in to the Foreign 
Service, they all go through basic consular training, and part 
of that training is devoted to how to do this security advisory 
opinion process. What the different checks are, what to look 
for. In addition to that, we send out every year a telegram 
that includes the technology alert list to all of our posts 
overseas, and the first part of that cable of course lists the 
various sensitive technologies. But the rest of the telegram is 
devoted to giving the officers guidance on what to look for, 
the types of technologies of concern. We tell them to consult 
within the Embassy if they have, for example, a science attache 
to run the case by that person to see if, in fact, it does 
present concerns. We give them a list of websites that address 
many of the technologies in question so that they have more 
background on that.
    Chairman Boehlert. Well--and my red light is on, but the 
same question, part two. I've learned this from Ms. Jackson 
Lee. Mr. Ford, is that your experience? When you are out in the 
field talking to the consular officers, do you feel that the 
guidance that they get gives them some comfort level in dealing 
with this issue?
    Mr. Ford. Actually--well, you have to remember we were 
there in September prior to some of the things the State 
Department has recently implemented. But I can say that in 
particular in China and Russia, a number of consular officers 
there felt that they didn't have as much specific guidance as 
they would like in order to determine whether they were making 
the right decisions. For example, the technology alert list 
itself is a fairly extensive document. It has a lot of fields 
in it, and a lot of the consular officials were--that we met 
with indicated they had some difficulties trying to interpret, 
you know, how they were supposed to interpret that list and how 
they are supposed to apply it.
    So they felt that getting a little more specific guidelines 
from the Department would have been very helpful, and if it 
sounds like the--I know the Department has told us they sent an 
individual to China, which of course is the key country in this 
issue. So hopefully, that issue has been improved, based on 
what we heard from last fall.
    Chairman Boehlert. And just to follow up, Ms. Jacobs, the 
consular officer issue--am I correct in my general feeling that 
consular officers dealing with these issues are usually junior 
on the list, in terms of seniority and experience?
    Ms. Jacobs. Yes, sir. In most of our posts, especially 
where we process large numbers of visas, the people on the line 
doing the visas are, for the most part, junior officers. But 
they are all supervised by more senior officers, and as I said, 
they do get training before they go to post. And let me just 
follow up just real quickly on what Mr. Ford said. We are 
giving them feedback on individual cases every day. We are in 
constant communication with Nonproliferation and the posts, 
passing information back and forth, and we hope with this new 
quarterly cable that we are going to send out, we are going to 
actually present samples of good cases and again try to 
reiterate what the officer should be looking for.
    And in addition, we always talk about these SAO issues at 
conferences, consular conferences that we have. I have just 
recently been to three of these, and I spent a good couple of 
hours talking about all of these issues.
    Chairman Boehlert. My time is up, but I just want to make 
sure you understand that we want to work with you because we 
don't want to deny our great educational institutions, the 
Cornells, the Syracuses, the Utica Colleges, a plug for my alma 
mater, to be denied the faculty and students the opportunity to 
contribute to those institutions. On the other hand, we are 
going to make darned sure that we don't let the wrong people in 
the country.
    So it is very, very difficult, and every one of us up here 
have to understand it. And something else we have to 
understand. We are part of the problem. Mr. Garrity, I know 
about the whole system in the FBI, computers and everything 
else. I mean, talk about inter-operability and sometimes 
operating with yesterday's technology is a real problem for you 
guys. And you say we will solve the problem if you give us some 
money, so we have got to give some more resources dedicated to 
that so that you can talk to State and State can talk to 
Homeland Security, and you can do it instantly around the 
globe. So we will work on that too. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I want to welcome the 
panel as well, and I want to direct my questions at Ms. Jacobs. 
Your visit here last year, you talked about IPASS, the 
Interagency Panel on Advanced Science and Security, and I 
understand in a recent communication with the Committee, the 
Office of Science and Technology Policy, OSTP, and the 
Department of Homeland Security have indicated they are putting 
together a plan to implement IPASS. Can you talk a little bit 
about the current status of that and then what the schedule is, 
and I am going to turn to Secretary Hutchinson as well, when 
you are finished to comment.
    Ms. Jacobs. Okay. Thank you for that question. The IPASS 
was an interagency group that we formed back in 2002 in order 
to get at the issue of advanced students coming here who might 
be studying in areas of sensitive technology. This group met 
and came up with a plan to try to complement the Visas Mantis 
program. They decided that they would look at technologies that 
are uniquely available in the United States. When Department of 
Homeland Security took over responsibility for IPASS, I 
understand that they are now looking at this and that they plan 
to set up a process within the appropriate time frame.
    Perhaps Under Secretary Hutchinson can talk more about 
that, but certainly, the State Department has been a very 
active part. And as I said, the whole goal is to add value, not 
to add further delays to the processing system.
    Mr. Udall. So will it supplant the existing Visas Mantis 
system or add to it or compliment it? Is that still being 
worked out?
    Ms. Jacobs. It is.
    Mr. Udall. Yeah.
    Ms. Jacobs. I think the idea though is to complement it----
    Mr. Udall. Yes.
    Ms. Jacobs [continuing]. To try to really target the 
interests on a certain category of students coming to study in 
areas of concern.
    Mr. Udall. I want to apologize to my colleague. It is 
actually Secretary Hutchinson, and he served here in the House. 
We are proud of what he is doing, so Asa, do you want to 
comment on the----
    Mr. Hutchinson. Thank you, and former colleague is the best 
title I could have today, so it is good to be with you and I 
want to mirror what Ms. Jacobs indicated. We view IPASS as 
complimentary to Mantis, and I think we have to be careful that 
when IPASS was mandated, that was in 2002, before we had a 
fully compliant SEVIS system and before we had an implemented 
U.S. VISIT Program, both adding security measures for the entry 
of people into our country. But IPASS does have some specific 
application, particularly bringing on the academic scientific 
community to help us measure those that ought to have special 
review.
    We want to make sure we don't do things that are 
duplicative and add an extra layer that would add to delays, so 
we are reviewing how IPASS can be utilized in a complimentary 
fashion, and that is an ongoing process that we have at the 
department.
    Mr. Udall. Secretary Hutchinson, have you--I am going a 
little bit off on a tangent here, but have you gotten any 
indication when you look overall at visa applications and--that 
the bad guys have tried to use this particular approach to get 
into our country to do mischief, or are we in a better be safe 
than sorry mode at this point?
    Mr. Hutchinson. Well, first of all, it is clear that there 
has been instances of technology transfer. That some countries 
in the past have utilized our research, friendliness and 
academic institutions to gain knowledge and also the technical 
expertise, and so it is not just simply a terrorist issue, but 
also a technology transfer issue.
    Mr. Udall. Good point.
    Mr. Hutchinson. And so I think the mandate is very 
appropriate that we look at these sensitive areas very 
carefully. But whenever you look at what terrorists are doing, 
they are looking at ways to avoid our visa system, where they 
do not have perhaps the interview process, where they don't 
have the background checks. And so the fact that these are in 
place have a deterrent value as well as a detection value.
    Mr. Udall. One of the messages you would want us to absorb 
is that this is as much about technology transfer concerns as 
it is about particular individuals using this particular 
channel in which to enter the country. That that is the greater 
challenge we face?
    Mr. Hutchinson. Absolutely. That is correct.
    Mr. Udall. Yeah. I still have a little bit of time left, 
and I am going to hold off using the Chairman's technique until 
later in another hearing with the same question, part two. So I 
want to thank you all again for being here, and this has been 
very informative, and we look forward to working with you to 
find that balance that the Chairman so articulately mentioned 
and outlined. So thanks again.
    Chairman Boehlert. Thank you very much, Mr. Udall. And 
without objection, I would like to insert in the record at this 
juncture a statement from the Association of American 
Universities dealing with this very important subject.
    [The information referred to appears in Appendix 2: 
Additional Material for the Record.]
    Chairman Boehlert. Mr. Smith.
    Mr. Smith of Texas. Thank you, Mr. Chairman. First of all, 
let me make a couple of comments, and that is actually to 
compliment the folks who work for the Department of Homeland 
Security and the Offices of Consular Affairs and the FBI. They 
do a tremendous job with limited resources under oftentimes 
very stressful circumstances and conditions, so I just want to 
express my appreciation to you all and the people who work with 
you all for the jobs that you do.
    In that regard, I want to read back again, Ms. Jacobs, a 
point that you made in your written testimony and also in your 
oral testimony a while ago, because I think it bears repeating. 
You said while we are committed to facilitating the travel of 
legitimate visitors to the United States, we consider the 
protection of national security the highest priority in visa 
matters. That was echoed by the Chairman a minute ago as well, 
but it is a point that ought not be forgotten in our--not 
haste, but in our eagerness to admit people who we want to come 
to the United States. That is really a second priority and 
comes after the need to protect America and American lives 
here.
    Mr. Ford, in your GAO report, I just want to comment on 
your finding that--in regard to the Visas Mantis program, that 
it only took a little over two months to process those 
applications. To me, that is not burdensome, and in fact, as 
you all know, compared to most visa applications, that is 
pretty fast. In fact, two months is probably less than a lot of 
students wait to find out whether they have even been admitted 
to college. So when you put it in perspective, I don't think 
two months is too bad and all things considered, when you 
understand the importance of what we are trying to do to--that 
is to prevent would be or potential terrorists from entering 
the country, two months is, I don't think, unacceptable.
    In that regard, let me direct sort of a two-part question 
toward Mr. Hutchinson and Ms. Jacobs, I think, and it is this. 
What criteria, other than what we are using under the Visas 
Mantis program, are you using or developing to enable us to 
differentiate between the prospect of terrorists and the 
legitimate student or scientist? And the second part is how 
does that criteria differ from what we used to use in the 
Immigration and Naturalization Service? Mr. Hutchinson, if I 
could ask you to respond first.
    Mr. Hutchinson. All right. Well, first, you know, I would 
point out, according to my information, in China, the refusal 
rate for visa applications is close to 40 percent. Now that, in 
most instances, is not because there is a terrorist concern, 
but because there is a question as to whether they would return 
to their own country and whether they are, in fact, an 
intending immigrant. But whenever you look at the criteria we 
use, and of course, the consular office, in a direct 
application, is whether they are a legitimate traveler, and 
there are a number of measures that you look at in terms of 
whether they intend to return to their home country or not.
    Secondly, from the terrorist standpoint, obviously we look 
at everyone who applies for a visa in terms of whether they are 
on a terrorist watch list, whether they have overstayed 
previous visas, which is an indication of risk, whether they 
have any criminal offenses. Those are all routine checks, and 
closer scrutiny is given to those that are applying for entry 
into sensitive areas, and that is where we have this more 
extensive review.
    Mr. Smith of Texas. Thank you. Ms. Jacobs--and Mr. 
Hutchinson, I was going to come back in a minute and ask you 
how that differs from the INS, but I will do that on the second 
round. Ms. Jacobs.
    Ms. Jacobs. The--well, as Secretary Hutchinson said, we 
continue to adjudicate visas in accordance with the immigration 
law. The section that Visas Mantis gets at is 212(a)(3), which 
talks about the illegal transfer of sensitive technology. As 
far as the criteria used, that sort of gets back to the 
guidance that we provide to the field. We give them a list of 
about 200 technologies that the interagency group back here has 
identified as being sensitive for national security purposes. 
And then we go further and try to explain what all of that 
means to the officers, what they should be looking for, what 
questions to ask. And as I said, we are doing additional 
training in that regard.
    I think one of the biggest challenges that all of us face 
after 9/11 is I think we are doing a much better job of 
identifying bad people and getting those people into look-out 
systems. I think we have come a long way. We still face this 
issue though that we have to identify high-risk travelers who 
may not be known to us, who are not in a look-out system, and 
that is why we have these various screening processes in place, 
so that the case can come back for review to see if there are 
concerns that we need to be aware of.
    Mr. Smith of Texas. Okay. That answered my question. Thank 
you all very much. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. Mr. Gordon.
    Mr. Gordon. There is clearly a consensus here that this is, 
as has been said over and over, a both important and a 
sensitive issue, and that--you know, clearly that we should 
always err on the side of security. But that should also not be 
an excuse for inefficiency, and I think that is what we need to 
try to determine today. And Mr. Ford, thanks for a good report. 
GAO is--does a great service to Congress and the country, and 
this is once again, another good report. Let me ask you is this 
just--these delays, is this just a natural bubble in new 
programs getting started, and--or--and we have heard a 
variety--a list of things that these groups are doing. Do you 
feel like these are in order and feel like this is going to 
come together soon, or do you still see there might be 
problems?
    Mr. Ford. Well, first of all, as we say in our report, 
there has been a lot of activity on the part of the State 
Department and the FBI in particular to address some of what I 
characterize as inefficiencies in the process. And I want to 
make it clear that GAO did not set a standard that 60 days is 
the--a right amount of time. Actually, if there is information 
out there indicating that somebody is going to do harm to the 
country, it should take as long as necessary. Our main point 
here is whether or not the process can be made more efficient, 
because we found cases when that didn't occur.
    I believe that some of the steps that the Department of 
State and the FBI have underway can help improve the 
efficiency, particularly the transfer of information because 
when we started this project, clearly, there were cases when 
applications got lost. They were sitting on someone's desk. The 
process just had places where there could be gaps that good 
technology ought to be able to overcome. So if the Department's 
new data system works and if they can get it so that it is 
inter-operable with the FBI, a lot of the inefficiencies that 
we saw ought to be corrected.
    Mr. Gordon. Well, we really need to have you back the 1st 
of next year and see how things are going. I think you are 
correct in that there shouldn't be--we could have a model time, 
but the time is whatever it takes. But again, that is not an 
excuse to let something just sit on a desk somewhere. Now the 
principle recommendation of GAO was that there be a coordinated 
plan between the various agencies, and my mother used to say 
that, you know, if it is not written down, you don't have a 
plan. So let me just ask Mr. Hutchinson--I know that you have 
responded--all of you have responded to this report and we are 
generally in agreement. But they didn't get into too much 
specifics.
    Are you planning to work with these other agencies and have 
a written plan as to the Visas Mantis process, how to make it 
more efficient?
    Mr. Hutchinson. Thank you, and I think there are a number 
of improvements that have to be looked at, based upon the GAO 
report. One of them of course is more State Department 
dependent, which is a cable-less SAO process, an online system 
that the FBI and the Department of State I know are looking to 
address. The second issue is----
    Mr. Gordon. Mr. Hutchinson, I am not trying to cut you off, 
but my time is short here, and I am sure you are--really, the 
question that I have is do you intend to work with these 
agencies to develop a written plan to make it more efficient?
    Mr. Hutchinson. We certainly intend to work with these 
agencies. In terms of a written plan, our responsibility at 
Homeland Security is to add the security perspective. If it 
takes a written plan to do that, we will certainly look at it. 
But we intend to address the issues raised by the GAO report 
from the Homeland Security perspective.
    Mr. Gordon. Well, the principal--again, the principal 
recommendation was that there be a coordinated plan between the 
different groups. Ms. Jacobs, what about you? What are your 
plans in terms of developing a written plan for coordination?
    Ms. Jacobs. One of the things that we are doing within 
State is to develop SOPs for handling these cases. For example, 
we are setting now a performance goal that if we can get all of 
the clearances back from the other agencies within 15 days that 
the cable will go back to the post within two to three business 
days. And so we are really taking a much deeper interest in 
looking at the processing times, at the numbers involved. This 
project that we have in place that will connect us with the FBI 
through the OSIS system will actually allow for electronic 
questions and answers to go back between posts and the FBI.
    Mr. Gordon. Just--I know that my time is going to be 
running out. Again, I have no doubt whatsoever that each of 
your agencies are doing all that you can to try to make your 
agency effective and efficient, and I would just hope though 
that there needs to be a point somewhere where you have got to 
be talking together, in being sure that those things come 
together. And I would hope that you will, expect that you will, 
and look forward to Mr. Ford coming back next year with a hunky 
dory report.
    Chairman Boehlert. Thank you very much. Mr. Smith.
    Mr. Smith of Michigan. Mr. Chairman, thank you. It seems to 
me this hearing should not be seen as a forum to pit the 
interests of science against the interests against security, 
but somehow work together to accomplish the same--the kind of 
compromise that is going to be good for our ultimate economy. 
Maybe the two goals are not jeopardizing our economic future 
and not jeopardizing the security of this country, and let me 
just ask you, Mr. Secretary, the question on the H-1B, 2 and 
3s, are you increasing or decreasing--are you familiar with the 
increase or decrease in the green card, H-1B, 2 and 3s?
    Mr. Hutchinson. Well, the--in terms of the green cards, of 
course, the President's initiative indicated that there should 
be a reasonable increase in the number of those. In terms of 
the B-1s, being a former Judiciary Committee Member, that is 
statutorily fixed as to the number of those, and I think that 
is something that will continue----
    Mr. Smith of Michigan. But of course, that is what we do 
here. We change that. It was much higher, now it is back down 
to 65,000. But a lot of students, as I contacted my 
universities, as Chair of the Research Subcommittee, a lot of 
the universities suggest that maybe even most of their students 
that are graduating with their doctorates in the science, math, 
engineering, etc., tend to stay in this country, and I assume 
they go from the restricted F student visas and become more 
important and more educated scientifically, and then apply for 
an H-1B or a 2 or 3, and so I assume that is the----
    Mr. Hutchinson. That is correct. That would be the process.
    Mr. Smith of Michigan. Just in terms of our future economy, 
we have worked very hard in this committee trying to encourage 
more interest and success in science and math with our 
students, and for a lot of companies that say look, lift--make 
it--relax the restrictions on the H-1Bs so we can keep our 
economy going, and after all, we have the prevailing wage 
provisions. I would just suggest that if demand increases, by 
increasing the salaries to available people in this country for 
their--those high-tech jobs, eventually in the long run, we are 
going to stimulate greater interest in the number of students 
and hopefully the number of parents that encourage their kids 
in K through 12. But it seems to me that as long as we already 
know that 9/11 had one person that was over here on a student 
visa, it is justified in getting tighter.
    Have you--has anybody got any specific suggestions on how 
we facilitate that compromise to not jeopardize security, and I 
am also concerned about your restriction of visas for our 
scientific gatherings in this country. Already, some other 
country is saying look, come--for your international scientific 
forums, come to our country because it is too hard to get into 
the United States.
    Mr. Hutchinson. We are in a transition, in my judgment. We 
have imposed new security requirements that are appropriate, 
from the interview of visa applicants to the biometric 
confirmation of identity. But it is important that we one, send 
the message that we welcome people to our country, and secondly 
that we are going to do everything that we can to facilitate 
that. That is the--we are going to have to improve our 
processes, our technology, and the message that we have to our 
foreign guests.
    Mr. Smith of Michigan. Anyway, part of the increase in 
demand is increased pay for some of these high-tech students in 
our country over the long run. I am introducing legislation 
that is going to be hopefully a stimulus and an awards system 
for those companies and industries that make a special effort 
to work with and improve our science and math in our schools in 
our country. But simply lifting the door to allow more 
immigration to replace our shortage by students coming in from 
other countries, I don't think in the long-term is the kind of 
solution that is going to motivate a better job in science and 
math education in this country.
    Let me ask Mr. Garrity if we have become sophisticated in 
terms of the school reporting. Maybe I--in terms of the school 
monitoring what happens to these students, is that fairly--is 
that running smoothly and efficiently now?
    Mr. Garrity. I am probably not the best person to answer 
that question because they don't report to the FBI.
    Mr. Smith of Michigan. Who do they report to? Back to you, 
Asa.
    Mr. Hutchinson. Yeah. The students coming in? It is----
    Mr. Smith of Michigan. No, no. The responsibility of 
schools to monitor what happens to these foreign students.
    Mr. Hutchinson. It is really working very, very well. For 
example, the universities have a responsibility to go online, 
to tell us if a student is not complying with the visa, showing 
up for class, changing the majors inappropriately, these type 
of things. We have had 25,000 violations reported by the 
universities and academic institutions on SEVIS violators. Of 
those, only about 1000 were actionable leads that we could 
follow up on. But they are doing a good job cooperating with us 
and getting the information on student compliance with the 
visas.
    Mr. Smith of Michigan. Do you require personal interviews 
now for if there is an international forum in the United States 
from scientists from around the world? Do you require a 
personal interview? My understanding is, and their complaint 
is----
    Mr. Hutchinson. That is correct.
    Mr. Smith of Michigan [continuing]. You now require a 
personal interview. Even if they come here twice a year or 
three times a year, shouldn't there be some kind of flexibility 
for a reoccurring U.S. visitor, whether it is business or 
whether it is scientific forums of some kind?
    Mr. Hutchinson. Janice, do you want to take that? Ms. 
Jacobs might----
    Ms. Jacobs. It is true that we interview the vast majority 
of people coming here for any type of visit. We changed that 
policy last year because we felt that we needed to be 
interviewing more people to really know more about the people 
who were coming here----
    Mr. Smith of Michigan. Well, my question is this. Somebody 
that comes once every year or every two years, there is no 
flexibility?
    Ms. Jacobs. Well, a lot of that depends on the reciprocity 
schedule that we have with any given country. For example, if 
they are coming here to visit and they--in some countries, they 
can get a 10-year visa, which allows them to travel freely 
during that period. We wouldn't see them again for 10 years. If 
it is someone coming to a conference where there is sensitive 
technology involved, in that case, we might give the person a 
single-entry visa to come to that conference.
    Mr. Smith of Michigan. And sometime, it takes two months, 
I'm told. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Smith. Dr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. I am going to direct 
my questions first to Secretary Hutchinson, and then to State, 
to Ms. Jacobs. First of all, let me just say that I was--during 
this recent President's Day recess, I went to Guatemala on a 
medical mission with the Flying Doctors of America. And we each 
were provided--those of us who speak no Spanish--with an 
interpreter, and my interpreter was a young Guatemalan lady who 
was in college in Guatemala. She actually would go to the 
university there on the weekends, and of course, work--had a 
full-time job.
    In Guatemala, I think the currency--I think I am 
pronouncing this right, quetzales and eight quetzales equal $1. 
And they earn maybe the equivalent of 250 quetzales a week, and 
I was--the question I want to ask in regard to the fee--because 
I asked her why she didn't come to the United States and go to 
school, and she said because I don't have $100 to apply for a 
visa, and some of my friends or co-students have tried that and 
they pay their $100 and fill out the form, and a month later, 
they get a letter back telling them that they are denied. And 
that is the equivalent of about two weeks' wages, and, as you 
all know, many countries in Central America, and Guatemala in 
particular, are very poor countries.
    So in regard to the amount that is charged, the question of 
course--and I will direct this to Secretary Hutchinson first. 
The former INS, which oversaw SEVIS before it was folded into 
the Department of Homeland Security in March, hired KPMG to 
evaluate whether a $95 fee they wanted to impose would cover 
the costs of the SEVIS program, and they actually came back and 
said it would more than cover the cost. In fact, a more 
appropriate cost would be $54. And for that reason, I think 
some may have been surprised when you proposed--your proposed 
rule included a $100 fee.
    And so the question is what will the increased fee go to 
support that was not included in the original evaluation, and 
if you can address that problem. And, Mr. Secretary, before you 
do, this $100 fee or whatever the fee is, is if--if it is a 
standard, across-the-board fee applicable to students from any 
country, if the student is from Western Europe and an affluent 
country and, you know, with my--$100 may be nothing to them, 
but for this young student in Guatemala, it was impossible.
    Mr. Hutchinson. Thank you, and certainly a very appropriate 
question. The fee is in place because Congress directed that 
this be a fee-supported program, and you are absolutely correct 
that the original study indicated that--I believe it was $56 
would be sufficient for the administration of the program. But 
that was in terms of the administering the processing of the 
students, but it did not include the compliance side. And so we 
felt like it would be inappropriate to generate 25,000 leads 
and not have the ability to follow up on those leads. So the 
additional $44 is for the compliance side to follow up on the 
leads, to sort through these, and to make sure the students are 
complying with their obligations.
    We are certainly sensitive to the burdens on the students 
and it is a fact and reality. We are sensitive to it. I know 
that many universities are trying to, you know, accommodate 
that burden on the students by giving them assistance.
    Mr. Gingrey. And my second question--I know my time is 
getting short, and I will direct this to Ms. Jacobs. The State 
Department has almost no data that would enable policy-makers, 
including all of you, to know whether the visa system is 
focusing properly. And for example, we don't know how many 
cases are being referred for Mantis reviews or how often those 
reviews turn up a real problem. What are the Departments of 
Homeland Security and State going to do to make sure that we 
all have the data we need to evaluate the system, to see if it 
is truly working?
    Ms. Jacobs. We do have some figures on the number of cases 
that we processed last year. We issued around 4.8 million 
visas, and out of those, we did about 220,000 checks, and that 
is all types of different clearances. In the case of Mantis, we 
did about 20,300 cases. And so I think in the big scheme of 
things, we can say that the percentage of people who have to 
undergo these additional checks is still relatively small 
compared to the numbers of visas that are issued.
    Chairman Boehlert. Thank you very much----
    Mr. Gingrey. Thank you----
    Chairman Boehlert [continuing]. Dr. Gingrey.
    Mr. Gingrey [continuing]. Mr. Chairman.
    Chairman Boehlert. Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. I apologize for not 
being here for the whole hearing. I had an Armed Services 
hearing at the same time. But I do have some concerns here, and 
I am going to ask the Committee to support me in a request that 
I am going to make.
    I have been working for the past 17 years on improving 
relations with a number of nations, both in the former Soviet 
States, Eastern Bloc, and now recently with North Korea and 
with Libya. In fact, we will take another delegation back to 
Libya this coming weekend, with the support of the 
Administration. The Chairman just got back from Libya. Was it 
last week? And----
    Chairman Boehlert. Last week. Two hours in the deserts of 
Libya with Moammar Gadhafi.
    Mr. Weldon. And we took a delegation over about a month 
ago, and so I am very familiar with the issue of visas, as it 
relates to our interaction with these nations that want to 
become closer to America. And while I, as a Member of the Armed 
Services Committee and Homeland Security Committee, understand 
the need for absolute security and absolute transparency, I 
will tell you that the process is broken. I can't tell you the 
number of times that our government has sponsored seminars with 
scientists and academicians, only to find that 24 hours before 
the event, 48 hours before the event, they can't get a visa to 
come in.
    This sets our relations back with these nations years in 
terms of embarrassments. We have even had deputies from the 
Russian Duma denied. Now some of them legitimately have been 
denied because of questions about involvements that they are 
in, in the country. But some, there have been no reason given, 
and yet they have been denied access to the United States
    So Mr. Chairman, what I would like to do, there--and I 
will--and I am also concerned about the system we have. We are 
working with Libya right now and there are very delicate 
discussions going on with the Libyans about a statement by the 
Prime Minister yesterday that appear to renege on the 
commitment relative to the responsibility of Libya on the 
Lockerbie crash and the bombing in Berlin. So I was on the 
phone all day yesterday afternoon with the--with my Libyan 
contacts right directly to the Prime Minister and the Foreign 
Minister, and with the person who is acting as intermediary who 
was given a letter by our Embassy, by our consular officer in 
Dubai last June basically stating--and I have a copy of the 
letter, which I will give you for the record--that your visa is 
approved from our standpoint. And this is the guy that is 
acting as intermediary who is helping us accomplish what we 
want to get the Libyans to reinstate the acceptance, which is 
going to happen today, which will allow us to remove the travel 
ban on Libya.
    And so we have this letter from our Dubai consular office 
approving his visa and saying, but it is back in Washington 
being reviewed. When my staff called the State Department here 
in Washington this week, they said we have no record of this 
man. To us, he doesn't exist. He did apply at some point in 
time, for a visa in Spain. Now my question is not whether or 
not this guy deserves a visa. My question is the left hand 
doesn't know what the right hand is doing if we have a letter 
from a consular office in Dubai, but the State Department back 
here doesn't even know the person exists. Now I don't know how 
you explain that and I don't know how we--and let alone figure 
out how we can increase the capability of getting legitimate 
people in this country and keeping out the bad guys.
    I want to praise Asa Hutchinson, because it was the 
Homeland Security Agency this past summer, last summer, who 
prevented an ultimate disaster in having 20 young Russian high 
school students stay in America with 20 young American high 
school students, all of whom were nominated by Members of our 
Congress, the House and the Senate, and members of their Dumas, 
and they couldn't get visas to come over to spend time at the 
Freedoms Foundation for a conference on democracy building and 
free enterprise. It was only because of Homeland Security that 
we were able to get that issue resolved, and it was an 
embarrassment, but finally, it was rectified, and Director 
Hutchinson, I--Secretary Hutchinson, I congratulate you for 
your effort, and it was a very successful program.
    So I am asking today, Mr. Chairman, and I would hope my 
good friend Bart Gordon would agree, that the GAO do an 
investigation, an independent investigation, and I would like 
to meet with them to give them some facts to work with, on the 
visa process relative to Eastern European nations and former 
Soviet States, specifically. And I would ask the Chairman and 
the Ranking Member if they would support that request.
    Chairman Boehlert. Well, speaking for the Chair, I have--I 
would be fully supportive with the request, and Mr. Gordon has 
indicated the same.
    Mr. Weldon. I thank the Chair, and I thank my colleagues.
    Chairman Boehlert. Mr. Gordon.
    Mr. Gordon. With students, I would assume that frequently 
the case is they are here for multiple years, and also for them 
to get clearance, you want to be sure that they are going to go 
back home, which means they have got family and things of that 
nature back home. So if you are going to be here for two, three 
or four years, you want to go home and see your family. Yet you 
have to go through this same--as I understand it, through the 
same process again. So I guess, Mr. Hutchinson and Ms. Jacobs, 
is it the case? You have to go through the same process, and if 
so, would there be a way to flag these folks and have an 
expedited process on their--you know, on a--they go home for 
three weeks to visit family on some holiday?
    Mr. Hutchinson. Thank you, and actually the--if a student 
gets a four-year visa to go to the academic university, they do 
not have to reapply every year, and so that visa is good for 
all of their travel back and forth during that timeframe.
    Mr. Gordon. That is not what we understand, but that is--I 
am--is that your understanding, Ms. Jacobs?
    Ms. Jacobs. That is true for the students who are coming 
here who are not subject to the Visas Mantis process. We first 
of all look at their intention to return to the home country 
after the studies, and provided there is no other reason to 
find them ineligible for a visa; the vast majority of 
applicants would get the student visa to come here. I don't 
think----
    Mr. Gordon. So what would be the difference between someone 
who was subject to the Mantis and someone who was not, and 
about what percent is that?
    Ms. Jacobs. Well, it is a very small percent. Of all the 
checks we do, I said we did about 220,000 last year, only about 
10 percent of those are Visas Mantis in general, and a smaller 
percentage of that would actually be students. But what we have 
done to address, I think your question is once they are 
cleared, if it is a student, for a particular program in the 
United States, we have worked with our fellow agencies to make 
the clearance valid now for one year. We are hoping to talk 
about getting that clearance to be valid for the entire length 
of the program, and that way, they can travel freely. They 
would not have to go through that check again.
    Mr. Gordon. But it would seem like, by definition, if they 
have gone through this advanced check, then they have cleared, 
and so they ought to be in a different category.
    Ms. Jacobs. No. We agree with that. The idea would be that 
they could come here for the length of the program. If there is 
somehow some derogatory information developed during the stay 
in the States, that would go into a look-out system to alert 
us.
    Mr. Gordon. I guess my other question--you know, in the 
past, this was a vehicle for folks to come here and then just 
disappear and stay, and we wouldn't even keep up with them. And 
I know that you are doing a--you have got a tracking system now 
with this, I guess it is SEVIS? Is that how you pronounce it? 
But how much tracking is this? I mean, do--whether it is 
quarterly or by semesters? Are the universities checking in and 
saying yes, that this person did pass and that we know they are 
going to classes? I mean, how do you really keep up with 
someone a year or two later?
    Mr. Hutchinson. The obligation on the university is to 
report any anomalies, and those can be specifically defined, 
but for example, if the student who comes in--first of all, 
they have to verify that they have been accepted before they 
would be entered, and then that they actually show up at class. 
And if they fail to show up at class or drop out, any anomaly--
for example, if they come in to major in English and wind up 
having nuclear physics as their major, that is an anomaly that 
they should report online to our SEVIS program office.
    Mr. Gordon. So they only report bad news. No good news? 
Just for----
    Mr. Hutchinson. That is correct.
    Mr. Gordon [continuing]. Terms of--yeah. Okay. Is this 
enough? Are you satisfied that--I mean, is this working and are 
the universities really doing that? Is there any spot-checking, 
you know?
    Mr. Hutchinson. Yes. There is spot-checking. I am satisfied 
that they are very, very cooperative. Like I said, they have 
referred 25,000 anomalies to us.
    Mr. Gordon. They have? Okay.
    Mr. Hutchinson. Now some of those anomalies are 
misinformation or some confusion, and that is why the vast 
majority of those are not valid violations that we would 
pursue, but they are doing a good job of reporting. Now 
obviously, within that context, there would be a few schools 
that aren't, and it is a continued education and evaluation 
process.
    Mr. Gordon. Ms. Jacobs, do you have any comments on that, 
or----
    Ms. Jacobs. No. I agree with everything the Secretary said.
    Mr. Gordon. Good. Thank you.
    Chairman Boehlert. Thank you very much. In the report--and 
once again, my experience over the years has been that GAO 
reports are outstanding and they are well thought out. They 
have some specific recommendations that deserve to be 
addressed, rather than put on a shelf gathering dust. And I 
notice on page 24 and 25 of the report on ``Recommendations for 
executive action,'' they say that ``The Secretary of State, in 
cooperation with the DHS and the FBI should develop and 
implement a plan to improve the Visas Mantis process, and that 
plan should consider actions to establish milestones, to reduce 
their current number, develop performance goals and 
measurements for processing,'' and Mr. Gordon addressed that 
earlier, and we want to accommodate his grandmother, who likes 
to put things in writing.
    You know, but you see what the recommendations are. They 
are very specific recommendations. Ms. Jacobs and the others, 
is this something you intend to follow, and might we get an 
indication of when we could hear from you, when this plan has 
been--these recommendations have been implemented?
    Ms. Jacobs. Yes, sir. Thank you. We do intend to consider 
all of these recommendations very seriously. I think, in fact, 
we have taken some action on some of them. I mentioned earlier 
that we have established this performance goal now on the 
amount of time where we turn around a case. The inter-operable 
systems is absolutely key, I think, to increasing the 
efficiency of this whole system. This improvement project that 
I talked about, once it is up and running, should really go a 
long way to reducing delays.
    Chairman Boehlert. Do we have in place the technology for 
the inter-operable systems to be up and running?
    Ms. Jacobs. We are going to depend on the Open Information 
System, the OSIS system that was developed back in the mid-
1990's to share the information from our visa database.
    Chairman Boehlert. But when we could expect--give me a 
reasonable--and I don't say a precise hour and day and----
    Ms. Jacobs. Right.
    Chairman Boehlert [continuing]. Month, but when could we 
expect that we hear back from you that DHS, FBI, State all on 
the same wavelength, here is what they are doing in response to 
the recommendations contained in this GAO report?
    Ms. Jacobs. Certainly, we talk to these agencies every 
single day about the process and ways to improve it. I think 
now we need to sit down together and develop a plan for putting 
all of this together so that we have a more----
    Chairman Boehlert. Well, when do you think----
    Ms. Jacobs [continuing]. Clear picture----
    Chairman Boehlert [continuing]. It would be fair to call 
you back for a progress report?
    Ms. Jacobs. I think maybe in six months.
    Chairman Boehlert. I would like it a little bit shorter, 
but I will take that under consideration. We might call you 
sooner. Ms. Jacobs, let me--another thing. Although consular 
officers at some post told GAO that the most recent cable and 
using Technology Alert List was an improvement, many indicated 
it was still very confusing to apply, particularly for junior 
officers, and we know most of these are junior officers without 
a scientific background. To what extent are resources available 
to these junior officers to help them find answers to their 
questions about sensitive military and dual-use technology? And 
let me add, sad to report, we have a number of Embassies around 
the world without a science advisor.
    Ms. Jacobs. Yes, sir. Well, where we do have a science 
attache at an Embassy, of course, that is a very valuable 
resource for the consular officers to use. In our TAL cable, we 
also give them a number of websites that they can consult that 
give them more information about the particular technology 
involved. We don't expect them to be scientific experts, but we 
do, I think, give them a fair amount of guidance on what to 
look for, things to--and they can always come back and consult 
with us on an informal basis. But when in doubt, we do 
encourage them to submit the case for a review back here.
    Chairman Boehlert. Let me ask you, Secretary Hutchinson, 
the same question I asked Ms. Jacobs. When can we invite you 
back to give us sort of a progress report on the implementation 
or the recommendations of GAO?
    Mr. Hutchinson. Looking quickly at the recommendations, 
three of those are really more technical between Department of 
State and the FBI. They need to comment on their timeframes and 
capabilities. One of them though is referenced to training and 
guidance on policy, which is a Department of Homeland Security 
lead responsibility, and certainly, I think six months, we 
should have more information to provide in that regard. Policy 
changes take some interagency work do take some time, but we 
certainly do intend to start on it very expeditiously.
    Chairman Boehlert. All right. Thank you very much. You 
know, in some respects, we are dealing with perception. We 
are--problems versus an inconvenience, and let me say what I--
if I might amplify that. You know, prior to 9/11, I was typical 
of the American traveler. If I had a flight to catch, I would 
arrive about 10 minutes before, expect to dash up and say here 
is my ticket, get me aboard. And then prior to 9/11, when we 
have got these machines to process us through, I would stand in 
line and I would watch the people ahead of me be very upset 
with the screeners who were, at that time, making minimum wage 
with limited training. But screeners suggesting that they have 
to open up the purse or open up their bag, and they were very 
upset with that because they were being inconvenienced. Well, 
they--there was no desire to inconvenience anyone. There was a 
fervent desire to add to the security of everyone.
    That has changed rather dramatically today, and sometimes, 
I find myself at airports where there is a rather lengthy line, 
and I don't find people complaining when the Transportation 
Security Administration makes them take off their shoes, for 
example, or remove their belt or something. So we are moving in 
the right direction, but in this instance, I still think there 
is a perception out there that we should instantly approve any 
visa application. It is a free and open society. It is not a 
free and open society anymore of necessity. I mean, we just 
can't do what we would like to do. And so if someone has to be 
slightly inconvenienced for a few more days of processing a 
visa or has to fill out yet one more form and--to enable all of 
your respective operations to review very thoroughly and to 
make a determination on security matters, so be it.
    But I think you are getting the gist of our strong feeling 
up here that it is a changed world and there have been some 
problems and challenges presented, and I think you are 
addressing them in a responsible manner. We would encourage you 
to do so, to continue that effort, with as much dispatch as 
possible because foreign students at our universities, foreign 
faculty members at our universities, foreign distinguished 
visitors at our conferences all enrich America. They add 
something, and we don't want to stifle that. And I want to just 
address the old song that says where all of these foreign 
people coming into our universities are taking the place of 
American students and that is not fair, that is not the case at 
all.
    Our experience is that students aren't being denied 
opportunities to go to school to study engineering or the 
various science disciplines. The problem is we don't have 
enough of them, and as Chairman Smith indicated, we have got to 
do a better job at K through 12 to prepare more students to go 
on to graduate training. And if we deny our universities 
students from beyond our borders, then what choice do they 
face? They have a lot of vacancies that we are not filling with 
American students. Then they cut back on the spending for their 
various departments, and the effectiveness is reduced, so this 
is a real big issue. And I think I want you to know how much we 
appreciate what each of you are doing to address this, working 
cooperatively with us. And once again, let me thank GAO for 
doing another outstanding job. And with that, I will turn to 
Ms. Lofgren for a final comment.
    Ms. Lofgren. Thank you, Mr. Chairman, and my apologies for 
being late.
    I have been concerned for some time, as Mr. Hutchinson 
knows and the Committee knows, about the delays that students 
are encountering and the impact it is going to have on our 
ability to be an innovative technology society in the future. I 
mean, as we know, half of the Ph.D. candidates in the hard 
sciences and math and engineering are foreign students and, you 
know, that has been a huge engine of innovation for our 
country. I have a couple of questions about the use of 
technology as well as some systems that I think would assist.
    I recently met with a group of primarily engineering 
students who were from various Middle East countries, and the 
interesting thing in talking to them--and these are very smart 
kids who were recruited by fine universities all over the 
world. I mean--and they didn't have to come to this particular 
prestigious university where I talked to them. They could have 
gone anywhere and were lucky that they came here. Because they 
were from Middle Eastern countries, they had special scrutiny, 
and they weren't even complaining about that. In fact, most of 
them hadn't been in their country of origin for many years. I 
mean, they had been undergraduates in America, and then they 
were in graduate school. I mean, they have probably been more 
time in America than they had been in the country they were 
from. They can't actually interview--in the case of Iranian 
students, they can't--there is no Embassy there, and so there 
was a problem in terms of doing the security checks.
    A security check needed to be done in Iran, but they hadn't 
lived in Iran. They had nothing to do with Iran, and so they 
went to an adjacent country where they were trying to do an 
analysis, and in fact, the FBI analysis needed to be where they 
were living, in the United States. And these kids said--and 
they were great kids. Said we will tell you anything. I mean, 
come in, investigate us. We will take lie--whatever you want, 
because we want to be safe too from terrorists. But there was a 
real glitch in terms of just doing the analysis. And then the 
other problem they had was that once the analysis was done, it 
needed to be redone every time they needed to go out and come 
back in.
    And I am just wondering is there a way to do the analysis 
once and to target the analysis where somebody actually lives 
and has the ability to--you know, where we can find something 
out, and then to give some kind of advanced reentry permit or 
something of that nature to students that we have thoroughly 
examined? Because what some of these students were saying is, 
you know, that if you are doing post-doctoral work, you need to 
go to these conferences in Europe and other places and then 
come back. If you can't go to the conferences, you really--it 
doesn't work, and you really can't be a post-doc at, you know, 
MIT or Stanford. You have to go to a European University 
instead.
    What do you think--what--is that a possibility?
    Mr. Hutchinson. I think that is the type of thing that 
should be examined, ways that we can help the frequent traveler 
that comes to conferences that has had a clearance. As Ms. 
Jacobs pointed out, on the Visas Mantis, which is the sensitive 
technology, the check is good for one year. And now, there is 
some rationale there. When you are dealing with sensitive 
technology, a check after one year is probably appropriate to 
make sure there is not additional information or they have 
complied fully with it. But if we can simplify that process and 
recheck--help that student out, then that is what we need to 
work toward doing.
    Ms. Lofgren. Now in terms of the inoperability between--I 
was, thinking, looking at you, Mr. Hutchinson, about a meeting 
that we went to. I think you were there and I was there. The 
Attorney General----
    Mr. Hutchinson. Um-hum.
    Ms. Lofgren [continuing]. Asked us all, Members of the 
Judiciary Committee, to come and meet with him and have 
breakfast, and I--so we all did. It was a bipartisan group, and 
we spent the entire morning berating him and complaining about 
immigration functions, and now we get to complain to you.
    Mr. Hutchinson. I have a totally different view these days.
    Ms. Lofgren. But--so I know that you, because you were 
complaining just like the rest of us, had the same level of 
frustration that we still have about inter-operability and the 
use of technology. And I am concerned that if we build our 
technology on what currently exists in the agency, we are 
building on a very fragile foundation, since it doesn't really 
work. I am wondering, are you looking at utilizing technology 
that might be more vigorous than some of the systems that have 
proved not to be robust?
    Mr. Hutchinson. Yes. Absolutely, and one of the mandates 
that Congress gave us was to integrate the databases for our 
ports of entry. We have styled this mandate U.S. VISIT, and it 
has given us tremendous success in terms of making our systems 
a little bit more advanced, more capable, and certainly 
connected to the Department of State. But there is more 
progress that needs to be done. We need to upgrade many of 
those old legacy systems. You know, the--in the 2004 budget, 
the President asked for $400 million for that, and we got $330 
million, and so there are some--and that will impact the 
ability to bring the systems up to date and to modernize those, 
but we will continue to work to do that.
    Ms. Lofgren. I see my time is up, but just one final 
question, and then maybe you can answer it subsequent to this. 
There is a fee increase being imposed. It is not for student 
visas, but in the whole immigration arena, and it is not clear 
to me how--I mean, I am not opposed to charging applicants the 
full cost for, you know, dealing with their application. But I 
am not seeing a clear trail of how the money has been used, and 
it is just--instead of getting quicker, it seems to be getting 
slower. I mean, you know, for not just students, but all types 
of applications, and I am wondering if you could provide, 
subsequent to this hearing, some----
    Chairman Boehlert. Yeah, and----
    Ms. Lofgren [continuing]. Information on that.
    Chairman Boehlert [continuing]. There--some other questions 
that we are going to ask that they respond to in a timely 
manner in writing. Earlier, Dr. Gingrey posed that same 
question, and he posed an intriguing thought. He was talking 
about a case in Guatemala where the income is, you know, 
dollars a day. They had--students there having to pay the same 
fee as someone in Western Europe where they make, you know, 
maybe a lot more than that. So we would appreciate a response 
in writing to that specific issue on the dollar amount charged 
and what the proposal is and how it is used.
    Ms. Lofgren. Thank you.
    Chairman Boehlert. With that, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank the panel for their presentation. Mr. Hutchinson, you 
realize that there is not a time when the Judiciary Committee 
is not in operation, and we are presently in a markup just a 
few floors down. I think you can remember that, so I thank the 
witnesses for their presentation, and I ask your indulgence, if 
I may raise some points that have already been raised. I am 
going to make a few statements, and then ask, as the Chairman 
has graciously allowed, that some of my questions be answered 
in writing because the Committee is still in the markup as we 
speak.
    I think this is a very important hearing for any of us who 
live in university towns, and any large city, any rural area is 
impacted by universities and impacted clearly by the importance 
of their academic exchange, students on the undergraduate 
level, graduate students; all of them are a part of our vital 
energy and engine in this country. We realize that a page was 
turned on 9/11 and we must do a better job, but when I hear the 
numbers of the backlog that I think was noted by Mr. Ford, 67 
days for processing and 410 backlog of cases in the region that 
he investigated, and out--more than--that are outstanding, more 
than 60 days. Obviously, we have somewhat of a problem.
    So my question is how many actual man hours does the 
application process take? How much time is spent sending things 
back and forth? How much time is the application spending just 
sitting in an inbox, the pending application just sitting in an 
inbox, and how can we boost efficiency? Now I am going to want 
those questions to be answered in writing, and I would like to 
just get Mr. Hutchinson to answer this concern that I have.
    I think that there is an inconsistency beyond the 
application process for our students as they are seeking visas 
to come into the United States or exchange for our 
professionals, our scientists, which I am delighted that the 
Chairman and the Ranking Member has held this hearing because 
these are important issues for the opportunities of our nation. 
But let me just point out to you that I think we also have a 
problem in enforcement of those entering this country in our 
respective airports.
    There is an inconsistency, and I think it is partly 
training and it is partly I think the atmosphere that is 
suggested, meaning that we are getting terrorists. We are not 
getting terrorists if we are misreading their applications, the 
individuals coming in. We are interrogating people from 
Pakistan and India who are frightened to death and may say 
things that may be inconsistent and make them be perceived as a 
terrorist, and they are simply coming here, for example, to 
have--to testify in a lawsuit, accompanying their mother to 
testify in a lawsuit. It is a particular problem in Houston, 
Texas in that airport, which is in my Congressional District. 
The insensitivity of the questioning and the detaining of 
individuals who really have no interest, sense of purpose to do 
a terrorist act.
    So to you, I am asking what kind of training is--are we 
providing those agents who are dealing with the individuals 
coming into this country with visas, by the way. Obviously, 
they could not come in with visas, who are randomly detaining 
people for no reason whatsoever and finding out that they have 
made mistakes, and have said oh, I apologize, only after 
Members of Congress have had to, in the wee hours of the night, 
intervene. So I think there is an inconsistency in training. We 
were discussing today the backlog in visas for the talented who 
may want to come over in exchange. But what is the agency doing 
about making sure that it refines its job to do what the 
American people want it to do? That is, to stop terrorism, but 
not to terrorize innocent visitors to this country, and that is 
what we are doing, and I would appreciate your response.
    Mr. Hutchinson. Thank you, and obviously, sensitivity and 
respect is an important part of the inspectors' responsibility. 
We try to instill that in the inspectors' training and in their 
subsequent counseling. I think the vast majority of inspectors 
do a tremendous job out there, using good judgment and 
discretion. Obviously, there are individual cases in which bad 
judgment and discretion has been used, and we are happy to 
respond to any specific incidents or any case that you have and 
take a look at it.
    But we do try to have that as an important part of the 
training and ongoing, and we do have a Civil Rights Officer 
that has been specifically statutorily designated for the 
Department that can review particular cases, where anything has 
been a problem.
    Ms. Jackson Lee. Let me thank you, and I might say that you 
do have a vast number of hardworking employees for the U.S. 
Homeland Security. I would invite you to visit Houston, as I 
have done before. I would like to have you come down and I 
would like to have you again visit our airport and again look 
at some of the operations. We are using U.S. VISIT. But I will 
look forward to the answers to my other question by writing, 
but I look forward to getting back with you, and I thank you 
very much. Thank you.
    Chairman Boehlert. Thank you very much, Ms. Jackson Lee. 
And thank all of you, and notice the efficiency with which this 
committee operates. Secretary Hutchinson, we are going to meet 
your deadline of 11:30. For all of you, I know you have busy 
schedules and you have important responsibilities. We thank you 
for serving as resources to the Committee. This will not be 
your first visit on this subject to the Committee. We will 
extend an invitation to you in a timely manner for another 
visit. Thank you. This hearing is adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Submitted to Asa Hutchinson, Under Secretary for Border and 
        Transportation Security, Department of Homeland Security

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Sherwood Boehlert

Q1.  GAO made a number of recommendations to reduce the time necessary 
to adjudicate visas for foreign students and scholars. Among them, GAO 
urged the Secretary of State, in consultation with the Secretary of 
Homeland Security and the Director of the Federal Bureau of 
Investigation, to develop and implement a plan to improve the visa 
process, with milestones for pending cases and performance goals and 
measurements for future cases. What steps are you taking to develop and 
implement a plan? Specifically, what are you doing to establish 
milestones and performance goals? How should Congress evaluate whether 
the planning recommendation is being implemented?

Q2.  What work is being undertaken to achieve system inter-operability 
and to expedite data transmissions between agencies?

Q3.  What would be an appropriate time for the Committee to have you 
back to review your agency's progress?

Q4.  In the proposed SEVIS fee rule, foreign students will be required 
to pay their fee either electronically (with a credit card) or by a 
check drawn on a U.S. bank and payable in U.S. dollars. Are you 
concerned that the check option introduces a paper element into a 
system that was designed to be entirely electronic? How will you 
accommodate students from countries where access to credit cards and 
reliable mail systems is limited?

Q5.  A foreign student already pays a $100 visa processing fee to the 
Department of State as well as a visa issuance fee determined by their 
country of origin--all before the applicant knows whether he or she 
will be allowed to enter the U.S. as a foreign student or scholar. Some 
have suggested a legislative fix to allow the SEVIS fee to be paid 
subsequent to the issuance of a visa. Would DHS support this statutory 
change? Why or why not?

Q6.  Some have suggested that the Bureau of Customs and Border 
Protection (CBP), part of DHS, should collect the SEVIS fee at the 
applicant's point of entry into the U.S. This way, the agency 
benefiting from the fee is also the one responsible for collecting it. 
Does CBP have the capability to collect this fee? Assuming that 
Congress provides a legislative fix to allow the fee to be collected 
subsequent to the issuance of the visa, what do you think of having CBP 
collect this fee?

Questions submitted by Representative Bart Gordon

Q1.  In your testimony you refer to the Visa Security Program, which 
has placed DHS personnel at consular posts in Saudi Arabia and which 
will be expanded to other posts. What is the role of the DHS personnel 
relative to that of the consular officers in reviewing visa 
applications?

Q2.  Do the DHS personnel have scientific or technical knowledge, and 
do they advise consular offices relative to the need for Security 
Advisory Opinions?

Q3.  You indicate in your testimony that, `` DHS intends to review the 
Mantis process with the intent of incorporating the best elements of 
the IPASS concept without creating an additional layer of review.'' Are 
you working out how to develop this new approach for security reviews 
in consultation with the State Department and the Office of Science and 
Technology Policy?

Q4.  What is the timeline for developing and implementing this new 
system?

Question submitted by Representative Sheila Jackson Lee

Q1.  Please provide a timeline for a student visa application coming 
through your agency: who it comes from, what form it comes in (i.e., 
digital, or hardcopy, etc.), how you process it, what your role is 
(phone calls, letters of inquiry, compare to databases, etc.), how many 
actual man-hours are needed per application for those tasks (mean, 
range), how much time the application waits in a queue or inbox, and 
then where it goes from there.

Question submitted by Representative Lynn Woolsey

Q1.  There have been cases at American universities, including 
incidents at the University of California campuses, where international 
scholars have had to be detained upon arrival in the United States 
because there were problems with their paperwork. Through some of the 
anecdotal information I have received, I have heard of professors and 
scholars, who arrive without having completed every step of a new 
clearance process, but they have letters from their universities, 
inviting them to the United States. In some of the instances, the 
scholars were harshly detained and poorly treated while their visa 
status was investigated. I am concerned that international students and 
scholars, whose contributions to American society and education are 
immeasurable, are afraid to come to the United States. They have heard 
horror stories about people being handcuffed, detained on wooden 
benches with a small blanket, and denied access to their luggage or 
medicines. Rather than potentially face this type of treatment, 
international students and scholars may choose to study or present 
their research in other countries. I do not have issue with the fact 
that their entry is delayed until problems are resolved, but I think 
there should be a protocol for handling these cases in a more 
reasonable and standardized way.

     Do officials at American ports of entry have the proper training 
and financial resources needed to manage detained international 
scholars in a humane way that encourages them to come back?
                   Answers to Post-Hearing Questions
Responses by Janice L. Jacobs, Assistant Secretary, Office of Consular 
        Affairs, Department of State

Questions submitted by Chairman Sherwood Boehlert

Q1.  GAO made a number of recommendations to reduce the time necessary 
to adjudicate visas for foreign students and scholars. Among them, GAO 
urged the Secretary of State, in consultation with the Secretary of 
Homeland Security and the Director of the Federal Bureau of 
Investigation, to develop and implement a plan to improve the visa 
process, with milestones for pending cases and performance goals and 
measurements for future cases. What steps are you taking to develop and 
implement a plan? Specifically, what are you doing to establish 
milestones and performance goals? How should Congress evaluate whether 
the planning recommendation is being implemented?

A1. The Department of State has prepared a plan to implement the GAO 
recommendations and is submitting it to DHS in accordance with the MOU 
with DHS concerning implementation of section 428 of the Homeland 
Security Act. Paragraph 4 of the MOU specifically addresses changes in 
the security advisory opinion process. We will inform the GAO when this 
plan has been finalized, and will continue to keep the GAO and Congress 
informed of progress. Meanwhile, we continue to make progress in 
streamlining the security advisory opinion process, which is a high 
priority. For example, we have created a new system for fully 
electronic communication of SAO data in near-real time, increasing both 
the speed and the accuracy of our communications. More than half of our 
visa-adjudicating posts are now using the new software for SAO data, 
and we are working with other agencies to establish fully electronic 
connectivity.

Q2.  It is my understanding that consular officers already collect fees 
from visa applicants to fund State Department operations. Some have 
suggested that consular officers should also collect the SEVIS fee. Do 
you support that idea? How might such a change impact existing fee 
collection processes?

A2. The Department of State has no plans to collect the SEVIS fee, but 
we are working with the Department of Homeland Security to share our 
experience with overseas collection to determine how that model might 
be used to collect SEVIS fees. This is a fee of the Department of 
Homeland Security. We have thoroughly explained our thinking to DHS.
    The Department of State has made many changes over the past few 
years to reduce the expense and burden of collecting visa fees. Our 
biggest collection effort concerns the non-immigrant visa application 
fee, also known as the MRV fee, from all persons applying for non-
immigrant visas of any type, including student and exchange visitor 
visas. In many countries, we have instituted off-site MRV fee 
collection systems with local banks. In other words, the visa applicant 
appears at the bank to pay the fee and presents the consular officer a 
receipt at the time of the visa interview. This process minimizes the 
administrative burden on consular and financial sections of U.S. 
diplomatic offices in terms of personnel resources and safeguarding 
large amounts of cash. Posts overseas do not have the resources to 
collect the SEVIS fee.
    We are concerned that if consular officers collect the SEVIS fee, 
or if the fee is collected as part of the application process foreign 
governments will see the SEVIS fee as an additional fee for student 
visas, and may increase the reciprocity fee for American students 
seeking visas in those countries accordingly.

Questions submitted by Representative Bart Gordon

Q1.  GAO found that because the State Department does not maintain 
records on Visas Mantis cases by visa category, it was not possible to 
determine how many such cases involving students and scholars were 
being processed or the status of these cases at any time. What are your 
plans to begin tracking these cases? What are your plans with respect 
to establishing model timelines and benchmarks for cases subject to the 
Visas Mantis process?

A1. The Department has developed the Security Advisory Opinion 
Improvement Project (SAO/IP) to improve the automation that supports 
the SAO process (Visas Mantis cases are one type of SAO). The enhanced 
software allows us to better track the progress of specific cases 
through the interagency clearance system. The software also allows 
tracking of cases by visa category. The software is in use in 
approximately half of our overseas consular sections. We expect to have 
all posts using the software by mid-May. At that point, the Visa Office 
will be able to monitor progress in all SAO cases through a variety of 
standardized reports.
    Our suggestions for establishing timelines and benchmarks are being 
submitted to DHS. Per the MOU between the Department and DHS concerning 
the implementation of section 428 of the Homeland Security Act, DHS 
must concur in changes to policy and procedures involving SAOs.

Q2.  GAO indicates that the upgrades being carried out by the State 
Department in its information management system to allow for electronic 
transfer of data on visa security checks will not be immediately inter-
operable with FBI information systems but that efforts are being made 
to provide inter-operability in the future. What is the status of 
upgrades to State's information management system and when do you 
expect to achieve inter-operability of information systems with the 
FBI?

A2. To upgrade the automation that supports the interagency clearance 
process, visa processing posts overseas need new software. That 
software has now been provided to all our posts overseas. CA 
headquarters has verified that the software has been installed properly 
at 105 posts. We will continue over the next few weeks to verify with 
the remaining 106 posts that the software is functioning properly.
    The improvement of connectivity to the FBI depends on our 
respective use of the inter-operable Open Source Information System 
(OSIS). CA is already using this network for other projects. We have no 
obstacles to expanding our use of this network. The FBI is now using 
this network with limited numbers of users. Once the FBI informs us 
that they are fully prepared to rely on the network, CA will transfer 
SAO data solely in an electronic manner. CA will then eliminate the 
transmission of such data in telegrams that have caused errors such as 
garbles in transmission to the detriment of efficient data processing.

Q3.  You indicate that State's Nonproliferation Bureau must sometimes 
ask consular posts for additional information about an applicant. Do 
you track the frequency of such information requests, and do you 
periodically inform consular posts on how to improve their security 
checks based on experience with past shortcomings?

A3. The Nonproliferation Bureau (NP) requests additional information 
from consular posts in only about five percent of Visas Mantis cases. 
We work closely with NP to provide consular officers feedback on the 
type of information that is helpful for the screening process. In 2004, 
the State Department started sending a quarterly report to the field 
about Visas Mantis policy and procedural issues. The report also 
provides guidance that reflects current issues of concern to reviewing 
agencies. NP and the Visa Office (VO) give a training session on the 
Visas Mantis program to all consular officers before they head out to 
post.
    The Bureau of Consular Affairs (CA) is funding trips by NP 
officials to regional consular conferences. An NP official attended a 
regional consular conference for China posts last January. VO also uses 
video conferences with posts that submit large numbers of Visas Mantis 
requests. For instance, we held such a conference with consular 
officers in Moscow in March.
    CA is also creating a web page for classified information for use 
by consular officers. This will allow CA and NP to provide feedback of 
a classified nature to the benefit of consular officers around the 
world.

Q4.  The GAO study showed that the time required for State to transmit 
the results of an FBI clearance to a consular post was nearly 24 days, 
and could be as much as 141 days. What are some of the reasons for 
these very long delay times? What steps have you taken to reduce 
delays?

A4. Upon receipt of a final response from all reviewing agencies, our 
goal is to transmit a response to post within two business days. Delays 
that occurred a year ago related to problems with telegraphic 
transmission, glitches in the data transferred between the FBI and the 
Visa Office, and shortcomings in the software in use in the Visa 
Office. To fix such problems, we developed new software and added 
personnel resources. We analyzed the results of the pilot program for 
the improved software to handle transmission of clearances and case 
tracking. We believe that we have successfully addressed the causes of 
the delays that GAO found. The new software is in place in 
approximately half of our overseas posts. We should complete this 
project over the next few months.

Q5.  What is the source of the technical problem you mentioned in your 
testimony regarding State's automated visa tracking system failing to 
capture all of the clearance information from FBI's security reviews?

A5. The technical problem mentioned is due to a lack of a shared unique 
identifier in both, the Visa Office's internal case tracking system 
(VISTA), and the FBI response Database. VISTA uses the Post's cable 
transmission number, applicant name, and date of birth to identify a 
response record from the FBI. However, when the FBI response does not 
report this data accurately, VISTA cannot identify a matching record. 
The most significant problem with data received from the FBI is that 
the FBI reformats names that come into its name-check unit. Multiple 
last names are combined into one name.
    For example, if a cable is sent with the name EL AHI, SEYED, the 
FBI will reformat it to ELAHI, SEYED. When the FBI sends its response 
back to VO, the record has the reformatted name and therefore VISTA 
will not be able to match the record. According to VISTA data, about 17 
percent of all SAOs from FY 2003 had this problem. The Security 
Advisory Opinion Improvement Project (SAO/IP) eliminates this problem 
because it does establish a unique identifier for each transaction. The 
FBI concurs with this solution.

Question submitted by Representative Sheila Jackson Lee

Q1.  Please provide a timeline for a student visa application coming 
through your agency: who it comes from, what form it comes in (i.e., 
digital, or hardcopy, etc.), how you process it, what your role is 
(phone calls, letters of inquiry, compare to databases, etc.), how many 
actual man-hours are needed per application for those tasks (mean, 
range), how much time the application waits in a queue or in-box, and 
then where it goes from there.

A1. The majority of student visa applicants receive a decision 
concerning visa eligibility from the consular officer upon conclusion 
of the visa interview. Some cases may be suspended for anti-fraud work. 
Some cases that raise national security concerns may need to be 
submitted for interagency review in Washington. The interagency 
screening process is normally concluded within 30 days.
Initial Steps
    An educational institution issues a Form I-20 to a prospective 
student and registers the student in the on-line Student and Exchange 
Visitor Information System (``SEVIS'') maintained by the Department of 
Homeland Security (DHS).
    Once the student has compiled all appropriate supporting 
documentation, the student may obtain an appointment for a visa 
interview at a U.S. Consulate. The minimum supporting documentation 
includes the visa application forms (DS 156, 157, and 158), a photo, a 
valid passport, and a receipt for payment of the visa application fee 
(also known as the MRV fee). Different consulates have different 
systems for making visa appointments, depending on local conditions.
    Consulates worldwide give priority to student and exchange visitor 
applications. At this time, appointments are available around the world 
within a week except at five posts. The Department is helping those 
five posts with additional resources and/or management assistance.
    The student may apply for a visa at any time before the initial 
program start date for his/her initial entry as a student to the United 
States. However, a visa may not be issued for an initial-entry until 90 
days before the program start date.
Visa Application at the Consulate
    When a student arrives at the consulate, s/he will normally turn in 
the application form so that clerical staff can undertake data entry. 
Visa applicants may now fill out their visa applications on line. The 
data is downloaded into a data base. At the consulate the student 
presents a print-out of the application with a bar code, and the 
information on the form is downloaded onto the visa processing system 
based on the bar code. Applications written manually are still 
accepted, and consulate staff transcribe the information on these 
applications into the consular database. Data entry may take a few 
minutes to approximately an hour.
    The next step would be biometric collection. At over 100 posts, 
consular officers are now collecting biometric identifiers of all visa 
applicants. The biometric collection consists of a digital photo and an 
electronic scan of the applicant's two index fingerprints. All posts 
will be processing biovisas in accordance with section 303 of EBVERSA 
by October 26, 2004. This step occurs in front of the consular officer 
and takes approximately 30 seconds.
    The consular officer will then normally take a minute or two to 
quickly look over the supporting documentation to determine the nature 
of the application and decide how to initiate the visa interview.
Visa Adjudication
    The consular officer is responsible for conducting the visa 
interview. It is viewed as an important tool in determining the bona 
fide nature of a visa application. Immigration law places the burden of 
proof on the student to demonstrate that s/he is a bona fide non-
immigrant who has the intention to return to his/her home country after 
a temporary stay in the United States, is a bona fide student able to 
pursue the proposed course of study, demonstrates funds for the 
proposed course of study, and is either proficient in English or will 
receive English language study in the United States. There is no fixed 
length for the interview; but the average interview of a bona fide 
applicant lasts about five minutes.
    During the visa interview, the consular officer checks the SEVIS 
database to make sure that the I-20 is valid and that the student is 
still in active status within the system. If the consular officer 
approves the visa for issuance, that information is automatically sent 
to the SEVIS database.
Name-checks
    When an applicant is entered into the consular database, a name-
check is automatically done on the applicant's name in the Consular 
Lookout and Support System (CLASS). The consular officer has the 
results of that name-check at the interview, and verifies whether or 
not any ``hits'' pertain to the applicant. If there is a ``hit'' that 
appears to pertain to the visa applicant, the consular officer will 
deny the visa application under section 221 (g) of the Immigration and 
Nationality Act. This is a technical denial to indicate that further 
administrative processing is required. The consular officer will pursue 
the case with the agency that developed the derogatory information. In 
some instances, the Visa Office may act as intermediary. It normally 
takes 2-3 weeks for the consular officer to receive the appropriate 
background information and call in the applicant to discuss further a 
potential visa ineligibility.
    In some instances, the consular officer will notice that an 
application raises national security concerns as identified by federal 
intelligence and law enforcement agencies. The criteria for cases that 
require screening through an interagency process are included in the 
Foreign Affairs Manual. The consular officer will deny the case under 
section 221 (g) pending guidance from Washington. The Visa Office acts 
as a clearinghouse, receiving and analyzing responses from the clearing 
agencies. The Visa Office provides final guidance to the consular 
officer. Most such cases are fully resolved within a month.
    There are two types of interagency screening efforts that may 
affect students. ``Visas Mantis'' is the codeword that refers to a 
screening process designed to look for inappropriate access to 
sensitive technology. ``Visas Condor'' is a codeword that refers to a 
screening process for counterterrorism purposes.
    Consular officers generally send an interagency screening request 
the same day of the interview or the next day. The request is in the 
form of a telegram that is simultaneously transmitted to the Visa 
Office and all appropriate federal clearing agencies.
Visa Issuance
    In most cases, the consular officer makes a final decision whether 
to issue a student visa at the end of the interview. The applicant is 
informed of the decision at that time. The consular officer notes the 
visa decision in the automated system. In the case of a visa denial, 
the consular officer is required to add his/her reasoning to the 
system. The officer may also include notes in issuance cases.
    If approved, the applicant's passport and approved application 
form(s) are provided to the clerical staff for visa printing. Normally, 
the visa is printed in the afternoon or the next day.
Visa Delivery
    Visaed passports are delivered to applicants in a variety of ways. 
Some low-volume consulates are able to produce visas while the 
applicant waits. Other consulates have a designated time to return 
passports in the afternoon or the next day. Many consulates have 
introduced a courier system whereby visaed passports are delivered 
directly to the applicant's home address after several days, and the 
individual does not have to wait at the consulate.
    The Department of State does not have any statistics concerning how 
much officer time or man-hours an individual visa takes to process. 
Interview times will vary among applicants, and preparation time will 
vary due to local conditions.
    Once a visa is issued, the student may travel to the United States 
at any time during the period the visa is valid, although an initial-
entry student may not enter the United States more than 30 days before 
the start of classes.

Question submitted by Representative Lynn Woolsey

Q1.  There have been cases at American universities, including 
incidents at the University of California campuses, where international 
scholars have had to be detained upon arrival in the United States 
because there were problems with their paperwork. Through some of the 
anecdotal information I have received, I have heard of professors and 
scholars, who arrive without having completed every step of a new 
clearance process, but they have letters from their universities, 
inviting them to the Unites States. In some of these instances, the 
scholars were harshly detained and poorly treated while their visa 
status was investigated. I am concerned that international students and 
scholars, whose contributions to American society and education are 
immeasurable, are afraid to come to the United States. They have heard 
horror stories about people being handcuffed, detained on wooden 
benches with a small blanket, and denied access to their luggage or 
medicines. Rather than potentially face this type of treatment, 
international students and scholars may choose to study or present 
their research in other countries. I do not have issue with the fact 
their entry is delayed until problems are resolved, but I think there 
should be a protocol for handling these cases in a more reasonable and 
standardized way.

     Do officials at American ports of entry have the proper training 
and financial resources needed to manage detained international 
scholars in a humane way that encourages them to come back?

A1. The Department of State cannot address the issues concerning 
procedures at Ports of Entry. That is the responsibility of the 
Department of Homeland Security.
    The Department of State can affirm that we have proactive public 
outreach programs to ensure that scholars understand that to travel to 
the U.S. they must have visas appropriate for the type of activity they 
wish to conduct in the U.S. We also have close working relations with 
the DHS National Targeting Center (NTC) that supports port of entry 
inspectors. NTC may phone us to discuss the case of an individual who 
has arrived with incomplete and inappropriate information. We use 
replicated data from our overseas posts to help advise NTC about 
specific cases.
                   Answers to Post-Hearing Questions
Responses by Robert J. Garrity, Jr., Deputy Assistant Director, Record/
        Information Administration, Federal Bureau of Investigation

Questions submitted by Chairman Sherwood Boehlert

Q1.  GAO made a number of recommendations to reduce the time necessary 
to adjudicate visas for foreign students and scholars. Among them, GAO 
urged the Secretary of State, in consultation with the Secretary of 
Homeland Security and the Director of the Federal Bureau of 
Investigation, to develop and implement a plan to improve the visa 
process, with milestones for pending cases and performance goals and 
measurements for future cases. What steps are you taking to develop and 
implement a plan? Specifically, what are you doing to establish 
milestones and performance goals? How should Congress evaluate whether 
the planning recommendation is being implemented?

A1. The FBI is participating in the development of the Department of 
State's (DOS) new visa database. DOS and the FBI have agreed on the 
process by which electronic visa information will be transmitted 
between them, and a Memorandum of Understanding is in the final stage 
of completion. In the interim, DOS submits requests to the FBI on 
computer disc. This process is highly reliable and has improved 
processing times.
    Additionally, the FBI and DOS, as members of the Intelligence 
Agencies' Working Group, are reviewing the need for the approval of 
Visas Mantis by the FBI. In the interim, DOS notifies the FBI of cases 
requiring immediate attention so the FBI can provide expedited 
resolution.
    The FBI is able to track the receipt and disposition of these 
requests and will be able to measure the performance improvements 
expected from the application of these new technological and management 
methods.

Q2.  Your testimony indicated that the main cause for the long delay 
times in the FBI's visa security checks are for the cases that require 
the retrieval of paper records. You also indicated that FBI is moving 
toward a fully electronic database system. What is the status of your 
planning and your timeframe for deploying this new electronic 
information system?

A2. The FBI's Records Management Division (RMD) has planned a Central 
Records Complex (CRC) that will house the FBI's paper records from all 
265 FBI locations worldwide. As a preliminary step in relocating all 
files, the FBI has initiated a multi-year inventory to account for 
every file in its records system. Those files due for disposal under 
the FBI's records retention plan will either be destroyed or 
accessioned to the National Archives. Those files not due for disposal, 
such as files that have continuing law enforcement, 
counterintelligence, or counterterrorism value, will be scanned, 
processed by optical character recognition programs, and uploaded as 
electronic records in the FBI's electronic record keeping system.
    The FBI is working aggressively to achieve a fully electronic 
digitized record system. Interim improvements within the FBI, including 
the development of electronic databases to prevent duplicate work, the 
scanning of files, and work flow improvements, will reduce processing 
times. The timetable for completing this effort is contingent on 
multiple factors, including the personnel resources available in the 
event of evolving priorities, possible enhancements to technology which 
may improve efficiency and speed the process, legal considerations 
related to the use of scanned documents for judicial and administrative 
purposes, and the financial resources committed to this project 
(including the funding received for the building of the new CRC, which 
is a first step to be followed by the relocation of closed files so 
that files of interest can be scanned for future use as digitized 
records).

Questions submitted by Representative Bart Gordon

Q1.  How common is it for defective or incomplete information regarding 
Visas Mantis security checks to be provided to the FBI from consular 
officers?

A1. The FBI's tracking of the visa process does not specifically record 
errors or duplicate visa requests, so the FBI cannot provide a precise 
response to this question. However, since DOS began providing 
information to the FBI on computer disc, the number of duplicates and 
errors has been minimal.

Q2.  Are follow-up requests to State for additional information a 
significant factor in determining the time it takes the FBI to perform 
its security reviews?

A2. No. DOS ordinarily sends the appropriate information in the initial 
request.

Q3.  Do you believe that consular officers apply too little judgment in 
requesting security checks for visa applications for students and 
scholars, thereby placing an unnecessary burden on the system that 
impairs the FBI from concentrating on applications involving true 
security threats?

A3. The FBI recognizes that all agencies are attempting to fulfill 
their missions within the finite resources allocated. Consular officers 
attempt to discern, through a very limited opportunity for interview, 
whether or not the visa applicant will have access to those American 
special technologies that warrant a Visas Mantis name check. While the 
expenditure of more time by consular officers would enable them to make 
more precise determinations regarding the need for security checks, 
reducing the FBI's need to expend resources, the FBI has not evaluated 
how much additional consular time would be needed or how much FBI time 
would be saved in this effort.

Question submitted by Representative Sheila Jackson Lee

Q1.  Please provide a timeline for a student visa application coming 
through your agency: who it comes from, what form it comes in, how you 
process it, what your role is, how many actual man-hours are needed per 
application for those tasks, how much time the application waits in a 
queue, and then where it goes from there.

A1. Following is the work flow process with respect to the FBI's review 
of student visa applications from the date of receipt at the FBI 
through completion. The statistical information with respect to the 
steps in that process is derived from a recently completed work process 
study with respect to FBI name checks.

        <bullet>  Visa applications are received via cables from 
        individual consulates or by disc or facsimile from DOS.

        <bullet>  Requests received by cable or disc are processed on 
        the day of receipt through an automated process. Approximately 
        80 percent of Visas Mantis are returned to DOS within 72 hours 
        as ``No Record'' responses, indicating that the FBI has no 
        record with respect to the individual involved.

        <bullet>  When an automated search reveals the possibility of a 
        responsive file, the request is forwarded for manual review. 
        This review is conducted by an analyst within 14-30 days. Each 
        analyst reviews the files related to an average of 33 names per 
        hour. Approximately 10 percent of visas are returned as ``No 
        Record'' responses at this point, meaning that the file did 
        not, in fact, relate to the individual at issue. Consequently, 
        within 30 days of receipt at the FBI, 90 percent of all 
        applications are resolved.

        <bullet>  The remaining applications are forwarded for 
        additional file review; time in this file review queue averages 
        one week. Among recurring submissions, visas are placed among 
        the highest priorities. (White House requests for name checks 
        with respect to individuals visiting the President have the 
        highest priority. Special requests relating to counterterrorism 
        investigations are also given a higher priority.)

        <bullet>  Processing times at this file review stage are as 
        follows.

                <bullet>  Electronic files--Electronic files are 
                retrieved within minutes. It takes an average of 30 
                minutes for name check personnel to review a given file 
                or reference.

                <bullet>  Paper files located in FBI Headquarters--
                Files are retrieved within three to 30 days. File 
                service personnel average 40 minutes per file to locate 
                and retrieve a file. It takes an average of 30 minutes 
                for name check personnel to review a given file or 
                reference.

                <bullet>  Paper files located in FBI field offices--
                Files are retrieved within five to 90 days. An average 
                of 30 minutes is expended to forward a file request to 
                a field office (phone call, e-mail, or electronic 
                communication). Once a file is located, it takes an 
                average of four to five hours for a field office 
                employee to draft a summary of the file for 
                transmission to name check personnel. It takes an 
                average of 30 minutes for name check personnel to 
                review each summary.

                <bullet>  Paper files that cannot be located-A small 
                percentage of files are not located (the exact number 
                of such files has not been maintained). If a file is 
                not located within 180 days, the appropriate 
                substantive FBI office coordinates with DOS to 
                determine whether the visa request can be resolved 
                without benefit of the file. This is a risk management 
                issue that requires the evaluation of several factors 
                by appropriate FBI and DOS personnel.

           An additional six percent of requests are resolved through 
        this manual file review, which takes from two to 60 days to 
        complete. Consequently, after a total of 90 days, 96 percent of 
        the requests have been resolved.

        <bullet>  Review of the files related to the remaining 
        applications (four percent), all of which have been identified 
        as being germane to the requester and as potentially having 
        relevant information requiring review by an analyst from the 
        cognizant subject matter office, is typically completed within 
        a week. If there is no objection to granting the visa, the 
        analyst notifies the name check unit and, within 72 hours, DOS 
        is notified. If there is an objection, DOS is notified by cable 
        sent directly from the analyst. 97 to 98 percent of requests 
        are resolved within 120 days after receipt by the FBI.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
